<html>
<title> - HITTING THE ETHANOL BLEND WALL: EXAMINING THE SCIENCE ON E15</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    HITTING THE ETHANOL BLEND WALL:
                      EXAMINING THE SCIENCE ON E15

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, JULY 7, 2011

                               __________

                           Serial No. 112-28

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-254                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92f5e2fdd2f1e7e1e6faf7fee2bcf1fdffbc">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                         Thursday, July 7, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Chairman Andy Harris, Subcommittee on Energy and 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

Statement by Ranking Minority Member Brad Miller, Subcommittee on 
  Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

                               Witnesses:

Ms. Margo Oge, Director, Office of Transportation and Air 
  Quality, U.S. Environmental Protection Agency
    Oral Statement...............................................    15
    Written Statement............................................    16

Mr. Bob Greco, Group Director, Downstream and Industry 
  Operations, American Petroleum Institute
    Oral Statement...............................................    19
    Written Statement............................................    20

Ms. Heather White, Chief of Staff and General Counsel, 
  Environmental Working Group
    Oral Statement...............................................    28
    Written Statement............................................    29

Mr. Jeff Wasil, Emissions Certification Engineer, Evinrude 
  Outboard Motors
    Oral Statement...............................................    48
    Written Statement............................................    49
    Biography....................................................    52

Mr. Mike Brown, President, National Chicken Council
    Oral Statement...............................................    98
    Written Statement............................................    99
    Biography....................................................   101

Mr. W. Steven Burke, President and Ceo, Biofuels Center of North 
  Carolina
    Oral Statement...............................................   102
    Written Statement............................................   103
    Biography....................................................   107

Dr. Ron Sahu, Technical Consultant, Outdoor Power Equipment 
  Institute
    Oral Statement...............................................   108
    Written Statement............................................   110
    Biography....................................................   127

             Appendix I: Answers to Post-Hearing Questions

Ms. Margo Oge, Director, Office of Transportation and Air 
  Quality, U.S. Environmental Protection Agency..................   150

Mr. Bob Greco, Group Director, Downstream and Industry 
  Operations, American Petroleum Institute.......................   163

Ms. Heather White, Chief of Staff and General Counsel, 
  Environmental Working Group....................................   164

Mr. Jeff Wasil, Emissions Certification Engineer, Evinrude 
  Outboard Motors................................................   165

Dr. Ron Sahu, Technical Consultant, Outdoor Power Equipment 
  Institute......................................................   166

            Appendix II: Additional Material for the Record

Material submitted by Ranking Minority Member Brad Miller........   170

Material submitted by Chairman Andy Harris.......................   173

Material submitted by Representative F. James Sensenbrenner, Jr..   180



                    HITTING THE ETHANOL BLEND WALL:
                      EXAMINING THE SCIENCE ON E15

                              ----------                              


                         THURSDAY, JULY 7, 2011

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:55 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order. Good afternoon. I want to thank the 
witnesses and the folks in the audience for your patience. We 
just finished a round of voting, but the good news is we won't 
have another round until well after this hearing is over.
    I am going to start with my opening statement. I want to 
thank our witnesses for being here today to testify on the 
scientific and technical issues associated with the 
Environmental Protection Agency's decision to grant a partial 
waiver for the use of fuel blends containing up to 15 percent 
ethanol, known as E15.
    At the outset, I would like to make clear that this hearing 
is not about picking winners and losers among fuels, or whether 
ethanol production is inherently good or bad. This hearing will 
focus specifically on the question: Did the EPA use the best 
available science when granting a partial waiver for the use of 
E15, and if not, what issues remain unanswered and what are the 
potential impacts on the hundreds of millions of engines that 
will consume E15 fuel in the very near future?
    Due to this technical focus, we have invited witnesses that 
will be directly impacted by this decision to testify on the 
scientific and data quality issues related to mid-level ethanol 
blends. While the details associated with the EPA E15 decisions 
are complex and esoteric, their impacts are potentially 
massive. The properties of ethanol are very different from 
gasoline, and they may result in problems associated with 
corrosion, engine failure, increased emissions, materials 
incompatibility, infrastructure, warranty coverage and the 
potential for misfueling.
    Every American that uses a car, boat, motorcycle, tractor, 
lawnmower or other any other gasoline-powered equipment could 
be negatively affected. As we will hear today, a diverse 
coalition of interest groups have highlighted the need for 
greater scientific certainty and more testing for E15. And 
thanks to the effort of Vice-Chairman Sensenbrenner, we now 
have most automakers on record asserting that EPA testing 
failed to determine that E15 won't be harmful to car engines, 
and that warranties may not cover any resulting damages.
    Why, then, did EPA issue enormously impactful rulings 
largely on the basis of a single test program conducted by the 
Department of Energy? We are here today to answer this 
question, but based on available information it appears safe to 
say it was not a science-driven decision that comprehensively 
addresses the technical concerns identified by stakeholders.
    Meanwhile, the EPA job-killing machine marches on, driven 
by a regulate-at-all-costs mentality and unencumbered by facts. 
From ethanol to climate regulations to agricultural policies, 
the experience in my district illustrates how EPA is strangling 
the economy, and more often than not it is doing so on the 
basis of weak science.
    Last month, a nearly 100-year-old poultry company, Allen 
Family Foods, filed for bankruptcy. This company is a major 
employer on the Eastern Shore of Maryland. It is the second-
largest employer in Talbot County with more than 500 employees 
at one of its single plants in Cordova, Maryland. The 
combination of skyrocketing feed prices driven by our ethanol 
policy and job-killing regulations by EPA has now forced this 
100-year-old company to shut its doors.
    Last, I want to emphasize that E15 is not a partisan issue. 
In February, the House voted overwhelmingly in favor of an 
amendment that would have defunded EPA's implementation of the 
E15 waiver decision for this fiscal year. Although that 
language did not become law, the issue clearly remains 
unresolved. I believe this Subcommittee can play an important 
role in advancing this debate, consistent with past efforts to 
examine the scientific and technical underpinnings of fuel 
formulations and vehicle and biofuels technologies more 
generally.
    To that end, we have asked witnesses to comment on very 
brief legislative language that would direct the EPA to 
contract with the National Academy of Sciences for an 
independent assessment of the state of the science regarding 
E15.
    I look forward to receiving feedback on this preliminary 
language, and I want to thank the witnesses again for appearing 
before us today.
    [The prepared statement of Mr. Harris follows:]

               Prepared Statement of Chairman Andy Harris

    I thank our witnesses for being here today to testify on the 
scientific and technical issues associated with the Environmental 
Protection Agency's decision to grant a partial waiver for the use of 
fuel blends containing up to 15 percent ethanol, known as ``E15.''
    At the outset, I'd like to make clear that this hearing is not 
about picking winners and losers among fuels, or whether ethanol 
production is inherently good or bad. This hearing will focus 
specifically on the question: Did EPA use the best available science 
when granting a partial waiver for the use of E15, and if not, what 
issues remain unanswered and what are the potential impacts on the 
hundreds of millions of engines that will consume E15 fuel in the very 
near future?
    Due to this technical focus, we have invited witnesses that will be 
directly impacted by this decision to testify on the scientific and 
data quality issues related to mid-level ethanol blends.
    While the details associated with the EPA E15 decisions are complex 
and esoteric, their impacts are potentially massive. The properties of 
ethanol are very different from gasoline, and they may result in 
problems associated with corrosion, engine failure, increased 
emissions, materials incompatibility, infrastructure, warranty 
coverage, and the potential for misfueling.
    Every American that uses a car, boat, motorcycle, tractor, 
lawnmower or other gasoline-powered equipment could be negatively 
affected. As we will hear today, a diverse coalition of interest groups 
have highlighted the need for greater scientific certainty and more 
testing for E15. And thanks to the efforts of Vice-Chairman 
Sensenbrenner, we now have most automakers on record asserting that EPA 
testing failed to determine that E15 wouldn't be harmful to car 
engines, and that warranties would not cover any resulting damages.
    Why, then, did EPA issue enormously impactful rulings largely on 
the basis of a single test program conducted by the Department of 
Energy? We are here today to answer this question, but based on 
available information it appears safe to say it was not a science-
driven decision that comprehensively addresses the technical concerns 
identified by stakeholders.
    Meanwhile, the EPA job-killing machine marches on, driven by a 
regulate-at-all-costs mentality and unencumbered by facts. From ethanol 
to climate regulations to agricultural policies, the experience in my 
District illustrates how EPA is strangling the economy, and more often 
than not it is doing so on the basis of weak science. Last month, a 
nearly-100-year-old poultry company, Allen Family Foods, filed for 
bankruptcy. This company is a major employer on the Eastern Shore; It 
is the 2nd-largest employer in Talbot County, with more than 500 
employees at a single plant in Cordova. The combination of skyrocketing 
feed prices driven by our ethanol policy and job-killing regulations by 
EPA has now forced this company to shutter its doors.
    Last, I want to emphasize that E15 is not a partisan issue. In 
February, the House voted overwhelmingly in favor of an amendment that 
would have defunded EPA's implementation of the E15 waiver decision for 
this fiscal year. That language did not become law, and the issue 
clearly remains unresolved. I believe this Subcommittee can play an 
important role in advancing this debate, consistent with past efforts 
to examine the scientific and technical underpinnings of fuel 
formulations and vehicle and biofuels technologies more generally. To 
that end, we have asked witnesses to comment on very brief legislative 
language that would direct the EPA to contract with the National 
Academy of Sciences for an independent assessment of the state of the 
science regarding E15.
    I look forward to receiving feedback on this preliminary language, 
and I want to thank the witnesses for appearing before us today.

    Chairman Harris. The Chair now recognizes Ranking Member 
Miller for five minutes for an opening statement.
    Mr. Miller. Thank you, Chairman Harris, for the opportunity 
to hear about current policies regarding renewable fuels and 
E15.
    Renewable fuel from biomass, specifically corn-based 
ethanol, is a complex and controversial issue, and as the panel 
before us demonstrates, there are many different interests and 
opinions regarding the ethanol content of our Nation's fuel 
supply.
    I understand this hearing was supposed to examine the 
science and testing EPA used in its decision to allow the 
introduction of E15 to the market, and we may not all agree 
with the EPA's decision or about their decision, but we should 
be interested in learning more about the underlying science as 
well as the positive and negative effects that this decision 
may have.
    Unfortunately, given the lopsided panel and the sprawling 
focus of this hearing, I am concerned that we will leave here 
only slightly more informed about the science around E15 and no 
closer to agreement on what steps, if any, Congress should 
take. I agree with Chairman Harris' statement a little moment 
ago that the EPA should not proceed unencumbered by facts. 
Neither should this Subcommittee.
    Just as we demand that the executive branch work in an 
efficient, transparent manner, we should also have a clear 
picture of what we are trying to accomplish within our 
Committee. Since being notified about this hearing and up until 
the end of last week, again, Monday was a holiday, we have seen 
everything from the purpose and scope of the hearing to the 
selection of witnesses broaden and change. And as a result, I 
anticipate critical gaps in this Committee's record.
    Much of the science EPA used in making its waiver decision 
was conducted by the Department of Energy. In fact, DOE's role 
is the only piece of this issue that is firmly within this 
Committee's jurisdiction. But the majority did not invite the 
DOE to the Subcommittee to testify today. It does not inform 
our understanding of the science if we do not have DOE here to 
discuss the extensive testing that they conducted. It also 
violates pretty basic ideas of fairness, that we will have 
witnesses criticize DOE, and DOE is not here to tell their side 
of the story.
    Just last Thursday the witnesses, along with the minority, 
received draft legislation on which they were instructed to 
testify. While the draft is neither particularly complex nor 
ambitious, that is hardly time for the witnesses to review the 
material in advance, to submit their testimony, especially 
again given the holiday Monday.
    Within the last few weeks, the Vice-Chairman of the Full 
Committee, writing on Committee stationery, Mr. Sensenbrenner, 
sent letters to the automotive and small engine industry from 
the Committee on the issue of E15. The minority received the 
response to those letters just two days ago, and on Tuesday of 
this week, the day before yesterday, Mr. Sensenbrenner sent a 
letter to the EPA asking several questions about E15 and 
setting a deadline of July 22 for the EPA to respond.
    If our task is to conduct oversight, thorough oversight, we 
should have waited to hear back from the EPA before holding 
this hearing and certainly not before we ask witnesses and 
Members to review the legislation. It appears that the majority 
already has drawn its conclusions on the subject without 
considering EPA's responses or the DOE's explanation of the 
research, and this hearing is a formality. To build a 
legislative record on a bill that may or may not be, probably 
is not in fact within our jurisdiction.
    Mr. Chairman, the EPA should not act half-cocked. We agree 
on that. They should not act on incomplete information without 
considering the views of the people who are most affected by 
their actions. Neither should this Subcommittee. Clean and 
sustainable and renewable fuels are already a part of our 
economy, and we need to work together toward realizing future 
producing home-grown renewable fuels. In this grand challenge, 
it is this Committee's task to focus on the science and 
technology. That is why I have invited Mr. Burke from North 
Carolina today. He will provide a different perspective from 
the rest of the panel on renewable fuels and discuss how 
science and technology will help our country get on the road to 
a sustainable energy future.
    And with that, I look forward to all of our witness's 
testimony and what I hope will be an honest discussion about 
the scientific and technological implications of our continued 
migration from oil to alternative fuels. Thank you. I yield 
back my time.
    [The prepared statement of Mr. Miller follows:]

            Prepared Statement of Ranking Member Brad Miller

    Thank you, Chairman Harris, for the opportunity to hear about 
current policies regarding renewable fuels and E15. Renewable fuel from 
biomass, specifically corn-based ethanol, is a complex and 
controversial issue. And, as this panel demonstrates, there exists a 
vast array of interests and opinions regarding the ethanol content of 
our nation's fuel supply.
    I understand that this hearing was supposed to examine the science 
and testing EPA used in its decision to allow introduction of E15 in 
the market. We may not all agree with the EPA's decision, but we should 
be interested in learning more about the underlying science as well as 
the range of positive and negative effects this decision may have. 
Unfortunately, given the lopsided panel and sprawling focus of this 
hearing, I am concerned that we will leave here only slightly more 
informed about the science around E15, and no closer to agreement on 
what steps, if any, the Congress should take.
    Just as we expect the Executive Branch to work in an efficient, 
transparent, manner, we should also have a clear picture of what we are 
trying to accomplish with our Committee actions. Sadly, since being 
notified about this hearing, and up until the end of last week, we have 
seen everything from the purpose and scope of the hearing to the 
selection of the witnesses: broaden and change. I anticipate critical 
gaps in the Committee's record on the subject.
    Much of the science EPA used in making its waiver decision was 
conducted by the Department of Energy. In fact, DOE's role is the only 
piece of this issue firmly within this Committee's jurisdiction. But 
unfortunately the Majority did not invite DOE to the Subcommittee today 
to testify. I do not see how we get a clear picture of the science if 
we do not have DOE here to discuss the extensive testing they 
conducted. With seven witnesses on one panel--surpassed this Congress 
only by an 8-person panel, half of which were children--I would expect 
to hear a wide variety of perspectives on ethanol. Unfortunately with 
such a crowded and diverse panel, and such little time for discussion, 
it will be difficult for members and witnesses to examine the issue in 
detail. Furthermore, despite the size of this panel, we are still 
missing some critical stakeholders. The motives for not inviting the 
ethanol industry are clear, and made even clearer by instead inviting 
the oil industry to testify. I find it hard to accept that we will get 
a balanced view on the E15 waiver controversy without testimony from 
either the ethanol industry or the Department of Energy.
    Furthermore, just last Thursday the witnesses, along with the 
Minority, received draft legislation on which they were instructed to 
testify. Granted, the draft is neither particularly complex nor 
ambitious. But, in my opinion, this was hardly enough time for 
witnesses to thoroughly review the material in advance of their 
deadlines to submit testimony, especially given the holiday.
    Additionally, within the last few weeks the Vice-Chairman of the 
Full Committee, Mr. Sensenbrenner, has sent letters to the automotive 
and small engine industry from the Committee on the issue of El5. The 
Minority only received the responses to these letters two days ago. 
Then, on Tuesday of this week Mr. Sensenbrenner sent a letter to the 
EPA asking several questions about E15 and setting a deadline of July 
22nd for EPA to respond.
    Mr. Chairman, if our task is to conduct thorough oversight then I 
would have expected us to wait to hear back from EPA before holding a 
hearing, and certainly before we ask witnesses and Members to review 
legislation.
    I fear that the Majority has already drawn its conclusions on the 
subject without considering EPA's responses, and that this hearing is 
merely a formality in building a legislative record on a bill that may 
not even be within our jurisdiction.
    If the take-away message from this hearing is that EPA is making 
policy prematurely, based on incomplete data, and without considering 
the range of important stakeholder perspectives, then I must point out 
the irony in how this hearing and the proposed legislation have been 
developed.
    Opposition and support of ethanol certainly crosses party lines, 
but I cannot help but see this hearing as part of the coordinated 
partisan attack on clean energy.
    Clean and sustainable renewable fuels are already a part of our 
economy; and we need to work towards realizing a future of producing 
home grown renewable fuels. In this grand challenge, it is this 
Committee's task to focus on the science and technology: That is why I 
have invited Mr. Burke from North Carolina to testify today. He will 
provide a different perspective from the rest of the panel on renewable 
fuels and discuss how science and technology will help our country get 
on the road to a sustainable energy future.
    With that, I look forward to all of the witness's testimony, and to 
what I hope will be an extended discussion about the scientific and 
technological implications of our continued migration from oil to 
alternative fuels. Thank you.

    Chairman Harris. Thank you very much, Mr. Miller. If there 
are Members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    At this time I would like to introduce our witness panel. 
Ms. Margo Oge is the Director of the Office of Transportation 
and Air Quality at the Environmental Protection Agency where 
she has worked since 1980.
    Mr. Bob Greco is the Group Director for Downstream and 
Industry Operations at the American Petroleum Institute. Prior 
to his 21-year career at API, Mr. Greco was an Environmental 
Engineer with EPA.
    Ms. Heather White is the Chief of Staff and General Counsel 
at the Environmental Working Group. She has previously served 
as director of Education Advocacy at the National Wildlife 
Federation and as counsel to U.S. Senator Russ Feingold on 
energy and environmental issues.
    Mr. Jeff Wasil is Emissions Certification Engineer for BRP 
Evinrude, Marine Engine Division. He is here today to testify 
on behalf of the National Marine Manufacturers Association.
    Mr. Mike Brown is the President of the National Chicken 
Council, a trade association representing over 95 percent of 
the chickens produced in the United States. Mr. Brown was 
previously Senior Vice President at the American Meat 
Institute.
    Ranking Miller has asked for the opportunity to introduce 
our next witness, Mr. Steven Burke. I now recognize Mr. Miller 
for up to two minutes for his introduction.
    Mr. Miller. Thank you. Mr. Burke became the President and 
CEO of the Biofuels Center of North Carolina in March of 2009. 
He served as Founding Board Chair from July of 2007 until that 
date and as Acting President since August 2008. The Biofuels 
Center is a private, non-profit corporation established by the 
State of North Carolina to craft and implement a policy 
commitment for a sustained state-wide biofuels initiative. Mr. 
Burke departed the North Carolina Biotechnology Center in 2009 
as Senior Vice President for Corporate Affairs, and for more 
than 24 years he helped shape the approach and strategies of 
the Biotechnology Center, the world's first targeted initiative 
for biotechnology development. Before joining the Biotechnology 
Center in 1985, as its fifth employee, he taught instructional 
design at North Carolina State University in Raleigh. I am very 
happy to have Mr. Burke here from North Carolina. We have met a 
number of times, and I believe his perspective will add to the 
discussion today. Thank you.
    Chairman Harris. I thank you, Mr. Miller. Our final witness 
is Dr. Ron Sahu, an independent technical consultant who has 
provided consulting services to the EPA and others on a variety 
of environmental matters. He is here today on behalf of the 
Outdoor Power Equipment Institute, a trade association whose 
members make a wide range of outdoor power equipment including 
lawn and garden equipment. Dr. Sahu holds a Master's and a 
Ph.D. in Mechanical Engineering from the California Institute 
of Technology. And I want to thank you all for appearing before 
the Subcommittee today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Margo Oge, from the 
Environmental Protection Agency.

STATEMENT OF MS. MARGO OGE, DIRECTOR, OFFICE OF TRANSPORTATION 
     AND AIR QUALITY, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Oge. Mr. Chairman, Members of the Subcommittee, I 
really appreciate the opportunity to testify on EPA's response 
to a request by ethanol producers to allow higher levels of 
ethanol in gasoline for use in conventional vehicles.
    Ethanol producers filed a request in March of 2009 that EPA 
increase the permissible concentration of ethanol in gasoline 
to 15 percent which EPA granted in part and denied in part. An 
EPA decision to grant a waiver by no means requires that E15 
must be used or sold in the marketplace.
    Now in researching this decision, EPA considered all the 
available evidence, including extensive test data developed by 
the Department of Energy and other researchers. In fact, we 
believe that the waiver record is extensive and strong. It 
includes DOE's, Department of Energy's testing of 19 vehicle 
models to provide statistically sound conclusions about model 
year 2007 and newer vehicles and their ability to meet exhaust 
emissions standards. It also includes the Department of 
Energy's study for model year 2001--2006 vehicles, that tests 
models that were selected because of their sensitivity to high 
ethanol levels.
    Now, those studies along with other information, several 
CSE reports, EPA compliance data, manufacturer certification 
data, in-use testing and manufacturers' defect reports provided 
the relevant information for the Administrator to make a 
decision about the potential impacts of E15, not just for the 
exhaust emissions but also for evaporative emissions, material 
compatibility and drivability.
    We did not wait for the result of several ongoing studies 
because the records in front of us were sufficient without 
those studies, and I must tell you that many of the studies 
that are still being done, they are not designed to answer the 
specific question before EPA: Would E15 cause or contribute to 
failure of emissions standards when the vehicles and engines 
were designed? In sum, extensive testing data and other 
information before EPA, we believe, providesa strong technical 
basis for the Administrator's decision to allow E15 to be sold 
on model year 2001 and newer light-duty vehicles. We also found 
that E15 did not meet the Clean Air Act requirement in the case 
of vehicles older than 2001 and off-road gasoline-powered 
equipment.
    In making the waiver decision EPA also fully complied with 
applicable legal requirements under the Clean Air Act for 
public notice and comment. Section 211(f) of the Clean Air Act 
specifically requires that we provide public notice and an 
opportunity to comment on E15 waiver applications. The Agency 
believes that we have met that requirement.
    To reduce the potential for misfueling with E15, we have 
established several measures that draw on many years of 
experience with fuel transitions. In the waiver decision, EPA 
required fuel producers that decide to introduce E15 into the 
marketplace to develop and implement a misfueling plan 
including the labeling of E15 pumps. Let me make it clear that 
a number of additional steps are needed before E15 can enter 
the marketplace.
    Many are not under EPA's control. We have not yet received 
a complete application by the renewable fuel producers that is 
required under the Clean Air Act to register E15, and only if 
E15 is registered, can be introduced into the commerce.
    In addition, retail stations that want to sell E15 will 
need to consider the compatibility of their underground storage 
tanks based on recently issued EPA guidance. Stations that want 
to sell E15 will need to consider whether changes are needed to 
fuel dispensing equipment, and many states, as you may know, 
rely on ASTM procedures before new fuels are introduced into 
the marketplace.
    As E15 enters the marketplace, EPA is committed to work 
with all stakeholders to monitor the development and help 
address any potential issues that may arise.
    Thank you very much for the opportunity, and I look forward 
to answering any of your questions.
    [The prepared statement of Ms. Oge follows:]

      Prepared Statement of Ms. Margo T. Oge, Director, Office of 
  Transportation and Air Quality, U.S. Environmental Protection Agency

    Mr. Chairman, Members of the Subcommittee, I appreciate the 
opportunity to come before you today to testify on EPA's response to a 
request by ethanol producers to allow gasoline containing more than 10% 
ethanol and up to 15% ethanol (E15) to enter the marketplace.
    Under the Clean Air Act (the Act), companies cannot increase the 
concentration of ethanol in gasoline unless the Administrator 
determines that the increased concentration will not cause or 
contribute to the failure of vehicles or engines to meet emissions 
standards. To date, the Act allows gasoline containing up to 10% 
ethanol to be introduced into commerce for use in conventional-fueled 
vehicles and fuel containing up to 85% ethanol to be introduced for use 
in flexible-fueled vehicles. Ethanol producers filed a request that EPA 
increase the permissible concentration of ethanol in gasoline to 15 
percent, which EPA granted in part and denied in part.
    In reaching this decision, EPA considered all of the available 
evidence, including extensive test data developed by the Department of 
Energy (DOE) and other researchers. Based on this evidence, EPA 
determined that the Clean Air Act criteria were met for allowing E15 to 
be introduced into commerce for use in model year (MY) 2001 and newer 
cars, light trucks and other passenger vehicles. EPA also found that 
the Act's criteria were not met for older passenger vehicles and other 
types of vehicles and gasoline-powered equipment because there were 
insufficient data to allay engineering concerns that the less 
sophisticated engines and emission controls of these products could 
accommodate E15.
    As a result, EPA raised the permissible concentration of ethanol in 
gasoline to 15 percent for gasoline for use in MY 2001 and later 
passenger vehicles, but did not raise the permissible concentration in 
gasoline for other uses. To reduce the potential for misfueling with 
E15, EPA required that fuel producers that decide to introduce E15 into 
commerce take a number of steps, including labeling E15 pumps. In 
addition, the Agency recently issued national regulations to further 
reduce the risk of misfueling.
    As a new gasoline, E15 must be registered under the Clean Air Act 
before it may be introduced into commerce. Since EPA has yet to receive 
or act on a complete E15 registration application, E15 may not yet be 
lawfully sold.

    The Clean Air Act Fuel Waiver Process

    Under the Clean Air Act, EPA has an important but limited role to 
play in determining whether a new fuel or fuel additive may enter the 
market. To protect public health and the environment, the Agency sets 
standards to control air pollution from many kinds of sources, 
including cars, trucks and non-road engines and equipment. To protect 
the ability of mobile sources to meet those standards, the Clean Air 
Act prohibits the introduction into commerce of motor vehicle fuel that 
is not ``substantially similar'' to the fuel used to determine whether 
those sources meet emission standards. Manufacturers of cars, trucks 
and equipment design their products to meet standards based on use of 
the fuel in EPA's test procedures.
    For fuels like E15 that are not substantially similar to test fuel, 
the Clean Air Act authorizes EPA to grant a waiver of the prohibition 
against introduction into commerce if a demonstration is made that the 
fuel will not cause or contribute to vehicles or engines failing to 
meet applicable standards over their full useful life. The Act requires 
EPA to respond to a waiver request within 270 days of receipt and to 
provide public notice of, and an opportunity to comment on, the waiver 
application.
    In acting on waiver requests since the 1970s, EPA has articulated 
two basic approaches for making the required demonstration of a new 
fuel's emissions impact--(1) a representative, statistical sampling and 
testing program, or (2) a reasonable engineering theory about emissions 
effects and data to confirm the theory. Both of these approaches 
reflect that it is not feasible to test every vehicle or piece of 
equipment to determine how its emissions would respond to a new fuel. 
Instead, each approach calls for sufficient data to reasonably conclude 
that the new fuel will not cause or contribute to failure to meet 
emissions standards. The burden is on the waiver applicant to make the 
demonstration, although EPA considers information submitted by the 
public and other available information in making its waiver decisions. 
An EPA decision to grant a waiver request allows, but does not require, 
the waived fuel to be made or sold.

    The E15 Waiver Request and Decision

    EPA received a waiver request for E15 from Growth Energy and 54 
ethanol producers in March 2009. The Agency sought public comment on 
the application, including the information submitted in support. EPA 
notified the waiver applicants in November 2009 that there was not 
sufficient data to support granting the waiver request at that time. 
However, in light of an ongoing DOE test program on component 
durability, the Agency stated that it would wait to make a decision on 
the waiver request until the results of the vehicle test program were 
available.
    DOE had begun developing the vehicle test program in 2007 to study 
the potential effects of ethanol blends greater than E10 on 
conventional gasoline-fueled vehicles and equipment. This was done in 
response to both President Bush's initiative to reduce petroleum 
consumption by 20% in 10 years and enactment of the Energy Independence 
and Security Act (EISA). As part of EISA, Congress required a 
significant increase in the amount of biofuels that must be added to 
transportation fuel under the Renewable Fuel Standard (RFS) program. 
DOE developed this test program as part of a larger DOE effort to 
identify different pathways for meeting the ambitious RFS2 volume 
requirements, considering vehicle technology, allowable levels of 
ethanol in fuel, the fuel distribution network, and other factors. DOE 
consulted with EPA and a wide array of stakeholders in designing its 
vehicle test program.
    After the E15 waiver request was submitted, DOE modified its test 
program so that it would produce data useful for making a waiver 
determination. In view of EISA's bipartisan mandate for increasing 
biofuels as a means of reducing petroleum use and emissions, a 
concerted effort was made to expedite the testing and share the results 
with stakeholders and the public. As EPA indicated in a letter to the 
Alliance of Automobile Manufacturers and on its webpage, DOE's test 
data were placed in the docket for the waiver request as the data 
became available and were checked for accuracy and completeness. This 
allowed members of the public to review and comment on it, as many did. 
EPA also responded to inquiries about the test data.
    As DOE testing was completed, first for MY2007 and newer light-duty 
vehicles and later for MY2001-06 light-duty vehicles, EPA considered 
the test data along with other available information to determine 
whether the statutory test for granting waivers had been met. Based on 
the sound technical rationale detailed in the Agency's October 2010 and 
January 2011 waiver decision documents, the Administrator concluded in 
these decisions that the statutory criteria were met for MY2001 and 
newer light-duty vehicles and not for older such vehicles or other 
types of vehicles, engines and equipment. The Administrator's decision 
thus increased the permissible concentration for ethanol to 15 percent, 
but only for use in MY2001 and newer light-duty vehicles.
    To protect other vehicles, engines and equipment from being 
misfueled, the Administrator's decision placed conditions on the 
introduction of E15 into commerce for use in MY2001 and newer light-
duty vehicles. It also included conditions to ensure ethanol quality 
and volatility control. Rather than attempt to reiterate here EPA's 
extensive technical basis for granting the waiver in part and denying 
it in part, I refer you to the decision documents and welcome the 
opportunity to answer any questions you may have about the decisions.

    Related Steps

    To further reduce the risk of misfueling, EPA recently issued a 
final rule establishing national requirements for E15 pump labeling, 
product transfer documents and retail station surveys. We received many 
suggestions and comments about how we could improve our proposed 
misfueling mitigation program, and we believe the final rule is 
stronger as a result. We worked closely with labeling experts from the 
Federal Trade Commission in designing a label that effectively 
communicates the essential information consumers need to avoid 
misfueling. We also enhanced the ability of product transfer documents 
to communicate the information fuel blenders, distributors and 
retailers need to properly blend and market E15. It is important to 
note that the misfueling mitigation rule requirements are designed to 
work in tandem with the related conditions of the partial waivers, so 
that the fuel producers benefitting from the waivers continue to have 
an important role to play in mitigating misfueling.
    A number of additional steps need to be taken before E15 can enter 
the market, and many of those steps are not under EPA's control. As I 
indicated previously, we have not yet received a complete application 
to register E15 as required by the Clean Air Act. Stations that want to 
sell E15 will need to consider whether changes are needed to fuel 
dispensing equipment to meet other federal, state and local 
requirements. Since a number of states restrict the sale of gasoline-
ethanol blends, law changes may also be needed in those states before 
E15 may be sold there. EPA has a role in setting standards for the 
compatibility of existing underground storage tanks (UST) with E15, and 
the agency recently issued guidance to help UST owners and operators 
meet existing federal UST compatibility requirements. As E15 enters the 
marketplace, EPA is committed to working with stakeholders to monitor 
developments and help address any issues within the Agency's 
jurisdiction.
    Thank you for the opportunity to testify today.

    Chairman Harris. Thank you very much. Mr. Greco?

  STATEMENT OF MR. BOB GRECO, GROUP DIRECTOR, DOWNSTREAM AND 
       INDUSTRY OPERATIONS, AMERICAN PETROLEUM INSTITUTE

    Mr. Greco. Thank you. Good afternoon, Mr. Chairman, Members 
of the Subcommittee, my name is Bob Greco, and I am Downstream 
Group Director for the American Petroleum Institute, API. Thank 
you for the opportunity to testify today on EPA's premature 
decision to grant a partial waiver allowing ethanol blends of 
up to 15 percent in gasoline, otherwise known as E15.
    API represents over 470 member companies involved in all 
aspects of the oil and natural gas industry. API members 
provide the fuels that keep America running.
    API supports the continued, appropriate use of ethanol to 
help meet our Nation's energy demand. With the Renewable Fuel 
Standard, or RFS2, biofuels are an increasingly significant 
part of the transportation fuel mix. However, E15 is a new 
transportation fuel that contains 50 percent more oxygen, well 
outside the range for which U.S. vehicles and engines have been 
designed and warranted. It is thus critically important to 
evaluate the short- and long-term impacts of this new fuel on 
the environment and on engine and vehicle performance and 
safety.
    Shortly after the enactment of the Energy Independence and 
Security Act in 2007, the oil and auto industries and other 
stakeholders, including EPA and DOE, recognized that 
substantial research was needed to assess the compatibility of 
higher ethanol blends with the existing vehicles and small 
engines. Through the Coordinating Research Council, or CRC, the 
oil and auto industries developed and funded a comprehensive 
multi-year test program, which was actually initiated prior to 
the E15 waiver application.
    My written testimony includes additional background on the 
CRC. The oil and auto industries have contributed close to $14 
million towards mid-level ethanol blends research over the past 
several years. Attachment 1 of my written testimony lists the 
CRC research programs and are scheduled for completion.
    This research examines the following areas: the durability 
of the engine itself, particularly the engine valves and valve 
seats; the durability of the fuel storage and handling 
equipment; the computerized on-board diagnostic system, or OBD, 
which the driver often sees as their check engine light; and 
the vehicle evaporative emissions control system, which 
minimizes the release of fuel vapors to the atmosphere. I 
disagree with Margo about whether these are emissions-related 
or not, and we can talk about that during the comment period.
    Most of this work will be completed by year's end. However, 
the preliminary test results in which at least two program 
areas, engine durability and fuel system durability, suggest 
that further investigation is warranted.
    We shared the schedule and preliminary test results with 
EPA on several occasions, but the agency ignored this research. 
Instead of waiting for the CRC studies to be completed and 
thoroughly evaluated, EPA improperly used the data from the DOE 
catalyst durability program and drew conclusions about E15 
effects for which this DOE program was not designed to 
evaluate.
    In addition, research is being conducted on E15's 
compatibility with gas station pumps, hoses, nozzles, gaskets 
and underground storage equipment. This work is in partnership 
with EPA and two DOE national labs, Oakridge National Lab and 
the National Renewable Energy Lab, or NREL.
    NREL's research indicates that 70 percent of the used 
equipment tested and 40 percent of the new equipment tested 
yielded either non-compliant or inconclusive test results. 
These are potentially serious safety concerns for consumers and 
gas station attendants from dispensing E15 from any equipment 
that is not specifically listed for its use.
    EPA recently released their gasoline pump labeling rule, 
and API has serious concerns with their approach. The rule 
weakened the final label design from what they originally 
proposed.
    In conclusion, EPA's desire to allow more ethanol in fuels 
cannot be allowed to harm our customers investments in safe, 
reliable and economical transportation. If consumer 
satisfaction and safety are compromised, the credibility of not 
only future biofuels but the entire RFS2 program will be 
questioned and challenged. That is why the oil and auto 
industries are supporting a comprehensive test program through 
the CRC, and testing has revealed reasons for concern.
    The E15 waiver controversy, however, points to the larger 
problem with the RFS2 mandates. The amount of biofuels required 
is fast approaching the limit of the vehicle fleet to safely 
utilize them. Within the next year or so, this blend wall will 
likely be exceeded, and refiners are greatly concerned about 
complying with an unworkable mandate.
    API urges Congress to seriously examine this looming issue 
and realign the biofuels mandates to fit the capabilities of 
the vehicle fleet. A premature E15 waiver is not the solution.
    Thank you for your time today, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Greco follows:]

  Prepared Statement of Mr. Bob Greco, Group Director, Downstream and 
           Industry Operations, American Petroleum Institute

    Good afternoon, my name is Bob Greco and I am Group Director of 
Downstream and Industry Operations for the American Petroleum Institute 
(API). Thank you for the opportunity to testify today on the decision 
by EPA to prematurely grant waivers that allow ethanol blends of up to 
15% (E15) in gasoline for a subset of the U.S. light duty vehicle 
population. API is a national trade association representing over 470 
member companies involved in all aspects of the oil and natural gas 
industry. API members provide the fuels that keep America running.
    API supports the continued, appropriate use of ethanol and other 
renewable fuels to help meet our nation's energy demand. With 
implementation of the Renewable Fuel Standard (RFS2), biofuels are 
becoming an increasingly significant part of the transportation fuel 
mix. E15 constitutes a new transportation fuel. E15 blends increase the 
oxygen content of gasoline by 50%, well outside the range for which US 
vehicles and engines have been designed and warranted. E15 also 
dramatically impacts gasoline service station infrastructure as it is 
incompatible with most fuel filling equipment. This makes E15 a fuel 
outside the range for which such equipment has been listed and proven 
to be safe and compatible and results in conflict with existing worker 
and public safety laws outlined in OSHA and Fire Codes. For these 
reasons, it is critically important to evaluate the full range of 
short- and long-term impacts of increasing the amount of ethanol in 
gasoline blends on the environment and also on engine and vehicle 
performance and safety to protect consumers.
    In response to the passage of the Energy Independence and Security 
Act (EISA), the oil and natural gas industry, the auto industry, and 
other stakeholders, including EPA and DOE, recognized in early 2008 
that substantial research was needed in order to assess the impact of 
higher ethanol blends including the compatibility of ethanol blends 
above 10% (E10+) with the existing fleet of vehicles and small engines. 
Through the Coordinating Research Council (CRC), the oil and auto 
industries developed and funded a comprehensive multi-year testing 
program, prior to the E15 waiver application. API worked closely with 
the auto and off-road engine industries and with EPA and DOE to share 
and coordinate research plans. API is committed to continuing this 
research into the E10+ issue until sufficient research has been 
completed to assess the impact of introducing a new fuel in order to 
protect and consumers and the environment. We believe that EPA 
prematurely approved the E15 waiver request, and did not wait until 
this research effort was finished and the results were thoroughly 
evaluated.

About the Coordinating Research Council

    The Coordinating Research Council (CRC) is a non-profit 
organization, established in 1942, that directs, through committee 
action, engineering and environmental studies on the interactions of 
transportation fuels with vehicles and engines. The objective of CRC is 
to encourage and promote the arts and sciences by directing scientific 
cooperative research to develop the best possible combinations of 
fuels, lubricants, and the equipment in which they are used, and to 
afford a means of cooperation with the government on matters of 
national or international interest. Through CRC, professionals in the 
automotive and in the energy industries collaborate in research and 
often coordinate with government agencies such as DOE, EPA and others.

Scope of the CRC E10+ Research

    As mentioned earlier, key concerns of the auto and oil industries 
regarding the E15 waivers are fuel compatibility with infrastructure 
and engines, vehicle performance, and the overriding need for consumer 
satisfaction and safety. The EPA's desire to prematurely permit more 
ethanol to be used in conventional vehicles cannot be allowed to harm 
the investments made by our common customers in safe, reliable and 
economical vehicular transportation. The oil and auto industries cannot 
support a premature action that could put consumer satisfaction, safety 
and the environment at risk. If consumer satisfaction, safety and the 
environment are compromised, the credibility of future ethanol products 
and the RFS2 program will be questioned and challenged. The CRC 
research has revealed reasons for concern with the use of mid-level 
blends in gasoline-powered vehicles. Although several important and 
fundamental parts of this comprehensive research program remain 
incomplete to-date, the program is on track and is producing results 
needed to understand the impacts of E15. As a result, we continue to 
support the CRC auto/oil industry testing program and have committed 
funds through its completion.
    Attachment 1 shows our anticipated schedule for completion which 
goes through the end of 2011 and into 2012. We shared this schedule as 
well as on-going research progress and results with EPA on several 
occasions prior to EPA making a decision to issue the partial waivers; 
EPA chose to ignore the CRC research.
    The auto and oil industries have contributed close to $14 million 
towards mid-level blends research over the past several years targeted 
specifically at fuel compatibility and engine performance issues that 
could impact consumers. This funding commitment demonstrates our 
concern and the seriousness with which we view the potential for 
vehicle and equipment performance issues that could have a negative 
impact on customer acceptance and, potentially, the environment. DOE 
funded a Catalyst Durability Study which was targeted at determining 
effects of mid-level ethanol blends on catalytic converters.
    Automakers upgrade their engine designs, fuel systems, and 
emissions control systems for E85 flex-fuel vehicles in the US. We need 
to know whether similar upgrades might be needed for mid-level ethanol 
blends. Accordingly, we are continuing to do research in the following 
areas:

Evaluation of Engine Durability

    This program looks at the effects of mid-level ethanol blends on 
vehicle engine durability. A key engine part that may be adversely 
affected by increased ethanol levels is the cylinder head, a part that 
costs about $3,500 to replace and many engines have two.
    Attachment 2 shows preliminary test results. To date, 3 out of 8 
vehicles tested failed on E20 and E15. One vehicle that failed on E20 
and E15 passed on E0. Additional testing is underway and should be 
completed in late 2011.

Evaluation of Vehicle Fuel Storage and Handling Equipment Durability

    This program studies the effect of mid-level ethanol blends on the 
durability of parts that come into contact with the liquid fuel. An 
example is a fuel pump that can cost $500 to replace. Recent recalls of 
late model vehicles that have experienced issues with 10% ethanol 
blends highlight concerns with these components. Attachment 3 shows an 
example of a problem that can occur with fuel level sensors when 
exposed to high levels of ethanol. In this particular example, the fuel 
level sensor experienced a significant open circuit near the ``full 
tank'' position. This would result in erratic/false fuel gauge readings 
for the consumer and could create potential safety problems. This 
program should be completed by the end of 2011.

On-Board Diagnostics Evaluation

    This program looks at the effect of mid-level ethanol blends on the 
vehicle's On-Board Diagnostic (OBD) system. This computerized system 
checks the vehicle emission control system to ensure it is working 
properly. Many states use OBD as part of their in-use monitoring 
programs to maintain local air quality.
    Increased ethanol levels in fuel could trigger MILs (malfunction 
indicator or ``check engine'' lights) when no problem exists. Whether 
the MIL is false or not cannot be determined until the vehicle is 
checked by a trained mechanic. Conversely, increased ethanol levels in 
the fuel could prevent MILs from activating when real problems exist.
    A report examining the effects of E10 versus E0 and extrapolating 
the data to E15 & E20 is complete and published. A subsequent 
assessment using state inspection and maintenance data to determine the 
potential for mid-level ethanol blends to trigger false MILs also is 
complete and published. Both reports are publicly available from CRC. 
These studies showed the need for additional work, and a program to 
look at individual vehicles is underway and should be completed in 
2011.

Evaporative Emissions

    This program studies the effects of mid-level ethanol blends on 
evaporative emissions control system durability. The program is 
underway and will be completed in 2012. The evaporative emissions 
system keeps fuel in the car from evaporating into the atmosphere and 
negatively impacting air quality. A previous test program found that 
ethanol affected fuel vapor migration through system components. The 
2007 Energy Independence and Security Act required this kind of 
evaporative emissions durability study as a condition for issuing a 
waiver. We believe EPA did not fulfill this requirement.
    As mentioned earlier, the DOE Catalyst Durability Study was 
designed to determine E15 effects on catalytic converters. Instead of 
waiting for the CRC test results from the above programs, EPA 
improperly used data from the DOE Catalyst Durability program to draw 
conclusions about E15 related to certain effects for which the DOE 
Catalyst Durability program clearly was not designed to evaluate. These 
include, for example, engine durability, vehicle fuel system 
compatibility and durability, On-Board Diagnostics impacts, and 
evaporative emissions durability--all areas for which the DOE testing 
was not designed to provide meaningful results. The CRC research 
programs in these areas use test procedures that are more realistic for 
determining the long-term effects of mid-level ethanol blends.
    In addition, EPA granted ``partial'' waivers where some of the 
vehicles in the fleet can use the higher ethanol blend but not other 
highway vehicles, motorcycles, larger trucks, or non-road engines. 
Specifically, only 2001 and newer model year vehicles are eligible to 
use E15. Therefore, 2000 and older model year vehicles and other 
highway vehicles, motorcycles, larger trucks, or non-road engines 
cannot use E15. By granting ``partial'' waivers, EPA recognized the 
issues related to using this fuel. API has serious concerns that EPA's 
label and misfueling mitigation strategy is premature and should not 
have been finalized until all vehicle and infrastructure research and 
testing was completed. While API agrees with EPA that fuel dispensing 
facilities should be prohibited from selling E15 unless the dispensers 
at those locations are properly labeled, API continues to have concerns 
with EPA's final label. Because EPA weakened the final label design 
from what it originally proposed, the final design is more likely to 
confuse consumers about which fuels are appropriate for their vehicles 
and non-road equipment.

Infrastructure Research--Overview:

    US worker and public safety laws require critical safety devices 
used at retail stations to be proven safe via a certification process 
by a Nationally Recognized Testing Laboratory and proven compatible via 
the material compatibility requirements of EPA OUST rules. In 2009, to 
address the potential need to raise the level of ethanol in gasoline, 
DOE's National Renewable Energy Laboratory (NREL) and Oak Ridge 
National Laboratory (ORNL) began testing fuel retail station equipment 
and materials to determine how the most common equipment sold and used 
in the existing infrastructure would perform with E15. API also 
undertook research to test other equipment not covered by the DOE 
study. NREL contracted with Underwriters Laboratories (UL) to perform 
functionality testing on legacy and new fuel dispensers (i.e., the gas 
pump), Stage II vapor recovery systems that recover the gasoline fumes 
during a vehicles' refueling, and the pumps that are submerged in the 
underground storage tank. ORNL concentrated on the compatibility of E15 
with various materials used to build the pumps (e.g., elastomers, 
metals and sealant materials). Late in 2010, UL released the results of 
their work for NREL and, in March 2011, ORNL released their report.
    The results of NREL's research indicated that 70% of the used 
equipment tested and 40% of the new equipment tested yielded non-
compliant or inconclusive test results. For example, the meters that 
measure the amount of fuel being pumped leaked and some of the safety 
devices that prevent refueling accidents didn't work. API concluded 
that these results show that there are potentially serious safety 
concerns for consumers and fuel dispensing facility attendants from 
dispensing E15 from any equipment that is not specifically listed for 
its use.
    ORNL's testing showed that seals and gaskets will be impacted the 
most by the switch to E15 and may eventually develop leaks. However, 
since ORNL did not identify manufacturers with its results, it will be 
difficult for owners/operators of fuel dispensing facilities to 
determine if replacement is necessary. This is compounded by the long 
life of dispenser systems and the wide variety of seals and gaskets 
used by manufacturers. Therefore, the results of the ORNL report are of 
use to owner/operators of fuel dispensing facilities only to the extent 
that manufacturers will advise owners/operators of necessary 
replacements and make materials decisions in the future. ORNL's testing 
results did confirm those of NREL that it is not appropriate to assume 
that E10 equipment is safe to use with E15.
    EPA's Office of Underground Storage Tanks (OUST) is focusing on 
developing protocols to test automatic tank gauges, which are used as 
the most common method of leak detection, with E10+ and is in the final 
stages of this development. Future OUST testing and test protocol 
development for other leak detection systems are contingent on future 
funding. Without the use of these test protocols and confirmation that 
any new equipment works with E15, retail station operators will not 
know if UST's storing E15 are leaking. API has completed two projects 
(misfueling mitigation measures to address consumer misfueling and a 
literature review to determine the ability of flame arresters to work 
with ethanol) and continues a third (functionality testing of Stage I 
Vapor Recovery equipment and overfill prevention equipment). The Stage 
I equipment captures the gasoline fumes that would come out of the tank 
during a delivery of gasoline to the station thus protecting the air 
and the overfill prevention equipment keeps the tank from being 
overfilled during the delivery protecting the delivery driver and the 
underground water sources. API's testing is due to be completed in 
second quarter of this year. The results will provide data on how well 
the Stage I and overfill prevention equipment function with E15.
    EPA recently released their final guidance on how to determine the 
compatibility of an underground storage tank (UST) system with the fuel 
placed in it. The guidelines were intended to provide an alternative 
approach to prove that an installed UST system is compatible with a 
fuel that it was not originally certified to store or dispense. 
However, EPA's new approach does not provide equivalent safety and 
environmental protection to the original certification because EPA has 
equated an individual manufacturer's mere claim of compatibility with 
the certification that is granted from a nationally recognized testing 
laboratory (NRTL), like UL. If EPA had required manufacturers to 
provide empirical data on the compatibility of their systems that is 
substantially similar to the NRTL data, then EPA would have provided 
equivalent safety and environmental protection.

    The following next steps need to be undertaken to fully assess E15 
compatibility with fueling infrastructure:

        <bullet>  NREL's testing revealed significant problems with 
        dispenser meter systems leaking at the seals. Retrofit kits for 
        meter systems need to be developed and listed by UL in order to 
        avoid complete dispenser system replacement. Listed kits or 
        replacement dispensers are required by OSHA and Fire Codes.
        <bullet>  A NREL report identifies concerns that the vapor 
        space above the unblended ethanol (E97) stored in underground 
        storage tanks is flammable. By contrast, the vapor space above 
        gasoline is not flammable. These concerns must be addressed 
        before E97 can be stored as a component for blending 
        dispensers. Additionally, no dispensing equipment (for example, 
        blender pumps) is listed for E97.
        <bullet>  Copper piping/tubing was not included in ORNL's 
        testing. Copper is included in many legacy dispenser systems 
        (i.e., gas pumps) and some leak detection equipment. Its 
        compatibility with E15 is unknown and untested.

    The EPA should implement final guidance on UST system compatibility 
through notice and comment rulemaking which would offer much-needed 
security to UST owners and better achieve Agency objectives. The EPA 
should acknowledge that a certification by a NRTL is the best indicator 
of compatibility and safety, is required by federal and state worker 
and public safety laws, and an NRTL listing should be required for new 
equipment. However, in the case of ``legacy UST system equipment,'' if 
there is no such NRTL listing available, then there should be an 
alternative that is equivalent to the new equipment NRTL listing. 
Equivalency means that the testing is sufficiently stringent to provide 
proof of compatibility, and a method to demonstrate safety as required 
by worker and public safety rules using an independent thirdparty 
testing lab or a manufacturer's self-certification of compatibility 
that is substantiated with appropriate data similar to that used by an 
NRTL to make such a finding. ``Legacy UST system equipment'' is defined 
as retail gasoline station UST system equipment that has been 
manufactured, installed, or purchased for which a NRTL listing is not 
available for the fuel that is intended to be stored for resale.

Summary

    The auto and oil industries' primary concern regarding an E15 
waiver is the overriding need for consumer satisfaction and safety. 
EPA's desire to allow more ethanol to be used in conventional vehicles 
cannot be allowed to harm the investments made by our customers in 
safe, reliable, and economical vehicle transportation. The oil and auto 
industries cannot support a premature action that could put consumer 
satisfaction and safety at risk. If consumer satisfaction and safety 
are compromised, the credibility of not only future ethanol products 
but the entire RFS2 program will be questioned and challenged. That is 
why API is supporting a comprehensive auto/oil industry test program 
through the CRC to determine the effect of mid-level blends on our 
customers' gasoline-powered vehicles, and this testing has revealed 
reasons for concern. Important parts of this research program remain 
incomplete but we are seeing results that demand completion before E15 
should be given a green light.
    The E15 waiver controversy points to the larger problem with the 
RFS2 mandates. The amount of biofuels required to be blended is fast 
approaching the limit of the current vehicle fleet to safely utilize 
them. Within the next year or so this ``blend wall'' will be exceeded, 
and refiners are greatly concerned about complying with an unworkable 
mandate. API urges Congress to seriously examine this looming issue, 
and adjust the biofuels mandates so that the biofuels volumes are 
aligned with the vehicle fleet's capacity to safely utilize them. A 
premature E15 waiver is not the solution.
    Finally, regarding the current fuels retail infrastructure, current 
federal, state and local regulations and fire codes can and do preclude 
the use of ethanol blends over 10 percent. Concerns regarding the 
listing requirements for existing infrastructure as well as this 
infrastructure`s compatibility with ethanol blends over 10 percent 
should have been resolved before a mid-level ethanol waiver was 
granted. Not only does the use of unlisted and incompatible equipment 
represent a significant potential legal liability for retail station 
owners, it also represents an even larger safety issue as most fuel 
storage and dispensing equipment have not been properly tested with 
mid-level blends, putting consumers and the environmentat risk. And 
using existing infrastructure for blends over 10 percent is a violation 
of worker and public safety laws in OSHA and fire codes. In this 
regard, EPA should engage with OSHA to understand the full scale of the 
issues in protecting the worker, the consumer and the environment.
    API remains committed to working with the auto industry and other 
stakeholders on E15 research until sufficient research has been 
completed to validate the introduction of this new fuel. EPA's partial 
waiver approval was premature as EPA did not wait until the ongoing 
research effort was finished and the results were thoroughly evaluated. 
The oil industry needs a level of confidence in the data that will 
allow our brands to stand behind a new fuel. Our customers expect 
nothing less.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Harris. Thank you very much, Mr. Greco. Ms. White?

  STATEMENT OF MS. HEATHER WHITE, CHIEF OF STAFF AND GENERAL 
              COUNSEL, ENVIRONMENTAL WORKING GROUP

    Ms. White. Chairman Harris, Ranking Member Miller and 
Members of the Committee, my name is Heather White. I am chief 
of staff and general counsel to Environmental Working Group, a 
nonprofit research and advocacy organization based here in 
Washington, with offices in Iowa and California. Thank you for 
the opportunity to testify at this important hearing.
    Mr. Chairman, today the corn ethanol industry enjoys the 
luxury of a lucrative market created almost entirely by 
government intervention at taxpayer expense. Corn producers and 
ethanol companies press in tandem for any government 
intervention, especially from Washington. That will, by 
expanding the market for corn ethanol, automatically expand the 
market to deal with our oversupply of corn, an oversupply that 
was created in part by USDA crop subsidies, price and income 
supports. That is what this E15 debate is about, not energy 
policy or energy independence.
    We believe the government should play a strong leadership 
and regulatory role in shaping the Nation's energy future. But 
making additional market distorting commitments to corn ethanol 
is not the way to get there. Adding small, well-tested amounts 
of ethanol as an engine fuel additive to reduce air pollution 
in targeted areas makes sense. But corn ethanol is not an 
alternative transportation fuel.
    Mandating higher blends will increase air pollution. Corn 
requires more pesticides and fertilizers than other crops. Sky-
high corn prices have already resulted in fence-row-to-fence-
row planting. That depletes the soil, pollutes water, causes 
drastic soil losses. On top of that, imagine the consumer 
nightmare of E15 when people use the wrong gas, damage their 
car or truck, lawnmowers or boats, and realize their warranties 
are no good.
    Our comprehensive review of the current science concludes 
that the data do not support a decision to waive the Clean Air 
Act for E15. Higher ethanol blends lead to more toxic air 
pollution, lower gas mileage, more leaks from underground 
storage tanks, greater potential for drinking water 
contamination and damage to older cars and trucks and small 
engines.
    We believe in a strong, vibrant, well-funded EPA and robust 
authority for the Administrator, and the majority of the time, 
we are on EPA's side. This Agency protects our public health 
and has saved billions of dollars in healthcare costs through 
environmental enforcement and regulation. But we think this 
decision is a bad call. It asks Americans to play roulette at 
the gas station if they fill an unapproved vehicle with E15.
    Earlier this year we asked 13 car makers whether vehicles 
made after 2001 could use E15 and whether the warranty would 
cover engine damage related to E15. The answer for most 
companies was either no, the warranty won't cover you or we 
don't know. Congressman Sensenbrenner received similar 
responses recently when he did his own survey of automakers.
    Crowning corn ethanol the energy winner is unfair to real, 
clean energy technologies. In additional to corn subsidies, the 
industry benefits from the ethanol blender's tax credit, an 
import tariff, and mandated production under the renewable fuel 
standard. These subsidies are crowing out the market for more 
promising advanced biofuels. Remember in 2007 when Congress was 
told that the renewable fuel standard would set up corn ethanol 
as a bridge to better advanced biofuels? Corn ethanol has since 
exceeded its mandate, but EPA has lowered advanced biofuel 
production targets by 90 percent. In fact, corn ethanol is a 
bridge to nowhere.
    In industry's response to its broken promises is to task 
for even more government handouts. In the face of an 
overwhelming Senate vote to end the blender's tax credit, its 
latest ploy is to get taxpayers to pay for special gasoline 
blender pumps that can handle various ethanol blends. But 
wasting more money on corn ethanol will only lock in this 
environmentally unsustainable fuel while locking out 
alternatives, among them drop-in fuels such as those made from 
switchgrass, wood, crop residues and algae that do not require 
special pumps.
    In conclusion, EWG supports, one, efforts to reduce overall 
gasoline consumption through fuel efficiency and mass transit; 
two, biofuels, especially drop-in fuels that use existing 
infrastructure, conserve soil, water, air and wildlife habitat, 
do not compete with the food supply and do not divert farmland 
from food production; and finally, the Committee's draft 
language calling for a National Academy of Sciences study on 
mid-level ethanol blends. We need greater scientific certainty 
before we move forward and introduce this fuel into our 
Nation's fuel supply.
    Thank you. I welcome the opportunity to answer any 
questions you may have.
    [The prepared statement of Ms. White follows:]

  Prepared Statement of Ms. Heather White, Chief of Staff and General 
                  Counsel, Environmental Working Group

    Chairman Harris, Ranking Member Miller and distinguished Members of 
the Committee: My name is Heather White. I am chief of staff and 
general counsel at the Environmental Working Group, a nonprofit 
research and advocacy organization based in Washington, DC, with 
offices in Ames, Iowa, and Oakland, California. I thank the Members of 
the Committee for holding this important hearing and for the 
opportunity to testify.
    For almost two decades, our organization has advocated protection 
of vulnerable people from toxic contaminants, ending subsidies that 
encourage environmental harm and investing instead in conservation and 
sustainable development.
    This nation's biofuels policy is on the wrong path. Environmental 
Working Group believes that the Environmental Protection Agency should 
not have waived the federal Clean Air Act to allow the percentage of 
ethanol blended with gasoline to increase by 50 percent, to 15 percent 
ethanol. Until this decision, gasoline's ethanol content was generally 
capped at 10 percent. We are nearing the ``blend wall,'' the maximum 
amount of ethanol that can legally be blended into fuel. This blend 
wall is potentially at odds with the production mandate of 36 billion 
gallons of biofuels set forth in the Renewable Fuels Standard of the 
2007 energy bill. Because of the lack of enforceable environmental 
safeguards surrounding biofuels policy, we opposed expansion of the 
energy bill's RFS mandate.
    As this subcommittee examines mid-level ethanol blends and ethanol 
policy from a scientific perspective, we urge you to support efforts 
to:
    (1) Allow the ethanol tax credit to expire in 2011 and eliminate 
other oil subsidies and tax breaks.
    (2) Reject corn ethanol industry proposals to fund grants and back 
loan guarantees to support conventional biofuels infrastructure such as 
blender pumps, corn ethanol pipelines and mandates for flex-fuel 
vehicles.
    (3) Invest in focused research on advanced biofuels, including 
those recommended by the Interagency Biofuels Task Force, that 
significantly reduce greenhouse gases, do not compete with or displace 
food crops and are environmentally sustainable over both the short and 
long-term.
    (4) Reform the Renewable Fuels Standard by freezing and phasing out 
conventional biofuels mandates and adding significant and enforceable 
environmental safeguards to the advanced biofuels mandate.
    (5) Focus on policies that would cut gasoline consumption, among 
them, encouraging drivers to make fewer trips, to carpool and to invest 
in vehicles or forms of transportation that actually reduce dependence 
on fossil fuels.
    No matter which path Congress takes on biofuels policy, it is clear 
that the latest science on the health risks of mid-level ethanol blends 
raises red flags. Our comprehensive review of the available scientific 
data indicates that E15 and higher ethanol blends could have 
significant adverse impacts on human and environmental health. 
(Appendix A). The data simply do not support a decision to approve fuel 
blends above E10 in the U.S.
    Furthermore, E15-blended gasoline will likely result in a consumer 
nightmare for small engine owners, boaters and owners of older 
vehicles, who may find their engines destroyed or damaged and their 
warranties void. Until these data are adequately generated and 
assessed, consumer safety, public health, and environmental protection 
are at risk from mid-level ethanol blends.
    Hitting the blend wall is symptomatic of our backwards biofuels 
policy, but, in fact, for the last 30 years, federal subsidies and 
other supports for biofuels have been misguided. Federal supports for 
corn ethanol, an environmentally destructive biofuel, are numerous and 
duplicative.
    The ethanol industry benefits from corn subsidies since corn is its 
main feedstock. The industry also receives ethanol blender's tax 
credit, import tariff and mandated production through the Renewable 
Fuel Standard. These taxpayer-backed subsidies for corn ethanol are 
crowding out the market for more promising advanced biofuels. It is 
time we stopped subsidizing corn ethanol and artificially stimulating 
demand for ethanol blends that are not compatible with many vehicles 
and engines.
    Some recent actions by the Environmental Protection Agency are 
cases in point.

    <bullet>  In March 2009, Growth Energy, representing 54 ethanol 
manufacturers, applied for a federal Clean Air Act waiver to increase 
the percentage of ethanol that can be blended into gasoline from 10 
percent to 15 percent.

    <bullet>  On October 13, 2010, EPA approved a partial waiver, 
permitting E15 to be introduced into the fuel supply, with the caveat 
that it was approved only for vehicles manufactured after 2006. EPA 
proposed a rule to avert misfueling, meaning, using E15 in pre-2006 
vehicles. It contemplated labeling gasoline pumps to deter consumers 
from fueling incompatible engines with E15.

    <bullet>  On January 21, EPA extended the E15 waiver to vehicles 
manufactured as early as 2001, effectively approving the higher ethanol 
blend for use in about two-thirds of the U.S. vehicle fleet.

    <bullet>  On June 28, EPA published its final misfueling rule, with 
label language intended to warn consumers if their vehicle or engine 
could be damaged by E15. \1\
---------------------------------------------------------------------------
    \1\  U.S. Environmental Protection Agency. ``E15 (a blend of 
gasoline and up to 15% ethanol)'' 23 June 2011. Accessed 4 July 2011 at 
http://www.epa.gov/otaq/regs/fuels/additive/e15/.

Problems with higher blends of ethanol

    The Environmental Protection Agency's decision to approve E15 is 
bad for consumers, the environment and public health. The decision is 
counterproductive to the national goal of reducing gasoline consumption 
and strengthening energy independence. Expanding gasoline's ethanol 
content by 50 percent will result in numerous short-term and long-term 
problems, among them:

    <bullet>  Consumer confusion at the pump
    <bullet>  Damage to older cars and trucks \2\
---------------------------------------------------------------------------
    \2\  U.S. Environmental Protection Agency. 2009. Written Statement 
by Margo T. Oge, Director, Office of Transportation And Air Quality, 
Office Of Air And Radiation, U.S. Environmental Protection Agency to 
the Committee on Environment and Public Works, Subcommittee On Clean 
Air And Nuclear Safety, United States Senate. Accessed online 1 April 
2009 at http://epw.senate.gov/public/
index.cfm?FuseAction=Hearings.Hearing&Hearing_ID=3fdd18ff-802a- 23ad-
4378-d21b6beb4d5a.
---------------------------------------------------------------------------
    <bullet>  Damage to small and off-road engines \3\
---------------------------------------------------------------------------
    \3\  Knoll, K., West, B.H., Clark, W., Graves, R.L., Orban, J., 
Przesmitzki, S., Theiss, T.J., Knoll, K., West, B.H., Clark, W., 
Graves, R.L., Orban, J., Przesmitzki, S., and Theiss, T.J. ``Effects of 
Intermediate Ethanol Blends on Legacy Vehicles and Small Non-Road 
Engines, Report 1-- Updated.'' Department of Energy. 2009. Accessed 
online 6 March 2009 at http://feerc.ornl.gov/publications/
Int_blends_Rpt1_Updated.pdf.
---------------------------------------------------------------------------
    <bullet>  Safety issues \4\
---------------------------------------------------------------------------
    \4\  Naidenko, Olga. ``Ethanol-Gasoline Fuel Blends May Cause Human 
Health Risks and Engine Issues.'' May 2009. Accessed online 4 July 2011 
at http://www.ewg.org/biofuels/report/Ethanol-Health-Risks-and-Engine- 
Damage.
---------------------------------------------------------------------------
    <bullet>  Voided engine warranties
    <bullet>  More air pollutants like nitrous oxide and formaldehyde 
\5\
---------------------------------------------------------------------------
    \5\  U.S. Environmental Protection Agency. ``National Air Quality--
Status and Trends through 2007 EPA-454/R- 08-006.'' 2008. Accessed 
online May 2009 at http://www.epa.gov/airtrends/2008/index.html.Lower 
gas mileage.
---------------------------------------------------------------------------
    <bullet>  More leaks from underground storage tanks \6\
---------------------------------------------------------------------------
    \6\  Tiemann, Mary. ``Leaking Underground Storage Tanks: Prevention 
and Cleanup.'' 18 May 2010. Congressional Research Service. Accessed 
online 4 July 2011 at http://ncseonline.org/nle/crs/
abstract.cfm?NLEid=1457.
---------------------------------------------------------------------------
    <bullet>  Greater potential for drinking water contamination

Preventing misfueling

    EPA approved introduction of E15 into the fuel supply with 
conditions that aimed to help consumers avoid using it in older 
vehicles and small engines. The agency:

    <bullet>  Prohibited blends between E10 and E15 in unapproved 
vehicles and engines.

    <bullet>  Require all fuel dispensers to have a label if a retail 
station chooses to sell E15.

    <bullet>  Required a national survey of retail stations to ensure 
compliance with the labeling provisions. \7\
---------------------------------------------------------------------------
    \7\  U.S. Environmental Protection Agency. ``EPA Announces E15 
Partial Waiver Decision and Fuel Pump Labeling Proposal.'' 2 December 
2010. Accessed online 4 July 2011 at http://www.epa.gov/otaq/regs/
fuels/additive/e15/420f10054.htm.

    EWG recommended that the EPA require gasoline station owners to put 
clear, detailed labels on pumps in order to alert consumers to the 
dangers of E15. \8\ EPA incorporated a few of our recommendations but 
watered down the language at key points. For instance, we suggested the 
label bear the word ``Warning.'' EPA opted for the weaker word 
``Attention.'' We recommended that the label display an 800 number and 
website address or that it advise the consumer to consult the owner's 
manual if uncertain whether E15 could be used in a particular vehicle 
or small engine. EPA ignored these suggestions, among many others, that 
would help prevent harm to older vehicles and ethanol-related 
pollution.
---------------------------------------------------------------------------
    \8\  Environmental Working Group. ``Comments on EPA's E15 
Misfueling Rule (40 CFR Part 80 on November 4, 2010).'' Accessed online 
4 July 2011 at http://epw.senate.gov/public/
index.cfm?FuseAction=Files.View&FileStore--id=b33e540b-d305-4ba6-be45-
81a0d701ed2b.
---------------------------------------------------------------------------
    EPA's final rule minimized safety issues. It did not adequately 
inform consumers that small engines can stall or fail if fueled wrongly 
with E15.
    Taken together, these EPA decisions do not adequately protect 
consumers, public health or the environment.

EPA decisions endanger older and smaller engines

    Adding small, well-tested amounts of oxygenated additives like 
ethanol to engine fuel to reduce air pollution in targeted 
nonattainment areas makes sense. But the misguided effort to treat 
ethanol as an alternative transportation fuel has become a well-founded 
source of concern for consumers, environmental groups, livestock 
farmers, automobile makers and the food industry. Most gasoline sold in 
the U.S. contains 10 percent ethanol. Most engines can tolerate that 
much ethanol. But engines run hotter on a gasoline-ethanol blend than 
on pure gasoline. As a result, many gasoline engines cannot run on E15 
without risking major internal damage and increased tailpipe emissions. 
Newer vehicles can accommodate increased exhaust and catalyst 
temperatures, but many older vehicles cannot. For that reason, EPA has 
approved E15 only for automobiles made in 2001 and thereafter. Yet the 
ethanol industry, thirsting for bigger markets and more sales, has 
pressed hard to add E15 to the entire automobile fuel supply, arguing 
without basis that increased ethanol content in gasoline would somehow 
foster American energy independence. Well-known compatibility problems 
suffered by older vehicles and small or off-road engines were pushed to 
the side.
    Growth Energy has contended that tests show that no problems exist 
with using the E15 fuel mix. It has urged the agency to extend the 
waiver to older vehicles. \9\
---------------------------------------------------------------------------
    \9\  Growth Energy. ``In Landmark Move, EPA Approves Higher Ethanol 
Blend for Vehicles Built in Last Decade.'' 21 January 2011. Accessed 
online 4 July 2011 at http://www.growthenergy.org/news-mediacenter/ 
releases/-in-landmark-move-epa-approves-higher-ethanol-blend-for-
vehicles-built-in-last-decade/.
---------------------------------------------------------------------------
    In fact, the Department of Energy's vehicle emissions data for 2001 
to 2006 model vehicles found that four of eight vehicles failed to meet 
at least one of three emissions standards, for nitrous oxide, carbon 
monoxide and non-methane organic gases. \10\ Vehicles newer than 2006 
fared slightly better. Still, fully one-fifth of vehicles manufactured 
in 2007 or later failed to meet at least one emissions standard when 
using E15.
---------------------------------------------------------------------------
    \10\  Environmental Working Group. ``When It Comes to E15, Never 
Mind the Data.'' 5 May 2011. Accessed online 4 July 2011 at http://
www.ewg.org/agmag/2011/05/when-it-comes-to-e15-never-mind-the-data/.
---------------------------------------------------------------------------
    The E15 waiver is based on Section 211(c)(1), a provision in the 
federal Clean Air Act that allows the EPA to issue regulations to 
``control or prohibit the manufacture, introduction into commerce, 
offering for sale, or sale of any fuel or fuel additive for use in a 
motor vehicle, motor vehicle engine, or nonroad engine or nonroad 
vehicle (A) if, in the judgment of the Administrator, any fuel or fuel 
additive or any emission product of such fuel or fuel additive causes, 
or contributes, to air pollution or water pollution (including any 
degradation in the quality of groundwater) that may reasonably be 
anticipated to endanger the public health or welfare, or (B) if 
emission products of such fuel or fuel additive will impair to a 
significant degree the performance of any emission control device or 
system which is in general use, or which the Administrator finds has 
been developed to a point where in a reasonable time it would be in 
general use were such regulation to be promulgated.'' \11\
---------------------------------------------------------------------------
    \11\  U.S. Environmental Protection Agency. ``Regulation To 
Mitigate the Misfueling of Vehicles and Engines With Gasoline 
Containing Greater Than Ten Volume Percent Ethanol and Modifications to 
the Reformulated and Conventional Gasoline Programs.'' 23 June 2011. 
Accessed online 4 July 2007 at http://www.epa.gov/otaq/regs/fuels/
additive/e15/mitigate-misfuel-e15.pdf.
---------------------------------------------------------------------------
    It appears that EPA considered only option B when approving the E15 
waiver. It seems to have ignored the act's first principle--to protect 
public health and welfare. The agency approved a fuel known to damage 
vehicle engines made before 2001 and with some chance of causing newer 
vehicles to emit excessive pollutants. In its final misfueling rule, 
EPA admitted that E15 use ``could lead to extremely elevated exhaust 
and evaporative emissions.'' \12\ EPA issued the waiver despite 
evidence of increased emissions with use of higher ethanol blends. The 
waiver directly conflicts with testing by the Department of Energy, the 
National Renewable Energy Laboratory, the Oak Ridge National Laboratory 
and the Coordinating Research Council, a non-profit organization that 
conducts engineering and environmental studies on the engines and 
petroleum products. \13\
---------------------------------------------------------------------------
    \12\  Ibid.
    \13\  Coordinating Research Council, Inc. ``About CRC.'' Accessed 
online 4 July 2011 at http://www.crcao.com/about/index.html.
---------------------------------------------------------------------------

Health hazards of E15 emissions

    EPA's E15 decision presents a clear risk to human health. \14\ The 
more a vehicle burns higher ethanol blends, the more it emits the toxic 
pollutants acetaldehyde, formaldehyde and nitrous oxide.
---------------------------------------------------------------------------
    \14\  U.S. Environmental Protection Agency. ``Health Effects 
Notebook for Hazardous Air Pollutants.'' 2007. Accessed online 17 March 
2009 at http://www.epa.gov/ttn/atw/hlthef/hapindex.html.
---------------------------------------------------------------------------
    Last month, the Department of Health and Human Services officially 
classified formaldehyde as a ``known human carcinogen.'' \15\ The 
International Agency For Research on Cancer, an arm of the World Health 
Organization, also uses that designation. As well, formaldehyde causes 
severe respiratory tract irritation, chronic bronchitis and airway 
inflammation. \16\
---------------------------------------------------------------------------
    \15\  National Institutes of Health--National Toxicology Program. 
``Formaldehyde.'' June 2011. Accessed online 4 July 2011 at http://
www.niehs.nih.gov/about/materials/formaldehydefs.pdf.
    \16\  U.S. Environmental Protection Agency. ``Health Effects 
Notebook for Hazardous Air Pollutants.'' 2007. Accessed online 4 July 
2011 at http://www.epa.gov/ttn/atw/hlthef/hapindex.html.
---------------------------------------------------------------------------
    Acetaldehyde is a strong respiratory irritant and toxicant that is 
especially dangerous to children and adults with asthma. \17\ EPA 
considers acetaldehyde a probable human carcinogen, based on studies in 
laboratory animals and in exposed workers. \18\
---------------------------------------------------------------------------
    \17\  McCarthy, MC, O'Brien, TE, Charrier, JG, and Hafner, HR. 
``Characterization of the Chronic Risk and Hazard of Hazardous Air 
Pollutants in the United States Using Ambient Monitoring Data.'' 2009. 
Environmental Health Perspectives 117(5): pp. 790-96; see also U.S. 
Environmental Protection Agency. 1991. Integrated Risk Assessment 
System (IRIS). Acetaldehyde (CASRN 75-07-0). Available: http://
www.epa.gov/iris/subst/0290.htm.
    \18\  U.S. Environmental Protection Agency. ``Acetaldehyde.'' 6 
November 2007. Accessed online 4 July 2011 at http://www.epa.gov/
ttnatw01/hlthef/acetalde.html.
---------------------------------------------------------------------------
    Higher concentrations of acetaldehyde in car emissions could lead 
to increased cancer incidence and greater prevalence of respiratory 
disorders.
    Nitrous oxide emissions aggravate asthma, airway inflammation and 
respiratory disease. \19\ Nitrous oxide contributes to the formation of 
ground-level ozone, a respiratory toxicant; it is also associated with 
acid rain as well as with harmful effects on soils and surface waters. 
\20\
---------------------------------------------------------------------------
    \19\  Weinmayr G, Romeo E, De Sario M, Weiland SK, Forastiere F. 
2010. Short-term effects of PM10 and NO2 on respiratory health among 
children with asthma or asthma-like symptoms: a systematic review and 
meta-analysis. Environ Health Perspect 118(4): 449-57.
    \20\  U.S. Environmental Protection Agency. ``National Air 
Quality--Status and Trends through 2007 EPA-454/R- 08-006.'' 2008. 
Accessed online 20 January 2009 at http://www.epa.gov/airtrends/2008/
index.html.
---------------------------------------------------------------------------

Misfueling explained

    EPA's final rule on misfueling, issued June 27, is aimed at 
mitigating damage that a fuel like E15 can inflict upon unapproved 
engines like older cars and trucks and small or off-road engines. EPA's 
misfueling rule will require gasoline stations to place approved labels 
on pumps and take other measures to help consumers choose the correct 
fuel blends for their vehicles or equipment. This rule will not, in 
fact, avert widespread misfueling and resulting engine warranty 
problems and needless expense incurred by vehicle owners. The label EPA 
has designed for gasoline pumps is not sufficient to alert consumers to 
the hazards of misfueling. EPA has given little guidance as to who, if 
anyone, will be held responsible when a motorist fills an unapproved 
vehicle or engine with E15.
    Earlier this year, Environmental Working Group called the national 
headquarters of 13 automobile manufacturers and asked two simple 
questions:

    1. Could vehicles from model years 2001 and later use E15 if it 
were to come on the market over the next year or so?

    2. Would the company's warranty be voided if a vehicle had engine 
trouble related to E15?

    Not a single automobile manufacturer provided detailed answers to 
our questions. \21\ Four said that engine problems caused by E15 would 
void their warranties. Most companies passed the buck, recommending 
that we ask a local dealer or check back later. Four suggested using a 
high-octane (and more expensive) blend. Only Chevrolet said its 
warranty would not be voided by E15-related damage if the correct 
octane level had been used.
---------------------------------------------------------------------------
    \21\  Environmental Working Group. ``You Could Be On Your Own If 
Ethanol Messes up Your Engine.'' 9 May 2011. Accessed online 4 July 
2011 at http://www.ewg.org/agmag/2011/05/you-could-be-on-your-own-if-
ethanol-messes-up-your-engine/.
---------------------------------------------------------------------------
    Small engines such as lawnmowers, outboard motors and chainsaws are 
even more vulnerable to E15-related damage because they were not 
manufactured to run on higher ethanol blends. The small engine industry 
has petitioned EPA to ensure that E10 will still be available. EPA 
denied this request last week.
    In the end, it seems that consumers, convenience store owners, car 
companies, local dealers and small engine manufacturers will be on 
their own to sort out the risks of E15.

Leaking underground storage tanks

    In its recent guidance, EPA has reported that ethanol is more 
corrosive than gasoline and can cause underground gasoline storage 
tanks to leak. We suggested that EPA determine the implications of 
storing higher blends of ethanol in these tanks. Since researchers have 
established that storing gasoline-ethanol blends in incompatible tanks 
can cause leaks, EPA should assess the increased risk of soil and water 
contamination before it allows E15 to be introduced. We thank this 
Committee for taking leadership on this important issue.

Biofuels policy on wrong track

    The many uncertainties surrounding E15 are symptoms of a much 
larger problem. Our nation's biofuel policy is on the wrong track. The 
Renewable Fuel Standard, set in the 2007 energy bill, calls for 
production of 36 billion gallons of renewable fuels by 2022. In 
practice, this standard does little or nothing to accomplish Congress' 
primary objective--to bring to market a new generation of so-called 
advanced biofuels that do not compete with food crops. More than 90 
percent of ethanol produced in the U.S. is refined from corn. Corn 
ethanol production--conceived as a first-generation biofuel solution--
continues to exceed the maximum production level set by the Renewable 
Fuel Standard mandate. At the same time, production of cellulosic 
biofuels has lagged. EPA has been forced to reduce mandates for them by 
more than 90 percent over the past two years.
    The notion that the Renewable Fuel Standard set up corn ethanol as 
a bridge to better advanced biofuels is simply false. Corn ethanol is 
proving to be a bridge to nowhere.
    Meanwhile, corn ethanol production consumes a disproportionate 
share of renewable energy tax credits. The Biomass Crop Assistance 
Program, an offshoot of the U.S. Department of Agriculture's Farm 
Service Agency that intended to facilitate the development of 
cellulosic biofuels, has veered seriously off track. Instead of funding 
crops like switchgrass, envisioned as a cellulosic feedstock, more than 
80 percent of this program's budget has gone to existing pulp and paper 
companies.
    This year, Congress has considered bills and amendments to limit 
funding for ethanol blender pumps and to repeal the Volumetric Ethanol 
Excise Tax Credit. EWG and at least 89 other organizations support 
repealing this tax credit this year. \22\ We have urged Congress not to 
spend scarce taxpayer funds on blender pumps and other corn ethanol 
infrastructure. Wasting money on corn ethanol will only lock in this 
environmentally unsustainable fuel while locking out alternatives, 
among them dropin fuels--those made from switchgrass, wood and crop 
residues and algae--that do not require special infrastructure.
---------------------------------------------------------------------------
    \22\  National Resources Defense Council. ``Coalition of 90 Group 
Urges Congress to End Corn Ethanol Subsidies.'' 1 March 2011. Accessed 
online 4 July 2011 at http://switchboard.nrdc.org/blogs/slyutse/
today_a_whopping_87_organizati.html.
---------------------------------------------------------------------------
    The Department of Energy has recently announced grants and loan 
guarantees for research and development of advanced drop-in biofuels, 
following 2009 recommendations of the Interagency Task Force on 
Biofuels. \23\ Meanwhile, in April, USDA announced an interim final 
rule that would make ethanol blender pumps eligible for Rural Energy 
for America Program funding. \24\ Congress created the program to fund 
solar, wind, hydropower and energy efficiency projects that have true 
potential to reduce dependence on foreign oil and create rural jobs. 
Funding blender pumps will accomplish neither of these goals. The 
taxpayers will subsidize the corn ethanol industry once again.
---------------------------------------------------------------------------
    \23\  The White House. ``Growing America's Fuel: An Innovation 
Approach to Achieving the President's Biofuels Target.'' 3 February 
2010. Accessed online 4 July 2011 at http://www.whitehouse.gov/sites/
default/files/rss_viewer/growing_americas_fuels.PDF.
    \24\  U.S. Department of Agriculture. ``Rural Energy for America; 
Final Rule. ``14 April 2011. Accessed online 4 July 2011 at http://
www.agri-pulse.com/uploaded/REAP_14Apr11.pdf.
---------------------------------------------------------------------------
    It is time to take a fresh look at our biofuels and transportation 
fuel policies. The first and immediate priority should be to reduce 
overall gasoline consumption by improving vehicle fuel efficiency, 
supporting alternative transportation opportunities and other such 
measures. We should follow the recommendations of the Interagency Task 
Force on Biofuels and focus on bringing advanced drop-in fuels to 
commercialization. We should undertake careful assessments of the 
performance of advanced biofuels before forcing them onto the market or 
spending large amounts of taxpayer dollars on subsidies and other 
incentives.
    It is critical that federal policy encourage those biofuels that 
are compatible with existing infrastructure, that conserve soil, water, 
air and wildlife habitat, that do not compete with the food supply and 
that do not use land that is used for food production. We cannot make 
the same mistakes that were made with corn ethanol.
    We believe that EPA's recent E15 waiver runs counter to scientific 
evidence that mid-level ethanol blends worsen pollution. We support the 
Committee's draft legislative language calling for a study by the 
National Academy of Sciences of the implications for public health of 
mid-level ethanol blends.
    We thank the Committee for holding this important hearing. We look 
forward to working with you to ensure that E15 is not prematurely 
introduced into our fuel supply at the expense of consumers, the 
environment and public health.
    [Additional information follows]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Harris. Thank you, Ms. White. Mr. Wasil?

STATEMENT OF MR. JEFF WASIL, EMISSIONS CERTIFICATION ENGINEER, 
                    EVINRUDE OUTBOARD MOTORS

    Mr. Wasil. Good afternoon, Chairman Harris, Ranking Member 
Miller, and other Members of the Subcommittee. It is a pleasure 
to be here this afternoon. Good afternoon. My name is Jeff 
Wasil, and I am the Emissions Certification Engineer for BRP 
Marine Engine Division located in Sturtevant, Wisconsin. I am 
here today to testify on behalf of the National Marine 
Manufacturers Association which represents over 1,500 boat 
builders, marine engine and marine accessory manufacturers. I 
am responsible for marine engine emissions certification 
testing ensuring that all of our marine engines are compliant 
with the USEPA, California Air Resources Board and other global 
marine regulatory regulations. Additionally, I ensure that the 
engines that we sell will remain durable and perform to 
customers' expectations.
    Over the past 12 years, I have published several peer-
reviewed technical papers on marine engine emissions, including 
particulate matter, gaseous emissions and alternative fuels. 
This experience and other marine testing that I have done makes 
me uniquely qualified to tell you why I think it is a bad idea 
for the U.S. EPA to allow an increase in the volume of ethanol 
in gasoline and why I believe EPA has not followed proper 
procedures in either its decision to propose an ethanol 
increase in our gasoline supply or in their proposed warnings 
to consumers about the problems they know would be caused by 
E15 gasoline.
    I am here today representing NMMA and my company, but in a 
larger sense, I am representing many different kinds of engine 
manufacturers, including marine, lawnmower, chain saw, snow 
blower and snowmobile. These types of engines that EPA refers 
to as non-road engines typically do not have combustion 
feedback sensors capable of adjusting the air-fuel ratio of the 
engine to meet the specific requirements of the fuel.
    Ethanol is not gasoline, and the problem is that ethanol is 
a partially oxidized fuel, having a lower energy content than 
gasoline. As higher quantities of ethanol are blended into base 
gasoline, oxygen contained in the fuel increases for which the 
engine cannot compensate. Since many non-road engines do not 
have the capability of detecting the air-fuel requirements of 
the fuel, the engine could face catastrophic failure.
    As the person responsible for emissions certifications, EPA 
requires me to design, certify and lock in with tamper-proof 
controls, the optimum air-fuel ratio needed to meet emission 
requirements.
    When the fuel changes in the marketplace and additional 
oxygenates are added such as going to E10 to E15 gasoline, 
engines run hotter, causing serious durability issues and 
increase emissions, either in the form of increased nitrogen 
oxides or increased hydrocarbons due to misfire.
    Last week EPA finalized the label that would be required on 
fuel pumps at gas stations warning consumers that using E15 in 
certain types of engines may damage them. NMMA believes that 
the language in the label is severely inadequate and will do 
little to properly inform and educate consumers as to the 
serious consequences of using the wrong fuel.
    Although NMMA and others petitioned EPA to require gas 
stations that offer E15 to also offer E10, EPA has denied this 
petition and has no plans to mandate the continued availability 
of E10. This will certainly lead to the very misfueling that 
EPA wants to avoid.
    Growth energy and other ethanol proponents will say that if 
there is a demand for E10, the marketplace will ensure that 
some stations will carry it, and this may very well be true to 
a certain extent. However, it is very unlikely that every gas 
station would carry E10 which would certainly increase the 
likelihood of misfueling.
    Now, I have seen some of the preliminary results of testing 
that has been conducted on marine engines by the Department of 
Energy. These results have not yet been made public, and we 
have been asked by DOE not to say anything specific until the 
report is final. But I can say that in these tests, the 
majority of engines that were run on E15 suffered significant 
damage or exhibited poor engine runability, performance and 
difficult starting, none of which is acceptable when on a boat 
out at sea.
    I would like to end my testimony today on a positive note 
and mention an alternative fuel that is currently being 
evaluated. Last year I published a technical paper on the 
effects of butanol-extended fuels in marine outboard engines. 
Butanol has an energy content closer to that of gasoline and is 
not hygroscopic, meaning that it is unlikely to absorb water 
and phase separate like ethanol. Based on this preliminary 
study, the data is promising in terms of better compatibility 
with existing engines and fuel systems. Additionally, NMMA and 
others are also currently evaluating the use of butanol-
extended fuels in marine products. Butanol certainly does have 
potential and may allow for continued use of biofuel with 
better compatibility with existing engines and fuel system 
components.
    And finally, more testing should be done to determine the 
effects of E15 on various kinds of engines and to see whether 
there might be alternatives to ethanol, such as butanol. 
Additionally, the Committee asked me to comment on the 
legislation it is considering to engage the National Academy of 
Sciences to conduct a study of all scientific data on ethanol 
blends and their effects on engines. I do believe that this 
legislation is a good idea.
    Thank you very much for allowing me to testify today.
    [The prepared statement of Mr. Wasil follows:]

Prepared Statement of Mr. Jeff Wasil, Emissions Certification Engineer, 
                        Evinrude Outboard Motors

    Good afternoon, Chairman Harris, Ranking Member Miller, other 
Members of the Subcommittee.
    It is a pleasure to be here this afternoon. My name is Jeff Wasil 
and I am the Emissions Certification Engineer for BRP Evinrude Marine 
Engine division located in Sturtevant, Wisconsin. I am here today to 
testify on behalf of the National Marine Manufacturers Association, 
which represents over 1500 boat builders, marine engine, and marine 
accessory manufacturers. I ask that my full written testimony, with the 
attached exhibits, be made a part of the record of this hearing.
    I am responsible for marine engine emissions certification testing: 
ensuring that all of our marine engines are compliant with U.S. EPA, 
California, and other global marine emission regulations. Additionally, 
I ensure that the engines we sell will remain durable and perform to 
customers' expectations. Over the past 12 years, I have published 
several peer-reviewed technical papers on marine engine emissions, 
including particulate matter, gaseous emissions, green house gas 
emissions and alternative fuels. This experience and other marine 
testing I have done makes me uniquely qualified to tell you why I think 
it is a bad idea for the U.S. Environmental Protection Agency to allow 
an increase in the volume of ethanol in gasoline and why I believe EPA 
has not followed proper procedures in either its decision to propose an 
ethanol increase in our gasoline supply or in their proposed warnings 
to consumers about the problems that they know would be caused by E15 
gasoline.
    As all of you most certainly know, EPA responded to a petition from 
``Growth Energy,'' which represents ethanol producers and supporters, 
by proposing to raise the percentage of ethanol in gasoline from 10 
percent to 15 percent by volume. I am here today representing NMMA and 
my company, but in a larger sense, I am representing many different 
kinds of engine manufacturers--marine, lawnmower, chain saw, snow 
blower, snow mobile. These types of engines that EPA refers to as 
``non-road engines'' typically do not have combustion feedback sensors 
capable of adjusting the air/fuel ratio of the engine to match the 
specific requirements of the fuel. Ethanol is not gasoline, and the 
problem is that ethanol contains additional oxygen. As higher 
quantities of ethanol are blended into base gasoline, oxygen contained 
in the fuel increases, which leads to engine enleanment. Since many 
non-road engines do not have the capability of detecting the air/fuel 
ratio requirements of the fuel, the engine could face catastrophic 
failure. As a member of the team responsible for engine calibration, 
and the person responsible for emissions certifications, EPA requires 
me to design, certify, and lock-in with tamper-proof controls, the 
optimal fuel/air ratio needed to meet emission requirements. When the 
fuel changes in the marketplace and additional oxygenates added--such 
as by going from E10 gasoline to E15--engines run hotter, causing 
serious durability issues and increased emissions either in the form of 
increased Nitrogen Oxides (due to enleanment) or increased hydrocarbons 
(due to misfire). Additionally, ethanol is hygroscopic--meaning that it 
has an affinity for water. Obviously there is significant opportunity 
for fuel-related issues in the marine environment due to the presence 
of water near open vented fuel systems and due to the inherent long-
term storage and usage cycles unique to recreational boats. Ethanol 
only exacerbates these issues.
    My concern is heightened by the EPA's statutory mandate to increase 
the biofuel content in the nation's gasoline supply to 36 billion 
gallons per year by 2022 and by the EPA's efforts to achieve this 
mandate. As I mentioned, EPA has responded to the petition from Growth 
Energy by proposing a ``partial waiver,'' allowing E15 to be used in 
certain vehicles and not in others. As a result of this partial waiver, 
EPA has begun working on a rule that will change the certification fuel 
for our engines from a 0% ethanol-extended fuel to a 15% ethanol-
extended fuel. In addition, last week, EPA finalized a label that would 
be required on fuel pumps at gas stations warning consumers that using 
E15 in certain types of engines may damage them. NMMA believes that the 
language in the label is severely inadequate and will do little to 
properly inform and educate consumers as to the serious consequences of 
using the wrong fuel. I have attached a copy of the label with our 
specific concerns as part of my full written testimony.
    The reality is that if E15 becomes the standard gasoline in the 
marketplace, millions of consumers will run the risk of having their 
vehicles, boats, lawnmowers, and other gasoline-powered devices 
damaged, because they will not have the option of fueling them 
properly. Although NMMA and others petitioned EPA to require gas 
stations that offer E15 to also offer ElO, EPA has denied this petition 
and has no plans to mandate the continued availability of ElO. This 
will certainly lead to the very misfueling that EPA wants to avoid.
    Growth Energy and other ethanol proponents will say that if there 
is a demand for ElO, the marketplace will ensure that some stations 
will carry it, and this may be true to an extent. However, it is 
unlikely that every gas station would carry El0, and there might not be 
one anywhere near where you live or work. So that would inconvenience 
the consumer and increase the likelihood of misfueling.
    Why have I been so insistent that increasing ethanol is almost 
certain to damage marine and other types of engines? As the person who 
works on calibrating these engines, I know first-hand how to damage 
them. I have seen some of the preliminary results of testing that has 
been conducted on such engines by the Department of Energy's National 
Renewable Energy laboratory. These results have not yet been made 
public, and we have been asked by DOE not to say anything specific 
until the report is final, but I can say that in these tests, the 
majority of the marine engines that were run on E15 suffered 
significant damage or exhibited poor engine runability, performance and 
difficult starting--none of which is acceptable when on a boat out at 
sea. Why did this happen? As I mentioned in my opening, from a 
technical standpoint the failures are due to changes to the calibrated 
stoichometric air/fuel ratio requirements of E15--which is different 
from the fuel on which the engine was intended and designed to run. The 
full results of the DOE tests are scheduled to be released in the fall, 
but from what we have already learned, E15 will cause many engines to 
fail well before they should: We know that, and the EPA knows that, and 
it's the reason we should slow down this abrupt move to introduce E15 
into the marketplace.
    So that I do not end my testimony today on a completely negative 
point, I'd like to mention an alternative fuel that is currently being 
evaluated. Last year, I published a technical paper on the effects of 
butanol-extended fuels in marine outboard engines. Butanol has an 
energy content closer to that of gasoline and is not hygroscopic--
meaning that it is unlikely to absorb water and phase-separate like 
ethanol. Based on this preliminary study, the data are promising in 
terms of better compatibility with existing engines and fuel systems. 
Additionally, the National Marine Manufacturers Association and others 
are also currently evaluating the use of butanol-extended fuels in 
marine products. Butanol, considered an advanced biofuel in the 
Renewable Fuels Standard (RFS), can be produced from many different 
types of biomass feedstocks, including corn. Recent advances in 
microbial fermentation processes have increased the yields of butanol, 
which make this product more cost-effective. We don't know for sure 
whether butanol is going to be a long-term viable alternative to 
ethanol, but it certainly does have potential. Testing is being done 
this summer by the NMMA and the American Boat and Yacht Council. We 
have also learned that other groups that make small engines are 
planning to test this new type of fuel. Butanol may allow for continued 
use of biofuel without the disadvantages of ethanol. We would like to 
talk with you about this when we complete our evaluation of butanol and 
when the DOE report on marine engines is final and we are allowed to 
talk more specifically about the DOE testing.
    I was specifically asked by the subcommittee to comment on the 
draft legislation that you will be considering. This legislation calls 
for the National Academy of Sciences to conduct a survey of all 
available scientific information relating to the effects on engines of 
ethanol blends greater than 10 percent. This seems to me to be a 
terrific proposal, as it would bring together in one place all that is 
known about E15 and higher ethanol blends.
    To summarize what I have told you today,

    <bullet>  First, an increase in the ethanol content of gasoline 
from E10 to E15 has been proposed by the EPA.

    <bullet>  Second, EPA acknowledges that E15 gasoline is suitable 
only for a limited set of gasoline powered vehicles and engines, 
specifically not including marine engines, snowmobile engines, engines 
on outdoor power equipment, and cars older than the 2001 model year.

    <bullet>  Third, the warning label EPA has proposed for placement 
on gasoline pumps is completely inadequate. The label they propose will 
not properly warn and inform consumers about problems associated with 
E15, and it is almost certain result in massive misfueling and 
subsequent engine damage.

    <bullet>  Fourth, unless continued availability of ElO gasoline is 
mandated by the EPA-which the EPA has declined to do-E15 will almost 
certainly become the common fuel in the marketplace, with ElO having 
very limited availability.

    <bullet>  Fifth, there is no need to rush E15 into the marketplace. 
Let's have a strategic pause while more testing is done to determine 
the effects of E15 on various kinds of engines and to see whether there 
might be alternatives to ethanol, such as butanol.

    Thank you for allowing me to testify today.

    Exhibit A: Jeff R. Wasil, narrative biography

    Exhibit B: Press Statement, National Marine Manufacturers 
Association, June 28, 2011, Subject: ``EPA Finalizes Pump Label and 
Other Misfueling Guidelines for E15; NMMA concerned controls are 
inadequate to prevent misfueling as final rule makes way for retail 
sale''

    Exhibit C: Proposed EPA E15 Label, June 28, 2011

    Exhibit D: Jeff R. Wasil, Justin Johnson, and Rahul Singh, 
``Alternative Fuel Butanol: Preliminary Investigation on Performance 
and Emissions of a Marine Two-stroke Direct Fuel Injection Engine''

    Exhibit E: GEVO White Paper, Transportation Fuels

    Exhibit F: Top Ten Reasons to use Isobutanol

                             Jeff R. Wasil

    Jeff Wasil is currently employed as an Engineering Technical 
Expert, Emissions Testing, Certification and Regulatory Development at 
the Evinrude Product Development Center, Sturtevant, Wisc. Jeff is 
responsible for the marine outboard engine emissions testing and 
certification laboratory at Bombardier Recreation Products Evinrude 
Product Development Center. Jeff has twelve years experience in engine 
emissions testing and is intimately involved with global marine 
regulatory emissions development and harmonization. He is a member of 
the National Marine Manufacturers Association's engine manufacturers 
division technical board, the International Council of Marine Industry 
Association (ICOMIA) marine engines committee, ICOMIA technical 
committee and is a project leader of NMMA's greenhouse gas task force. 
Over the past ten years he has published and presented several 
technical papers on marine engine emissions including particulate 
matter, gaseous emissions, bioassay analysis, life-cycle emission and 
alternative fuels.
    From 1995 to 1998 Jeff attended the Industrial Engineering 
Technology College of Lake County in Grayslake, IL, from which he 
received his Associates degree. He received a second Associates degree 
in ``Environmental Sustainability'' from Roosevelt University in 
Chicago.

EPA FINALIZES PUMP LABEL AND OTHER MISFUELING GUIDELINES FOR E15

NMMA concerned controls are inadequate to prevent misfueling as final 
                    rule makes way for retail sale

    WASHINGTON, D.C.--June 28, 2011--Today, the Environmental 
Protection Agency (EPA) released its rule outlining a gas pump warning 
label as well as other misfueling controls for gasoline containing up 
to 15% ethanol, more commonly known as E15. Last October, the agency 
approved the use of E15 for model year 2007 and newer vehicles as part 
of its response to a waiver petition filed in the spring of 2009 by 
pro-ethanol lobby group Growth Energy. In January 2011, E15 was 
approved for model year 2001-2006 cars and trucks. Completion of this 
misfueling rule was one requirement that was stipulated in the partial 
waivers for E15 before the fuel could be sold at retail outlets. Fuel 
and fuel additive manufacturers now must register E15 with the EPA, 
which has not been done as of today.
    While both partial waivers exclude marine engines and other non-
road engines such as snowmobiles, lawn and garden equipment, the 
National Marine Manufacturers Association (NMMA) continues to be 
concerned that the measures outlined in EPA's misfueling rule do not 
take significant steps to address anticipated problems with consumer 
confusion and the risk of misfueling. In addition, the rule does not 
ensure compatible fuels remain available for the nation's 13 million 
registered boat owners or the hundreds of millions of owners of 
gasoline-powered equipment. These concerns were outlined in NMMA's full 
comments to EPA submitted earlier this year.
    Specifically, NMMA is concerned that:

        <bullet>  The EPA believes that misfueling will be mitigated 
        solely through an English-only label on the gas pump. The label 
        does not identify the specific nature of the hazard and is not 
        sufficiently strong enough to capture the user's attention, 
        especially among the many existing point-of-sale labels already 
        competing for consumers' attention. In addition, usage of the 
        word ``may'' does not reflect EPA's own conclusion that E15 
        will damage marine engines and equipment. The label, which was 
        not tested through consumer focus groups, does not meet 
        American National Standards Institute (ANSI) warning label 
        standards that require recognizable warning symbols and icons.

        <bullet>  The EPA is not requiring any physical misfueling 
        controls for E15. NMMA recommended that physical barriers such 
        as electronic key pad confirmation, verbal cashier 
        confirmation, radio frequency identification (RFID) tags on E15 
        compatible vehicles that would lock fuel dispensers for any 
        non-compatible use such as boats and/or the establishment of 
        segregated pumps for E15 be required. However, the EPA is not 
        requiring any of these highly effective physical barriers to 
        misfueling.

        <bullet>  The EPA will not conduct a consumer education 
        campaign.l While the agency notes that this is an important 
        step to preventing misfueling, the agency is asking 
        stakeholders to educate the public despite the fact that 
        ethanol producers and corn-industry groups have aggressively 
        marketed E15 with misleading consumer information in the past. 
        Any fair and objective consumer education campaign must be led 
        by the EPA and not stakeholders with a direct financial 
        incentive to promote and sell their product.

        <bullet>  The EPA will not require that E10 remains available 
        in the marketplace. The agency has denied NMMA's petition.to 
        require that E10 be sold at gas stations as the population of 
        motor vehicles who are approved to use E15 grows over time. 
        Without this requirement, fuel for boats and other non-road 
        engines and equipment will become an expensive specialty fuel, 
        discouraging consumers from buying it and thus exacerbating the 
        risk of misfueling.

    ``As E15 becomes available for on-road vehicles, this greatly 
increases the likehood of misfueling in boats, the large majority of 
which are refueled at neighborhood automotive gas stations where E15 
will be sold,'' said NMMA President Thom Dammrich. ``NMMA is 
disappointed that EPA's only mechanism to protect consumers from 
confusion at the pump and consequent engine failures, emissions control 
failures and safety issues is a small label on the pump.''
    In December 2010, the NMMA filed suit in the U.S. Court of Appeals 
for the D.C. Circuit challenging EPA's partial waiver to approve E15 
for certain motor vehicles. NMMA continues to work with the Outdoor 
Power Equipment Institute (OPEI), the Alliance of Automobile 
Manufacturers (AAM) and the Association of International Automobile 
Manufacturers (AIAM) in a coalition called the Engine Products Group 
(EPG) in pursuing this legal challenge.
    For more information, contact Cindy Squires at 202-737-9766 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="73100002061a011600331d1e1e125d1c01145d">[email&#160;protected]</a>
    Contact: Christine Pomorski 202.737.9774

    [GRAPHIC] [TIFF OMITTED] T7254.010
    
    [GRAPHIC] [TIFF OMITTED] T7254.011
    
    [GRAPHIC] [TIFF OMITTED] T7254.012
    
    [GRAPHIC] [TIFF OMITTED] T7254.013
    
    [GRAPHIC] [TIFF OMITTED] T7254.014
    
    [GRAPHIC] [TIFF OMITTED] T7254.015
    
    [GRAPHIC] [TIFF OMITTED] T7254.016
    
    [GRAPHIC] [TIFF OMITTED] T7254.017
    
    [GRAPHIC] [TIFF OMITTED] T7254.018
    
    [GRAPHIC] [TIFF OMITTED] T7254.019
    
    [GRAPHIC] [TIFF OMITTED] T7254.020
    
    [GRAPHIC] [TIFF OMITTED] T7254.021
    
    [GRAPHIC] [TIFF OMITTED] T7254.022
    
    [GRAPHIC] [TIFF OMITTED] T7254.023
    
    [GRAPHIC] [TIFF OMITTED] T7254.024
    
    [GRAPHIC] [TIFF OMITTED] T7254.025
    
    [GRAPHIC] [TIFF OMITTED] T7254.026
    
    [GRAPHIC] [TIFF OMITTED] T7254.027
    
    [GRAPHIC] [TIFF OMITTED] T7254.028
    
    [GRAPHIC] [TIFF OMITTED] T7254.029
    
    [GRAPHIC] [TIFF OMITTED] T7254.030
    
    [GRAPHIC] [TIFF OMITTED] T7254.031
    
    [GRAPHIC] [TIFF OMITTED] T7254.032
    
    [GRAPHIC] [TIFF OMITTED] T7254.033
    
    [GRAPHIC] [TIFF OMITTED] T7254.034
    
    [GRAPHIC] [TIFF OMITTED] T7254.035
    
    [GRAPHIC] [TIFF OMITTED] T7254.036
    
    [GRAPHIC] [TIFF OMITTED] T7254.037
    
    [GRAPHIC] [TIFF OMITTED] T7254.038
    
    [GRAPHIC] [TIFF OMITTED] T7254.039
    
    [GRAPHIC] [TIFF OMITTED] T7254.040
    
    [GRAPHIC] [TIFF OMITTED] T7254.041
    
    [GRAPHIC] [TIFF OMITTED] T7254.042
    
    [GRAPHIC] [TIFF OMITTED] T7254.043
    
    [GRAPHIC] [TIFF OMITTED] T7254.044
    
    [GRAPHIC] [TIFF OMITTED] T7254.045
    
    [GRAPHIC] [TIFF OMITTED] T7254.046
    
    [GRAPHIC] [TIFF OMITTED] T7254.047
    
    [GRAPHIC] [TIFF OMITTED] T7254.048
    
    [GRAPHIC] [TIFF OMITTED] T7254.049
    
    [GRAPHIC] [TIFF OMITTED] T7254.050
    
    [GRAPHIC] [TIFF OMITTED] T7254.051
    
    [GRAPHIC] [TIFF OMITTED] T7254.052
    
    [GRAPHIC] [TIFF OMITTED] T7254.053
    
    Chairman Harris. Thank you very much, Mr. Wasil. Mr. Brown?

   STATEMENT OF MR. MIKE BROWN, PRESIDENT, NATIONAL CHICKEN 
                            COUNCIL

    Mr. Brown. Good afternoon, Chairman Harris, Congressman 
Miller, and Members of the Committee. Thank you, Chairman 
Harris, for the opportunity to participate in today's hearing. 
Also while unfortunate, I know I appreciate as does Chuck 
Allen, his family, his growers and employees, your comments 
regarding their plight. I know the remaining companies on the 
Eastern Shore appreciate your efforts as they do Mr. Bartlett's 
efforts this morning before the Small Business Committee on the 
livestock rules. So thank you.
    I am Mike Brown, President of the National Chicken Council. 
Companies accounting for more than 95 percent of the chicken 
produced and processed in the United States are members of the 
National Chicken Council.
    The NCC is extremely disappointed and dismayed that the 
Environmental Protection Agency issued a final approval on June 
28, 2011, for new labeling for the sale of gasoline blended 
with 15 percent ethanol. The E15 gasoline blend is 50 percent 
greater than the E10 currently sold at most gasoline pumps. 
Putting aside the very definite and common-sense problem of 
misfueling that this action will cause, the NCC cannot 
understand why the Federal Government is taking this untimely 
and unfortunate step to put more pressure on an already 
precarious corn crop this fall. A misguided ethanol policy is 
being further misguided by the rush to placate the corn ethanol 
interests.
    NCC appreciates the 73 Senators who voted last month to 
begin to stop the madness of full speed ahead for ethanol 
regardless of the cost or economic fallout on the U.S. economy. 
The Senators recognized that repealing the VEETC and 
eliminating the import tariff on foreign ethanol would not just 
save taxpayers billions of dollars but would also send a 
message that ethanol manufacturers need to learn to operate in 
a free-market economy, not a cocoon of government subsidies, 
mandated usage and insulation from market competition. NCC 
urges the House to follow suit.
    In addition, NCC very much appreciates the 283 House 
Members who last month voted to approve an amendment that would 
prohibit USDA from allocating funds for ethanol infrastructure, 
including blender pumps and storage facilities.
    The NCC questions the so-called compromise efforts being 
debated in Congress to allow the ethanol industry to have its 
corn and eat it, too. Compromise in NCC's dictionary means that 
the ethanol industry needs to allow for a good measure of 
flexibility in the ethanol policy and program going forward. 
Moving from a tax credit for blenders to a subsidy to build 
infrastructure is simply dressing up ethanol policy in another 
dress and is not a compromise.
    More specifically, the RFS needs to be subject to an 
adjustment when market forces and the corn harvest are such 
that market needs cannot be met at a reasonable cost to users. 
This is one reason why NCC supports legislation to permit 
individual States to opt out of corn ethanol portion of the 
RFS.
    The policies and rules of the games for corn-based ethanol 
must be re-balanced and the playing field must be leveled to 
permit chicken producers and other animal agriculture producers 
to more fairly compete for very limited supplies of corn this 
year and most likely for the next few years. Our companies 
compete every day in the marketplace, domestically and 
internationally. We cannot compete with the United States 
Government.
    Broiler companies, since last October when the sudden, 
unexpectedly run-up in corn and other feed ingredients 
occurred, have tried to weather the storm of very high, 
volatile corn prices. But now companies are trimming their 
production plans, which means growers will receive fewer chicks 
to grow to market and processing plant shifts will be reduced 
further affecting employment.
    A broiler company in Georgia just announced last week 300 
workers will no longer be needed. Also, this month a fourth-
generation broiler company in Delaware filed for bankruptcy 
protection while it works to secure an owner for its assets. 
Further, another company in Arkansas last week announced plans 
to consolidate two processing plants as well as two hatcheries. 
This consolidation will result in additional 223 jobs being 
eliminated. The company in its announcement indicated that 
eliminating these jobs will give it a better chance to survive.
    I would like to tell this Committee that this downsizing is 
the end of the boiler industry's financial problems, but I 
cannot tell you that because there are a number of other 
companies on the financial bubble. Banks and other lending 
institutions are telling these companies, enough is enough, 
meaning sell your assets and repay your outstanding debt. What 
some analysts say about the broiler industry of ten companies 
in ten years may become a reality much, much sooner.
    The NCC strongly supports legislation that the Subcommittee 
asked for our views on that would require the Administrator of 
the EPA to contract with the National Academy of Sciences to 
conduct a comprehensive assessment on the ramifications of the 
use of ethanol blends. Chicken companies and all of animal 
agriculture are bearing the burden and feeling the disastrous 
effects of competing for corn on a field that is heavily tilted 
toward the ethanol industry.
    Mr. Chairman, I have submitted more in-depth testimony, and 
I will conclude my remarks here. Thank you.
    [The prepared statement of Mr. Brown follows:]

   Prepared Statement of Mr. Mike Brown, President, National Chicken 
                                Council

    Good afternoon, Chairman Harris, Congressman Miller, and Members of 
the Subcommittee. Thank you, Chairman Harris, for the opportunity to 
participate in this important and very timely hearing on the issues 
impacting poultry companies, farmers, and the allied industry that 
supplies the necessary goods and services to the poultry business.
    I am Mike Brown, President of the National Chicken Council. 
Companies accounting for more than 95 percent of the chicken produced 
and processed in the United States are members of the National Chicken 
Council.

E15 Labeling Permitted

    The National Chicken Council is extremely disappointed and dismayed 
that the Environmental Protection Agency issued final approval on June 
28, 2011 for new labeling for the sale of gasoline blended with 15 
percent ethanol. This E15 gasoline blend is 50 percent greater than the 
E10 currently sold at most gasoline pumps. Putting aside the very 
definite and common sense problem of misfueling that this action will 
cause, the National Chicken Council cannot understand why the federal 
government is taking this untimely and unfortunate step to put more 
pressure on an already precarious corn crop this Fall. A misguided 
ethanol policy is being further misguided by the rush to placate the 
corn ethanol interests. When will the Administration begin to recognize 
that blindly pursuing this type of policy is financially damaging 
consumer pocketbooks and causing taxpayers to pay for a policy that 
makes little, if any, economic sense?

Some In Congress Understand

    The National Chicken Council appreciates the 73 Senators who voted 
last month to begin to stop the madness of full speed ahead for ethanol 
regardless of the cost or economic fallout on the U.S. economy. The 
Senators recognized that repealing the Volumetric Ethanol Excise Tax 
Credit (VEETC) and eliminating the import tariff on foreign ethanol 
would not just save taxpayers billions of dollars but would also send a 
message that ethanol manufacturers need to learn to operate in a free 
market economy, not a cocoon of government subsidies, mandated usage, 
and insulation from market competition. Also last month, similar 
legislation was introduced in the House and the National Chicken 
Council also strongly supports this House effort.
    The National Chicken Council very much appreciates the 283 House 
Members who last month voted to approve an amendment that would 
prohibit USDA from allocating funds for ethanol infrastructure, 
including blender pumps and storage facilities. It is important to note 
that the latest vote on this legislation received 22 more votes than it 
did when originally passed by the House in February. This message is 
becoming increasingly clear that more and more Congress are recognizing 
that the ethanol industry must, after more than 30 years, begin to 
compete on a level field in the marketplace.

Compromise Is Not A Compromise

    The National Chicken Council questions the so-called compromise 
efforts being debated in Congress to allow the ethanol industry to have 
its corn and eat it, too. Compromise in the National Chicken Council's 
dictionary means that the ethanol industry needs to allow for a good 
measure of flexibility in the ethanol policy and program going forward. 
Dressing-up ethanol policy in another dress is not a compromise. More 
specifically, the Renewable Fuels Standard (RFS) needs to be subject to 
an adjustment when market forces and the corn harvest are such that all 
market needs cannot be met at a reasonable cost to users. That is one 
reason why the National Chicken Council supports proposed legislation 
to permit individual states to opt out of the corn ethanol portion of 
the RFS. This common sense approach would be a good policy, especially 
when there is a very limited supply of corn available at a reasonable 
cost. States under this type of legislation can determine for 
themselves the trade-off of higher food costs versus more gasoline 
blended with ethanol. Allowing states to make this critical call is a 
step toward taxpayers and consumers better deciding for themselves what 
is in their best interest. The National Chicken Council calls upon 
Congress and others involved to permit states this opportunity. There 
are, of course, other reasonable approaches to adjusting the RFS when 
the conditions so dictate.

Corn-Based Ethanol Policies And Rules Need Re-Alignment ASAP

    The policies and rules of the games for corn-based ethanol must be 
re-balanced and the playing field must be leveled to permit chicken 
producers and other animal agriculture producers to more fairly compete 
for the very limited supplies of corn this year and most likely for the 
next few years. This action must be taken as-soon-as-possible. Broiler 
companies, since last October when the sudden, unexpectedly run-up in 
corn and other feed ingredient costs occurred, have tried to weather 
the storm of very high, very volatile corn prices. But, now, companies 
can no longer withstand the storm. Companies are trimming their 
production plans, which means growers will receive fewer chicks to grow 
to market-ready broilers and processing plant work shifts are being 
reduced or even eliminated. With less work time, more and more workers 
are being laid-off. A broiler company in Georgia just announced 300 
workers will no longer be needed. Also, this month a fourth-generation 
family broiler company in Delaware filed for bankruptcy protection 
while it works to secure another owner for its assets. Further, another 
company in Arkansas last week announced plans to consolidate two 
processing plant operations into one location and similarly will 
combine two hatcheries into a single facility. This consolidation will 
result in 223 jobs being eliminated. The company in its announcement 
indicated that eliminating these jobs will give it a better chance to 
survive. Earlier in 2011 this same company eliminated about 300 jobs in 
an attempt to stay in operation. Also, in May this year, a third-
generation broiler company with a complex in North Carolina and another 
complex in Arkansas succumbed to the financial stress of high feed 
costs. The result in this case is that its complex in North Carolina is 
now owned by a foreign company and the Arkansas complex is now owned by 
another broiler company that not only had the borrowing capacity to 
purchase the assets but the reserves that will undoubtedly be necessary 
to carry financial loses until the broiler market improves to at least 
a breakeven position. A third-generation company in Mississippi closed 
its doors earlier this year as the corn cost/chicken price squeeze 
became intolerable.
    I would like to tell this Committee that the above noted situations 
are the end of the broiler industry's financial problems. I cannot tell 
you that conclusion because there are a number of other companies on 
the financial bubble. Banks and other lending institutions are telling 
these companies, ``enough is enough,'' meaning sell your assets and 
repay your outstanding debt. What some analysts say about the broiler 
industry of ``ten companies in ten years'' may become a reality, and 
perhaps, sooner than in a decade.

Draft Legislation For NAS Study On E15

    The National Chicken Council strongly supports legislation that 
would require the Administrator of the Environmental Protection Agency 
to contract with the National Academy of Sciences to conduct a 
comprehensive assessment on the ramifications of the use of mid-level 
ethanol blends, meaning any blend level above E-10. NCC supports 
research comparing ethanol-gasoline blends containing 15 percent 
ethanol with ethanol-gasoline blends containing 10 percent. Chicken 
companies and all of animal agriculture are bearing the burden and 
feeling the disastrous effects of competing for corn on a field that is 
heavily tilted toward the ethanol industry. NCC urges this Committee 
and others in Congress to move quickly to approve the draft legislation 
for an impartial, science-based study. Such a study will help document 
the folly of hiking the ethanol blend in question when there is not 
enough corn in the foreseeable future to even meet the needs of E10.

Conclusion

    The National Chicken Council, its members, and the many allied 
industry companies that support poultry production, processing and 
marketing look forward to working more closely with the Committee and 
others in Congress so that poultry producers have a better opportunity 
to successfully manage the increasingly difficult challenges and 
issues. Improving the state of the poultry industry not only helps 
poultry companies and poultry farmers but, more importantly will allow 
consumers of poultry products to continue to enjoy an ongoing, adequate 
supply of animal protein at reasonable prices.
    I look forward to your questions and comments.

Biographical Sketch of Mike Brown, President, National Chicken Council

    Mike Brown is president of the National Chicken Council. He was 
selected for this position in February 2011, succeeding George Watts. 
As president, Brown manages the NCC staff and is responsible for 
carrying out policies as determined by the Board of Directors.
    Previously, Brown was on the staff of the American Meat Institute, 
where he represented AMI to Congress and the Administration as the 
organization's senior vice president for legislative affairs. He joined 
AMI in May 1995, after serving eight years as a legislative assistant 
for former Sen. John Warner (R-VA), focusing on agriculture, food 
safety, labor, immigration, environment, and international trade 
issues. Brown also previously worked as a legal publication specialist 
for the Federal Register, where he was responsible for providing 
information to Congress, federal agencies, trade associations and 
others on federal regulations and office programs and publications.
    Brown earned his Bachelor of Science in political science and 
history from the State University of New York, Brockport. Brown and his 
wife, Kelly, live in Vienna, Virginia.
    The National Chicken Council represents vertically-integrated 
chicken producer-processors, the companies that produce, process and 
market chickens and chicken products. Member companies of NCC account 
for more than 95 percent of the chicken sold in the United States.
    Chairman Harris. Thank you very much, Mr. Brown. Mr. Burke?

 STATEMENT OF MR. W. STEVEN BURKE, PRESIDENT AND CEO, BIOFUELS 
                    CENTER OF NORTH CAROLINA

    Mr. Burke. Mr. Harris, Mr. Miller, Members, the Biofuels 
Center of North Carolina was established by our legislature in 
2007 to implement a long-term state policy goal, to gain large 
internal capacity for alternatives to petroleum-based liquid 
fuels.
    I have been asked today to explicate our thinking, not to 
provide technical E15 responses. I offer, however, a simple 
statement about the E15 decision. Assuming technical concerns 
can be addressed, the Biofuels Center supports it as a 
necessary intermediate step on the road to this Nation's larger 
goals for advanced biofuels. More time is needed for their 
development. In the interim, increased ethanol use, ethanol not 
necessarily entirely made from corn, catalyzes new technology, 
affirms economic and environmental benefits and prepares us for 
the next large amounts of generational feedstocks and 
facilities.
    Biofuels development in North Carolina is shaped by a 
realistic premise: America will continue to seek more 
augmentation of petroleum-based liquid fuels and thus needs new 
State models to gain large amounts of liquid fuel from sources 
other than corn in places other than our Midwestern States.
    North Carolina sprang from a bold goal. By 2017, we seek to 
gain ten percent of our State's liquid transportation fuels 
from biofuels grown and produced in North Carolina, 600 million 
gallons are estimated to be required.
    Appropriation and policy port for this goal is sustained 
and nonpartisan. Biofuels is judged a matter of shared future-
thinking policy.
    How does the State create the disciplined framework for a 
complicated long-term new sector? The question is important, 
for States should assume increasing leadership in bringing 
biofuels to our national landscape.
    North Carolina's nationally unique biofuels endeavor is 
shaped by six imperatives. Imperative one, by policy that 
biofuels endeavor is not based on corn-derived ethanol. Judged 
unusual when laid out in 2007, the decision has proven smart. 
North Carolina does not efficiently produce corn and our large 
animal sectors must not be disadvantaged. As such, other crop 
and tree-based feedstocks must be developed. Energy, grasses 
and wood will likely be dominant.
    Imperative two, biofuels must be seen and shaped as a 
technology. Despite large production of ethanol in the mid-west 
and in Brazil, the technology is nascent and unfolding, at an 
early stage comparable to main-frame computers. Current corn-
based ethanol production displays the historical reality of 
technologies. They begin with what we know and with what we can 
do and then evolve. Such evolution will yield new ways to make 
fuels from new sources in more places.
    Imperative three, a comprehensive approach is required for 
piecemeal attention yields uncertain success in technology 
development. A dovetailed approach addresses every aspect of 
biofuels, science, growing, pilot and large scale production, 
company development, distribution, training, land, biomass, 
financing, environment, policy issues, public preparation.
    Imperative four, the endeavor for biofuels is civic in 
scale and responsibility. As biofuels affects the largest 
components of our society, science, technology, agriculture and 
growers, crops, forests, policy, strategy, public choices, 
cars, car culture, land, energy, economic gain, production, 
distribution, environments, sustainability, jobs, daily life 
and in fact, every one of us, civic is at hand.
    Imperative five, economic and agricultural sustainability 
of crop and tree-based resources over time must be ensured for 
national feedstock requirements will be enormous and 
unprecedented.
    Imperative six, innovative targeted projects are required. 
Three representative examples are under way in North Carolina's 
biofuels endeavor. One, North Carolina's biofuels campus, a 
426-acre campus will be developed over the next ten years as 
the Nation's only large site for growing company development, 
public engagement and demonstration. Two, use of swine lagoon 
spray fields. North Carolina's swine industry yields lagoon 
affluence sprayed for remediation on 100,000 acres growing low-
value coastal Bermuda grass. The Biofuel Center has trials 
under way to verify environmental and economic benefits to 
instead grow cellulosic energy grasses, sorghums, switchgrass, 
miscanthus, and Arundo donax.
    Project Eastern Gain. We seek by 2016 to gain 50 million 
gallons of jet aviation fuel from our land contiguous to bases.
    I appreciate the opportunity.
    [The prepared statement of Mr. Burke follows:]

Prepared statement of Mr. W. Steven Burke, President and Ceo, Biofuels 
                        Center of North Carolina

    Mr. Chairman and Committee Members: I am Steven Burke, President 
and CEO of the Biofuels Center of North Carolina. A private non-profit 
corporation, the Center was established by the North Carolina 
Legislature in 2007 to implement a policy, economic, and agricultural 
imperative: to gain large internal capacity for alternatives to 
petroleum-based liquid fuels.
    I have been asked not to provide technical responses about E15 but, 
instead, North Carolina's way of thinking and a way of doing about our 
biofuels future.
    I briefly make, however, a simple statement about the E15 decision 
of the EPA. The Biofuels Center supports the decision as a necessary 
intermediate step on the road to larger and longer-term national goals. 
More time is clearly needed for advanced biofuels technologies to 
develop. In the interim, increased use of ethanol serves as the first 
stage foundation required for new biofuels technology, affirms biofuels 
within consumer and national life, and prepares for large amounts of 
next generation feedstocks, technology, and facilities.
    For biofuels development in North Carolina, my requested topic, our 
way of thinking and doing is shaped by a strong premise: America will 
continue to seek more augmentation of petroleum-based fuels and thus 
needs new models to gain large amounts of liquid fuel from sources 
other than corn in places other than the Midwest.
    North Carolina has shaped such a model, springing from an ambitious 
goal: by 2017, 10% of the state's liquid transportation fuels will come 
from biofuels grown and produced internally. By current usage 
estimates, up to 600M gallons will be required.
    The goal is challenging but possible if a key recognition underlies 
policy and activities: development of large biofuels capacity must be 
seen as landscape changing, actually and figuratively, and as such must 
be judged nothing less than a societal and civic imperative.
    Such thinking, both bold and common-sensical, shapes work of the 
Biofuels Center of North Carolina. Judged the nation's only agency 
working comprehensively over time for all aspects of biofuels 
development, it was established to meet the state goal and shape a 10-
15 year civic endeavor statewide. The endeavor sprang from four 
compelling and strong imperatives:

    1. Smart places and leaders now must strategically address their 
energy future as crucial for their future success and daily survival.

    2. An enormous and feasible new sector, well dovetailed to a state 
strong in both agriculture and technology, will be created.

    3. Economic and societal gains will come across the state, largely 
in rural and agricultural counties most in need of economic advantage. 
Realistic opportunities for sustained rural gain are few and merit 
committed support.

    4. Job and economic enrichment will be as strong or stronger in 
existing areas--forestry, agriculture, logistics, and distribution--as 
in new production facilities.

    Financial and policy support for North Carolina's biofuels endeavor 
is sustained, permanent within the budget even at a time of financial 
constraint, and consistently nonpartisan. Biofuels in North Carolina is 
judged a matter of thoughtful future-thinking policy and not of 
politics.
    The Center is located on North Carolina's Biofuels Campus, in the 
Granville County town of Oxford. The 426-acre Campus is a former lead 
USDA Tobacco Research Station established in 1910 and turned over to 
the state in 2005. The movement from tobacco to biofuels nicely 
symbolizes evolutionary changes in state and national agriculture.
    How does a single state create and implement the long-term, 
disciplined, and comprehensive framework required to create and 
maintain a complicated new sector? Our thinking is shaped under two 
headings:

    <bullet>  NORTH CAROLINA'S NATIONALLY UNIQUE BIOFUELS ENDEAVOR
    <bullet>  CONSIDERED THINKING ABOUT POLICIES, MANDATES, AND SUPPORT

North Carolina's Nationally Unique Biofuels Endeavor

    Shaped by the Biofuels Center of North Carolina, a statewide 
framework will over time strengthen resources, gain both feedstocks and 
production facilities, minimize risk and maximize gain to growers and 
investors, and address attendant financial, environmental, and policy 
issues.
    Ten factors and recognitions shape North Carolina's approach to 
biofuels development:

    1. An Endeavor Not Based on Corn
    By policy, North Carolina's state biofuels endeavor will not be 
based on or develop corn-derived ethanol. Judged an unusual 
determination when laid out in 2007, the decision has been proven 
sound. It grants realistically that the state does not efficiently 
produce corn and that large poultry and swine industries must not be 
disadvantaged.
    As such, state policy must soon and strongly move to practical 
evidence that other feedstocks, both crop- and tree-based, can 
sustainably and economically support advanced cellulosic biofuels. 
While this will make large commercial production unlikely in the short-
term, it will yield strong advantage and good preparation for the 
longer-term as America moves to other feedstocks and more producing 
states.

    2. Biofuels Development is Technology Development
    Biofuels must be seen and shaped as a technology--demanding and 
complicated, exploratory and entrepreneurial. Despite large production 
of ethanol in the mid-west and Brazil, the technology is new and 
unfolding, at an early stage comparable to main-frame computers. Such 
ethanol production displays the historical reality of technologies: 
they begin with what we know and can do, and inevitably evolve. Such 
evolution will in coming years yield new ways to make fuels from new 
sources in new places.
    As with any new technology, gaining such new biofuels will take 
time, prove expensive, yield risks and setbacks, and necessarily 
require problem-solving. As technologies must, the imperative will 
engage our best thinking, arouse entrepreneurial imagination, trigger 
new governmental programs and policies, yield large economic return, 
force leadership, and make the place better. Although based on 
agriculture--the first technology around which societies formed--
advanced biofuels are as technologically complex as the devices in our 
pockets. Failure to understand this complexity lessens the speed and 
effectiveness with which programs and funding move biofuels along the 
process of technology development, from societal need and research to 
outcome and change.

    3. The Endeavor is Agricultural
    Human life has been shaped by dependency upon the land--for food, 
key materials, and energy. Although the last century was shaped by non-
land based energy sources for most vehicular transportation, common 
sense and strategic reality now impel movement from total dependency on 
carbon-emitting, variably available, and politically destabilizing 
petroleum. Costly to America by many measures, that about-to-end-era 
freed the land unrealistically and only temporarily from its place in 
energy production.
    Agriculture and the land are, so to speak, back . . .and indeed 
strengthened . . .for energy production. Both must provide expanding 
capacities to fuel our vehicles as well as our diets and materials for 
daily life. Responsible state biofuels programs grant that 
accommodating new feedstocks to land, in balance with both food uses 
and the environment, requires challenging new thinking and policies.

    4. A Comprehensive Approach is Required
    North Carolina's approach to biofuels development is comprehensive, 
based on the recognition that piecemeal attention to resources and 
tasks yields uncertain success. A dovetailed framework of strategy and 
activities must integrate every aspect of biofuels, from societal 
policy to new fuels enthusiastically placed in vehicles.
    The nation's only state-based agency constituted with a 
comprehensive mandate, the Center addresses over time: research, 
growing and agronomic analysis, pilot and large scale production, 
company development, distribution, land and land use, environmental and 
policy issues, and public preparation.
    Specific requirements are varied: farmers and landowners must 
commit to new feedstocks and new uses of biomass; economic analyses 
must verify that money can be made in growing, production, and 
distribution; consequential issues must be addressed, for large impact 
will be seen on land, biodiversity, water, and the environment. 
Credibly addressing issues will in fact likely prove crucial in coming 
years to sustained growth of the biofuels sector; addressing them is a 
responsibility as well as the task of a life-based technology. Problems 
must be solved; models for sustainability must be crafted.
    While few would argue that these are the tasks of biofuels 
development, no other federal or state models appear to purposefully 
identify, fund, and address them in a comprehensive framework. 
Encouraging such state and regional models can prove valuable to this 
Subcommittee and to federal agencies, as they will increasingly prove 
necessary for the success and survival of a national biofuels endeavor 
expanding in feedstocks, geography, and strategic importance.

    5. Sustained Commitment is Required
    North Carolina grants that a long-term commitment is required. 
Technologies, a landscape changing sector, and visionary goals do not 
come about quickly or easily. As such, a sustained endeavor, over 15 
plus years, will yield daunting tasks and developing groundwork in the 
short term but verifiable and large return in the long-term.

    6. The Endeavor is Civic in Scale and Responsibility 
    Biofuels both springs from and shapes many of the largest societal 
imperatives: science and technology, agriculture and growers, crops and 
forests, policy and strategy, public behaviors and car culture, land 
and land use, energy and comprehensive energy policy, economic gain, 
production and distribution, climate, verified and functional 
sustainability, and something of daily survival in a changing world. As 
such, biofuels is nothing less than a civic endeavor. Smart places, 
agencies, and policy leaders should include it among imperatives for 
deliberate civic attention. Synthesis among the imperatives is 
challenging but required. As with any civic and societal mandate, the 
key framing question is constant and large: how can this endeavor make 
better our place and our future?

    7. Production at Varying Scales is Sought
    Biofuels, particularly biodiesel, can be produced at widely varying 
scales by widely varying producers. No other significant technology 
permits such variation from small to large, from local and civic 
sources to 100M gallons per year commercial facilities. Granting that 
biofuels can and should fully spring from every feedstock source and 
possible facility, North Carolina posits a future landscape peppered 
with sites varying in output and sources. Gains to municipalities, 
consortia, landfills, farmers, and landowners will augment large 
commercial gains. A balance of local and centralized biofuels 
production simultaneously serves strategy, common sense, and community 
economies.

    8. Feedstocks and Biomass Must be Sustainable
    Sustainability of varied crop- and tree-based resources over time 
must be ensured, for the feedstock requirements and drawdown in coming 
years--particularly if petroleum is constrained more quickly than 
expected--will be enormous and unprecedented in North Carolina and 
beyond. Environmental, agricultural, and economic imperatives must be 
simultaneously served and balanced. While farmers are accustomed at 
thinking in such terms, not all parties seeing gain from biofuels 
necessarily will be, particularly in the short-term.

    9. The Imperative is Unquestioned 
    Smart places and leaders understand now that gaining alternatives 
to petroleum-based fuels is not just desirable, not a luxury, and not 
just a useful addition to the agricultural sector. Biofuels are 
requisite for our future. Our best problem-solving and most targeted 
programs must be shaped to ensure their availability and benefit. More 
challenging yet, biofuels must be shaped within the full context of 
comprehensive energy policy, for in our era no source or new mandate 
can exist in isolation. Doing so proves challenging to states as to the 
federal government.

    10. Innovative Partnerships and Targeted Projects are Required
    Creating enormous amounts of new fuels from more places with 
expanding agriculture and new technology is unlikely without new 
thinking and activities. In any place, goals must be matched with 
resources and activities and must fit a comprehensive framework. Four 
representative examples, each complex and large in ambition, are 
underway in North Carolina:

    North Carolina's Biofuels Campus

    The 426 acre Campus will be developed over the next ten years as 
the nation's only large site for:

    1. Trial growing and agronomic data for crops and trees, both 
indoors and in greenhouses.
    2. Company incubation and partnerships. A recently completed 
business accelerator, with lab renovation funded by the DOE, provides a 
setting for small company development.
    3. Pilot and demonstration facilities.
    4. Public education and multiparty convenings on the biofuels 
issues, financing, and technology.

    Use of Swine Lagoon Sprayfields

    North Carolina's large swine industry yields lagoons containing 
nitrogen and phosphorus. Excess liquid is routinely sprayed on 100,000 
acres of prime fields currently growing low-yield and low-value Coastal 
Bermuda grass only to absorb and remediate these effluents. The 
Biofuels Center has trials underway to verify both environmental and 
economic benefits to instead grow cellulosic energy grasses: sorghums, 
switchgrass, miscanthus, and Arundo donax. Multiple commercial and 
proximal production facilities can be supported from the feedstocks; 
benefits will accrue nicely for both animal and crop agriculture as 
well as rural for regional economic gain.

    Assessment of Wood Resources Statewide

    North Carolina's 18M acres of forested land proves compelling to 
technology and production companies working for conversion of privately 
owned wood biomass, for the amount can balance both feedstock needs and 
sustainability over years. The Biofuels Center will soon complete 
analysis of wood resources statewide and of 14+ sites for production 
facilities. Doing so is necessary to enable production companies to 
economically sustain new wood-based technologies and justify large 
investment.

    Project Eastern Gain

    Home to the nation's third largest military presence, from all 
branches, North Carolina seeks to both strategically serve the military 
and to prevent encroachment on its bases. An ambitious project seeks by 
2016 to gain up to 50M gallons of jet aviation fuel from new land use 
and new production facilities in rural counties contiguous to bases.

Considered Thinking About Policies, Mandates, And Support

    Ultimately in our society, government policies, leadership at all 
levels, smart thinking, and best outcomes work for only two profound 
goals: societal improvement and survival. As areas of societal 
improvement become larger in impact, more complex in implications, and 
change-inducing, governments assume inevitable responsibility to guide 
and trigger. Biofuels, as well as the larger imperative of sustainable 
energy of all types, should be judged necessarily worthy of 
governmental attention and mandate. For biofuels--as for any new 
endeavor, new technology, or new policy--the shaping of appropriate 
attention and mandate is challenging, evolving, and difficult.
    To ensure national biofuels capabilities, federal agencies and some 
state governments have shaped programs, set goals, and committed 
funding. Doing so gives verification of need as well as impetus for new 
biofuels capabilities, resources, and policies--from science and 
technology to production facilities, consumer choices, and agricultural 
foundations. Important and complex societal outcomes seldom just happen 
anymore by fate and good intentions. Inducement, support, and 
nurturance are required. Leadership is necessary to induce change and 
gain.
    For the federal government in particular, large in both 
responsibility and resources, two enormous key questions soon emerge 
around such attention to biofuels:
    First, how is the always uneven balance between goals, public 
outcomes, and technology development addressed? Policies and questions 
around ethanol reveal this inevitable initial disjuncture. Moving to 
larger ethanol usage, as discussed in this hearing, moves national 
goals to quantifiable reality; doing so is always hard and always 
welcome. At the same time, the goal impels change to both industry and 
the public. The juncture of goals, new technology, and an existing 
industry is historically never smooth and biofuels development proves 
no exception.
    As a result, the proposed assessment of effects of mid-level 
ethanol blends discussed today is neither surprising nor unwelcome. If 
quantifiable results and concerns reveal new needs or liabilities, the 
continual imperative of new technology development is simply at hand 
and affirmed: address and solve the problem. That is what technologies 
do as they find their place and merge with existing industries. Failure 
to do so with ethanol would surely be akin to truncating mobile phones 
development because they early dropped calls. Technologies always yield 
challenges and outcomes in equal measure. Economic, policy, industry, 
and public factors are always at play and must be balanced, with risk 
usually at hand if one vantage point is allowed to dominate decisions.
    Second, how do we evaluate the cusp at which a new technology or 
sector, like any offspring, needs to be weaned of nurturance? The 
movement from necessary nurturance to ongoing subsidy seems often 
subtle and too-inevitable. A technology too-long subsidized is at best 
expensive as well harder to defend, and seems at worst the boutique 
captive of vested interests. No sector truly important to society, as 
is true of biofuels, can be seen fairly or not as supporting vested 
rather than societal interests. Current analyses of ethanol subsidies 
reveal the inevitability of addressing this cusp.
    At the same time, other federal programs and mandates--for loan 
guarantees of production facilities, for verification of new 
technologies, for gaining of biomass, for production and use of 
ethanol--appropriately continue still-early nurturance of goals and 
infrastructure. However, they will necessarily evolve as a strengthened 
and expanding biofuels community nationwide moves to new needs in 
coming years.

 Biography for W. Steven Burke, President and CEO, Biofuels Center of 
                             North Carolina

    Mr. Burke has served as president and CEO of the Biofuels Center of 
North Carolina since March of 2009. He served as founding board chair 
from July of 2007 until that date, and as acting president since August 
2008.
    The Biofuels Center is a private, non-profit corporation 
established by the State of North Carolina to implement a policy 
commitment to gain large capacity for growth and production of 
biofuels. The Center is judged the nation's only agency working within 
a long-term and comprehensive framework for all aspects of biofuels 
development.
    Mr. Burke serves on the Executive Committee of the Biofuels Center. 
He is a member of the State of North Carolina's Energy Policy Council; 
a board member of the Bent Creek Institute; and Vice Chair of the board 
of directors of the Biotechnology Institute, a non-profit corporation 
working for strengthened biotechnology education nationwide. From 2001-
2009, he served as founding board chair and board member of the 
Institute of Forest Biotechnology, a private non-profit corporation 
addressing the scientific, industry, and societal issues of forest 
biotechnology worldwide. He served two terms--in 1995-96 and 1997-98--
as chair of the 100+ member Council of Biotechnology Centers of BIO, 
the Biotechnology Industry Organization, and served on the Council's 
Board from 1993-2000. He served from 1994 until June of 1999 on the 
Emerging Companies Section Governing Board of BIO.
    Mr. Burke has been an active participant in the national and 
international life science and biotechnology communities since the mid-
1980s. He speaks throughout the United States and internationally on 
life science technology development, with particular attention to:

    <bullet>  The policies, issues, and development of biofuels

    <bullet>  The factors, strategies, and issues shaping effective 
biotechnology and life science communities

    <bullet>  The international and cultural imperatives of 
biotechnology development

    Mr. Burke departed the North Carolina Biotechnology Center in 2009 
as senior vice president for corporate affairs. Over 24 years, he 
helped shape the approach and strategies of the Center, the world's 
first targeted initiative for biotechnology development. He was 
responsible for varied activities and programs addressing strategic, 
governmental, policy, societal, and international issues. Among key 
outcomes: oversight of Growing North Carolina's AgBiotech Landscape, 
shaping multi-party long-term state vision; development of a nationally 
unique program to strengthen niche biotechnology through five regional 
offices across North Carolina; development with partners of North 
Carolina's Strategic Plan for Biofuels Leadership and the Biofuels 
Center of North Carolina; activities and policy recommendations shaping 
forest biotechnology and establishing the Institute of Forest 
Biotechnology; envisioning and establishing with partners the Bent 
Creek Institute, working in western North Carolina at the juncture of 
biotechnology with native plants; and a collaborative relationship with 
the German state of North Rhine-Westphalia. Prior to joining the North 
Carolina Biotechnology Center in 1985 as its fifth employee, Mr. Burke 
taught Instructional Design at North Carolina State University in 
Raleigh, North Carolina. He has an undergraduate degree in Religion and 
Literature from Duke University, and a Master of Education in 
Instructional Design from the University of North Carolina at Chapel 
Hill. He owns, curates, and informs about the nation's largest 
collection of American folk art buildings.

    Chairman Harris. Thank you very much, Mr. Burke. I now 
recognize our final witness, Dr. Ron Sahu testifying on behalf 
of the Outdoor Power Equipment Institute.

STATEMENT OF DR. RON SAHU, TECHNICAL CONSULTANT, OUTDOOR POWER 
                      EQUIPMENT INSTITUTE

    Mr. Sahu. Good afternoon, Chairman Harris, Ranking Member 
Miller and other Members of the Committee.
    Chairman Harris. I think you have to turn your microphone 
on because we are being recorded.
    Mr. Sahu. Oh, I will use this one instead. Thank you.
    Thank you again for the opportunity to appear. I am an 
independent technical consultant as the Chair noted in 
introductions. I have a Bachelor's and Master's and Ph.D. in 
Mechanical Engineering, the latter two from CalTech.
    Since about 2005, I have been looking at the impact of what 
is commonly called mid-level ethanol blends in the fuel mix on 
a variety of equipment. It began with the effort in Minnesota, 
and ever since that time and in the years pursuant, I have done 
extensive research on almost every aspect of the fuel impact on 
equipment.
    I am not going to repeat much of what I heard from the 
other panelists in the interest of time, and going last I have 
that advantage. So I am going to hit some of the points that 
were not made or could not be made because of time.
    Let me give you a scale of this potential problem. I 
understand EPA's waiver decision is limited to automobiles and 
late-model automobiles. Even assuming that those automobiles 
are perfectly capable of handling E15, that still leaves us 
with a potential problem. And there may be reason to believe 
that that universe is still likely to be impacted negatively.
    There are collectively around 500 million pieces of 
equipment in this country, legacy equipment, that are already 
out there, everything from boats and cars, including outdoor 
equipment. Much of that equipment is incapable of adaptive 
technology to handle new fuels, so it is out there. Much of it 
cannot be tracked.
    We estimate a replacement value north of $2 trillion for 
that universe. This group is going to be drinking gasoline so 
to speak from the same pool that the automobiles drink, so 
there is no way to separate the fuel pool unless designed by 
regulation. Although there are so many pieces of equipment as a 
percent user of gasoline, the non-road sector is a relatively 
small percentage. So there is little incentive for dispensers 
to create separate infrastructure to support this large- or 
small-volume user group.
    But let us not confuse that with the risk and harm. The 
harm and risk is not proportional to the volume of the market. 
This is a technical hearing. Let me point to some critical 
things we have learned I think universally from the Department 
of Energy studies, State of Minnesota work, independent work 
that industry has done.
    Ethanol increased to E15 will cause increased temperatures, 
exhaust temperatures and equipment temperatures. A lot of 
equipment is used close to the operators. If you see people 
operating a chain saw or a blower, it is next to their person. 
The inability to handle high amounts of heat properly without 
sustaining burns is a critical safety issue.
    Increased temperatures will also affect material usage and 
deterioration, including rubbers, elastamers, plastics, variety 
of metals that are used in the equipment that is already out 
there.
    Increased permeation and other evaporative emissions will 
also result.
    And another safety issue is inadvertent misoperation of 
equipment. Take chainsaw, for example. If a chainsaw starts to 
engage, the clutch engages at a different rotational speed 
before the operator expects it to, you can only imagine the 
catastrophic consequences. And that is one of the findings of 
the DOE study is unintentional clutch engagement of that type 
of close and hard-bladed equipment.
    We appreciate the dilemma that EPA had in making its 
regulatory decision. We certainly do. But in spite of asking 
for a sound and tough label that would provide some measure of 
separation in this common pool, EPA declined to provide a 
strong label. We do not think the label proposed is at all 
going to serve the need to segregate or warn people. In fact, 
it is an attention label, not even a warning label.
    And as a fellow panelist noted, EPA has declined to mandate 
the availability of E10 for this large universe, which means 
misfueling is a strong possibility.
    I would urge the Committee in its National Academy of 
Science study to expand the scope specifically with regards to 
two items, one, to expand the work that they need to do to look 
at implications of compatibility issues, higher temperatures 
and safety. The second is they should critically examine the 
issue of misfueling because misfueling is a very complex issue, 
and they should go beyond labels and look at all the other ways 
in which a more sound barrier can be provided between a waiver 
that applies to a portion of the population and not to the 
others.
    I will be happy to answer any questions that the Committee 
may have later. Thank you.
    [The prepared statement of Dr. Sahu follows:]

Prepared Statement of Dr. Ron Sahu, Technical Consultant, Outdoor Power 
                          Equipment Institute

    Good afternoon Chairman Harris, Ranking Member Miller and Members 
of the Committee. Thank you for the opportunity to appear.

INTRODUCTION

    My name is Ron Sahu. I am an independent technical consultant. I am 
representing myself as well as members of the Outdoor Power Equipment 
Institute (OPEI), a trade association whose members make a wide range 
of outdoor power equipment, including lawn and garden equipment.
    I have provided my curriculum vitae to the Subcommittee as 
requested (Attachment I). Briefly, I have a Batchelor's degree in 
Mechanical Engineering from the Indian Institute of Technology (IIT); 
followed by Masters and Ph.D degrees, also in Mechanical Engineering, 
the latter with an emphasis in combustion, from the California 
Institute of Technology (Caltech), in Pasadena, CA. I am also adjunct 
faculty at a number of local universities including UCLA. And, I have 
served as expert witness for the EPA on Clean Air Act matters.

MID-LEVEL ETHANOL AND ITS IMPACTS ON ENGINE AND EQUIPMENT

    As the Committee may be aware, all current engines and equipment 
sold and operated in the US, collectively a universe of over 500 
million legacy products valued at around 2 trillion dollars, that rely 
on motor gasoline as fuel, can handle up to 10% ethanol as part of the 
gasoline. Many auto manufacturers have also designed cars that can run 
on E85, which contains 85% ethanol. I am not aware of any non-
automotive or non-road applications with E85. I will use the term 
``mid-level'' ethanol to denote ethanol contents of greater than 10% 
but less than 85%. Typically, however, mid-level will mean ethanol 
contents of greater than 10% to perhaps 15% or even 20% in gasoline.
    Driven by a number of factors producers of ethanol have been 
proposing to increase the ethanol content of gasoline to greater than 
10% for the last several years. For the last six years I have been very 
involved in various assessments of what would occur if this happened, 
particularly in non-road engines. I am examined in detail all prior 
work done in this country and abroad in this regard. I have evaluated 
work done in Australia, other countries and by the Dept. of Energy 
(DoE) and have critiqued the DoE work (Attachment II). I have also 
conducted additional technical analyses. These are provided in a 
technical paper in Attachment III to this testimony.
    Unequivocally, the answer is that millions of products including 
most non-road engines and equipment will sustain a range of damage if 
the ethanol content of gasoline is increased to 15%. I believe that 
work by the US Dept. of Energy, also confirms this. Extensive 
documentation of likely adverse impacts, including impacts on safety, 
durability, loss-of performance, environmental impacts, etc. is 
documented in many reports and studies and is summarized in my paper in 
Attachment III.
    In brief, the impacts include

    A. Heat

    Increased Ethanol in gasoline could result in increased engine 
heat, including consumer accessible components, such as the plastic 
engine cover, guards, etc. Higher engine heat may result in potential 
safety concerns, especially in smaller hand held lawn and garden 
products that are held in close proximity to the operator. A product 
operator could inadvertently come in contact with the hotter plastic 
engine housing or other surfaces because they are unaware of the added 
heat caused by the higher ethanol gasoline.
    Current two-cycle engine oils do not mix well with alcohol, which 
may also increase engine heat and lead to premature engine failures.
    Increased heat causes damage to gaskets and piston seals, which in 
turn, causes increased emissions of HC and NOx, as documented by the 
tests performed by DoE.

    B. Fuel Leaks and Evaporative Emission Increases

    The effects of higher ethanol levels on engine components are not 
fully known, but may result in earlier degradation of existing and 
legacy engine seals, gaskets, fuel lines, etc.; the deterioration of 
these components could lead to fuel leaks and increase the risk of fire 
if an ignition source is present.
    E-15 also causes increased permeation and evaporative emissions.

    C. Unintended/Early Clutch Engagement

    Higher levels of Ethanol will also mean higher oxygen levels in 
fuel and result in higher engine speeds.
    The higher engine speed may present unintended clutch engagement, 
which may result in potential safety concerns for bladed products, such 
as brush cutters, edgers, chain saws, hedge trimmers and pruners where 
the customer is expecting the blade to start moving at a different 
speed from prior product experience.
    For example, a chain saw chain may now turn at idle speed when it 
did not with the lower ethanol content fuel, which may surprise the 
operator and cause an accident.
    Ethanol damage to engines and products is permanent. The DoE's 
testing on outdoor power equipment concluded that 28 engines in four 
families showed increased heat, performance irregularities, failure and 
unintentional clutch engagement.

    EPA's REGULATORY ACTIONS

    Let me say at the outset that EPA is faced with difficult decisions 
in balancing competing objectives and we are sensitive to its 
predicament.
    In response to the problems discussed above, the EPA, in granting 
Growth Energy's petition, has excluded from the waiver approval the 
entire universe of non-road engines and equipment, along with 
automobiles that are model year 2000 and prior. However, the practical 
effect of EPA's waiver to allow greater than 10% ethanol in gasoline 
will certainly affect non-road engines. Since this large non-road 
universe is actually is relatively small user of gasoline, by overall 
volume as compared to on-road automobiles, fuel suppliers and gas 
stations are unlikely, in general, to make available E10 or lower 
ethanol content gasoline in addition to E15.
    EPA's answer to this dilemma is to rely on a label at the dispenser 
that fails to adequately warn consumers of the adverse impacts of 
greater than 10% ethanol on their engines and equipment. However, 
disappointingly, EPA's recent label rule proposes a mild, ``ATTENTION'' 
in an unobtrusive color label that is unlikely to be effective at this. 
EPA also declines to mandate the continued availability of E10 in order 
to support this universe of equipment--stating that market forces would 
continue to make this fuel available.

    LIKELY FUTURE IMPACTS

    Thus, the most likely scenario would be the introduction of greater 
than 10% ethanol fuel into this non-road universe that cannot and is 
not designed to handle it. Of course there will be substantial damage 
to millions of products and millions of consumers will be faced with 
with loss of durability and loss of functionality from equipment 
already paid for. But, more crucially, one should also expect more risk 
to consumers due to potential fuel leaks and fires (perhaps on a boat 
in open water or in an enclosed garage), equipment starting when not 
intended (such as a chainsaw), or burns sustained by an operator due to 
the increased exhaust gas temperatures associated with greater than 10% 
ethanol.
    Avoidable financial and human loss/suffering aside, one of the more 
lasting unintended impacts of all of this will be to the perception of 
ethanol itself as a fuel or fuel component. I am not sure that this is 
what the backers of higher ethanol in gasoline intend. Yet, that would 
be the logical consequence of pushing EPA to introduce ethanol into 
gasoline at levels for which the user population is simply not ready.

    SUGGESTIONS FOR PROPOSED NAS STUDY

    I have reviewed the language of the proposed legislation that would 
require a study by the National Academy of Sciences to address this 
issue. While I generally agree with the scope of the proposed study, I 
have a couple of suggestions. First, I recommend that the focus of the 
study be on the implications and ramifications, including increased 
financial and non-financial risks from the use of greater than E10, 
particularly in the non-road fleet. Second, the NAS study scope should 
also include a critical examination of the issue of mis-fueling under 
the proposed EPA labeling scheme and investigate how mis-fueling can be 
minimized via options other than labeling.
    I will be happy to answer any questions that Members of the 
Committee may have.

    Preliminary Concerns on the Report Titled ``Effects of Intermediate 
Ethanol Blends on Legacy Vehicles and Small Non-Road Engines, Report 
1--Updated,'' NREL/TP-540-43543 and ORNL/TM-2008/117, dated February 
2009

    Dr. Ron Sahu, Consultant to the Outdoor Power Equipment Institute 
(OPEI)

    These comments focus exclusively on major adverse impacts observed 
during the tests performed on Small Non-Road Engines (SNRE), including 
lawn, garden and forestry products, like lawnmowers and trimmers.

    I. THE TESTS DOCUMENT THE FOLLOWING MAJOR ADVERSE IMPACTS RESULTED 
FROM FUELS GREATER THAN 10% ETHANOL

    A. Engine exhaust temperatures rose significantly. Significant 
rises in temperatures (exhaust, cylinder head, etc.) occurred on the 
order of 20 to 70 C from engines run on E0 compared to E20. For several 
categories, significant temperature rises resulted between E10 and E15. 
Additional heat generation has obvious implications on increased burn 
and fire hazards--considering the proximity of cut grass, wood chips 
and the operator to the engine's hot exhaust. However, the report does 
not delve into the implications of the additional heat and its 
ramifications on engine and equipment failure, personnel safety, 
increased fire hazards, or the inability to mitigate any of these 
hazards on millions of pieces of legacy equipment.

    B. Risks to operators dramatically increased. The report recognizes 
that unintentional clutch engagement resulted on several tested 
products because of high idle speeds. Obviously significant risks are 
created when a chainsaw blade becomes engaged when the product should 
be idling. However, there is no discussion in the Report of this 
increased hazard. If anything, the mitigation proposed (i.e., 
adjustment of fuel air mixture enleanment) is feasible to adjust 
carburetors on millions of legacy equipment that are already in use.

    C. Damage to Engines. Both of the tested ``Residential Handheld 
Engines'' (engines B-3 and B-7 as shown in Figure 3.9, pp. 3-18) 
suffered total and complete failures and would not start or operate 
after running on E-15 fuel for 25 or less hours, which is less than 
half of their useful life.

    D. Operational Problems. Many of the engines tested on mid-level 
ethanol suffered from erratic equipment operation, ``missing'' and 
stalling of engines, and power-reduction.

    II. MISCHARACTERIZATION OF RESULTS IN THE EXECUTIVE SUMMARY

    The Executive Summary does not accurately summarize the scope, 
results as well as uncertainties associated with the testing. Since 
most of the policy-makers will focus only on the Executive Summary, 
this could result in misinformed policies based on misleading 
conclusions.

    There appear to be numerous, material inconsistencies in the manner 
in which the results are reported in the main body of the report versus 
in the Executive Summary, including the following examples:

    A. The Executive Summary merely notes three handheld trimmers 
experienced higher idle speeds and unintentional clutch engagement. 
(See Sec. E.5.2). The report recognizes that this same problem could 
also occur on chainsaws. (See Sec. 3.2). The implications of 
unintentional clutch engagement in chainsaws and hedgeclippers (which 
are both examples of should have been fully addressed in the Executive 
Summary.

    B. With regards to materials compatibility, the Executive Summary 
incorrectly concludes that ``... no obvious materials compatibility 
issues were noted.'' (see p. xix). In fact, the report itself 
recognizes that materials incompatibility (such as swelling of the 
elastomeric seat for the needle in the carburetor bowl) could be the 
cause of the engine stall for the Briggs and Stratton generator 
observed in the pilot study (see pp. 3-15). The report also states 
that: 1) ``... various fuel-wetted materials in some small engines may 
not be compatible with all ethanol blends ...'' (see p. 3-9); and 2) 
``... materials compatibility issues were not specifically 
characterized as part of the study ...'' (see p. 3-12).

    C. Engines in the study experienced ``unstable governor 
operation,'' ``missing'' and ``stalling'' when operating on E20 fuel, 
indicating unacceptable performance. (See Section 3.2.2). However, the 
Executive Summary omitted any discussion of these substantial problems.

    D. Discussing emissions, the Executive Summary simply notes that HC 
emissions ``generally decreased'' and that combined HC+NOx emissions 
``decreased in most instances.'' (See p. xix). However, the report 
notes that while HC emissions generally decreased, they also increased 
in some engines. The net change in HC+NOx emissions ranged from -36% to 
+41% as reported in Sec. 3.2.2. It is important to note that for new 
engines, the net change in HC+NOx was often greatest in going from E0 
to E10 and smaller in the other transitions (i.e., from E0 to E15 or E0 
to E20). (See Table 3.7). For example, the numerical average for all 
engines shows that the HC+NOx reduction was -16.6% from E0 to E10; -
13.5% from E0 to E15 and only -9.5% from E0 to E20. Since small engines 
are already capable of E10 operation and that fuel is HC+NOx from E10. 
(As a side note, what is actually measured as HC in the study is 
unclear since a FID was used for this purpose, uncorrected for any 
ethanol or aldehydes, as noted in the report).

    III. DEFICIENCIES IN THE TESTING PLAN AND SCOPE

    A. No emissions testing pertaining to evaporative emissions was 
conducted. Thus, all references to ``emissions'' means tail-pipe 
emissions from the engine. Evaporative emissions are now regulated by 
EPA for small engines and equipment and covered by the EPA 
``certification'' program. Lack of evaporative emissions is a major 
omission.

    B. The report does not contain any direct data on ``materials 
compatibility'' testing or results--i.e., involving the various fuels 
tested and the materials that may be exposed to these fuels and how 
they interact. Material compatibility is a significant concern with E15 
and E20 fuels when used in small engines, leading not only to 
``operational issues'' but also to durability, emissions, and safety 
impacts.

    C. The report notes that the following fuels were used: E0, as well 
as splash-blended E10, E15, and E20. However, the report does not 
contain the actual ASTM specification of the blended fuels, including 
all relevant properties such as distillation cut point temperatures, 
etc. Table 2.2 of the report contains a few parameters of the blends. 
This is incomplete and a more complete fuel specification should be 
provided. The executive summary concludes that ``... the different fuel 
characteristics of match-blended and splash-blended fuels were not 
expected to have a significant impact on temperature'' or on 
durability. (See p. xviii). However, there is not any cited technical 
support for these statements. Similarly, there is no support for the 
observation that ``... emission results ... are not expected to vary 
significantly. . .between blended and match-blended fuels.'' Id.

    D. As the report notes, neither cold-start, nor warm-up testing was 
done, although these are two very common modes of operation for many 
categories of small engines. Additional performance tests that impact 
``operational issues'' which should have been tested include: (i) 
acceleration; (ii) application performance; (iii) carburetor and 
breather icing; (iv) fuel consumption; (v) governor stability; (vi) 
load pick up; and (vii) vapor lock. Individual categories of small 
engines will likely have additional performance-related test 
requirements.

    E. As the Executive Summary notes, the report presents ``initial 
results ... focused on identifying emissions or operational issues and 
measurement of several key engine temperatures.'' (See p. xviii). It is 
not clear what is meant by ``operational issues'' or what quantitative 
surrogates and/or metrics were used to substitute for operational 
issues. It appears that erratic operation, high idle, stalling, etc. 
were used as evidence of operational issues. While these are undeniably 
evidence of operational issues, no testing appears to have been done on 
various actual equipment operational modes (as discussed later) so the 
full extent of operational issues has by no means been evaluated.

    F. The report does not fully flesh out the issue and implications 
of irreversibility--i.e., once exposed to E15 and/or E20, performance 
is not restored simply by reverting to E0. In the case of the Poulan 
weedeater, it is noted that there were poor operations with E15 and E20 
and that ``normal operation could not be restored on E0.'' (See Section 
3.2.2). This is significant. Actual users, when faced with operational 
problems with ethanol blended fuels, will, as common sense dictates, 
revert to E0. What they will find is that doing so will not ``unring 
the bell'' since the damage by the ethanol blends is not reversible 
simply by changing the fuel.

    IV. UNREPRESENTATIVE AND LIMITED NUMBER OF TESTS CONDUCTED

    A. The category of forestry, lawn and garden equipment includes a 
broad swath of equipment and engine types. Yet, the category has not 
been defined in the report so that the extent of test results presented 
can be judged in context. While noting that millions of products with 
small engines are sold each year (actually tens of millions), and that 
EPA certifies on the order of 900 engine emission families, the report 
does not cover the immense diversity of the category including: 1) the 
various engine and equipment types used, 2) the fuel delivery 
mechanisms, 3) the various sizes and functions of the equipment, 4) the 
constraints that the equipment operate under (such as close proximity 
to operators, as an example), and 5) many other characteristics. 
Engines in this product category utilize a wide variety of engine 
architecture including both single and twin cylinders, two cycle and 
four cycle combustion, ported and valve charge controlled, side valve 
and overhead valve orientations, with and without exhaust after-
treatment, governed load and product load controlled, etc. The report 
should clearly qualify its findings are based on a tiny fraction of the 
diverse population of affected products.

    B. The types and numbers of engines and equipment tested are 
inadequate to be representative of even the limited types of small 
engines that were the subject of testing. While practical constraints 
such as time and money will always constrain the amount of testing that 
can be done, the basis for choosing the engine and equipment--namely 
those found in ``... popular, high sales volume equipment.'' appears 
not to have been followed. For example, of the six pieces of equipment 
selected for the pilot study, four were generators. No chainsaws were 
tested, even though the OPEI had directly requested that they be 
included--because of their extreme operating conditions and sensitivity 
to mid-level ethanol. Also, it is explicable why only one residential 
hand-held engine would be tested, even though these are likely to be 
very sensitive to fuel changes. The report should provide the basis of 
selection rather than referencing unspecified EPA sources. One of the 
constraints also seems to have been the available laboratory equipment 
(i.e., lack of small engine dynamometers). This is clearly an 
inappropriate basis for constraining equipment selection, especially if 
the goal is to obtain data on the entire class of affected engines and 
products.

    C. The report rightly notes the challenges associated with multi-
cylinder engines--although characterizing these as being ``more 
sensitive'' is too vague. (See p. 3-11). It is unfortunate that while 
the study included one twin cylinder engine in the initial screening 
process, there were no twin cylinder engines included in the more in 
depth portions of the testing program. Particularly when the initial 
screening test clearly demonstrated significant influences of higher 
ethanol blends. A significant portion of the Class 2 (>225 cc) non-
handheld engines produced each year are two cylinder engines. The 
omission of these engines in the expanded program is puzzling. The 
detailed test program should include engines and equipment that 
demonstrated any significant influence during the screening tests.

    D. The limited number of tests conducted cannot provide assurances 
that the results presented have any statistical significance, where 
appropriate. In fact, no attempt is made to discuss results in terms of 
statistical significance. Nor are such issues discussed in support of 
the design of the test matrix itself. For example, no pair-wise tests 
were run or results reported even though those opportunities were 
available even with the limited equipment selection.

    E. The manner in which the tests were run makes it difficult to 
separate the effects of engines, fuels, and aging. For example, the 
full-life tests do not allow the ability to distinguish between fuel-
driven and engine-driven causes since only one engine was tested on 
each fuel. In the pilot study, the effects of the fuel and aging are 
similarly hard to separate. These types of issues could have been 
avoided with better test planning.

    V. OTHER COMMENTS

    A. The comments are preliminary because not all of the test data 
discussed in the report are included. Specifically, backup test data 
for all tests conducted by the Dept. of Energy (NREL and ORNL) and its 
contractors (TRC) still need to be provided.

    B. The report notes that the test plan was developed with close 
consultation involving, among others, ``... US automobile companies, 
engine companies, and other organizations ...'' It would be helpful to 
have details of all the companies and individuals consulted in an 
Appendix to the report.

    C. The report does not separately discuss the comments of the peer 
reviewer(s) and what changes were made to the draft report as a result. 
While the Acknowledgements note that the peer review panel was led by 
Joseph Colucci, the report does not contain a list of all peer 
reviewers used, what portions of the report were peer reviewed by whom, 
and the necessary vitae for the reviewers. This should be included.
Technical Paper On The Introduction of Greater Than E10-Gasoline Blends
                  by Dr. Ranajit (Ron) Sahu,Consultant
                   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0477656c71766b6a44616576706c686d6a6f2a6a6170">[email&#160;protected]</a> 626-382-0001

    1.0 Introduction

    Recent debates driven by issues ranging from reducing dependence on 
foreign oil, reducing global climate change impacts, reducing the rapid 
escalation of gasoline prices at the pump, and even improving national 
security have resulted in the call to increase the proportion of 
renewable fuels available to users. In particular, there have been 
marked calls to rapidly increase the proportion of ethanol (ethyl 
alcohol) in gasoline. The current gasoline pool in the U.S. contains 
anywhere from 0% by volume (E0) to 10% by volume of ethanol (E10) 
depending on time of year and location. A mix of 85% ethanol in 
gasoline (E85) is also available as a motor fuel for vehicles that are 
capable of using the fuel. There are several efforts underway to 
statutorily increase the E10 proportion to greater than 10%. In 
particular, Minnesota has targeted 20% ethanol in gasoline as the goal 
for fuel for the conventional market, and legislators in other states 
have attempted to mandate 30% and 50% ethanol blends.

    At first glance, increasing the ethanol content from 5-10% to 
higher levels in gasoline does not seem like a very radical idea. 
Assuming ethanol availability, proponents argue that it should be easy 
to implement and will help meet several policy goals. The argument goes 
as follows: all current engines and equipment fuel systems that run on 
gasoline already run successfully on E5-E10. Thus, why should there be 
any additional difficulty in increasing the ethanol content in 
gasoline? Further, proponents ask why there should be difficulties if 
others (particularly Brazil) have been able to make the switch to 
greater than E10. Surely all technical issues should have already been 
addressed. These lines of reasoning, however, are overly simplistic. 
They fail to properly consider the interaction of these proposed fuels 
with a large and extensive existing (or legacy) fleet of over 300 
million pieces of equipment and vehicles that have to run successfully 
on the fuel they are given but are designed to run only on gasoline 
containing up to 10% ethanol. They also fail to consider the peculiar 
chemistry and physical properties of ethanol-gasoline mixtures and how 
these can dramatically affect the transportation, storage, combustion, 
and emissions of such fuel mixtures. These technical issues are not 
intuitive. This paper will discuss some of these key technical issues 
that need to be carefully considered before allowing greater than E10 
in the conventional U.S. motor gasoline pool. Finally, it should also 
be noted that many engines and products are built for global 
distribution and fuel mix changes in the U.S. can have impacts on how 
such products have to be designed and distributed in the future.

    2.0 Description and Diversity of Affected Equipment

    A primary focus of this paper is the impact of greater than E10 
fuels on the existing pool of equipment that will need to use this 
fuel. Broadly, this pool consists of on-road equipment--mainly 
automobiles and motorcycles--and off-road equipment--which ranges from 
the smallest hand-held 2-stroke chainsaw to large off-road machinery 
and from lawn-mowers to personal watercraft. Table A contains a list of 
the various types of off-road equipment that are designed for and run 
on conventional gasoline.

    There is a vast amount of diversity in the existing gasoline-using 
vehicle and equipment population that, altogether, can be categorized 
based on the following:

    -Use (e.g., lawn and garden; marine; snowmobiles, transportation, 
etc.)
    -Engine Size (e.g., displacement ranging from less than 20 cc to 
6000 cc)
    -Expected Useful Life (50 hours or less to 10,000 hours)
    -Engine Design
        -Air or water cooled
        -2-Stroke, 4-Stroke, or hybrid (2/4 Stroke)
        -Side-valve or overhead valve
        -Variable valve timing
        Intake air charging--superchargers, turbochargers, etc.

    -Fuel Injection Technology
        -Carbureted--float-type, diaphragm type, single and multi-
        circuit
        -Fuel Injection--multi-port, direct, etc.

    -Control Technologies
        -Open loop
        -Closed loop


    -Fuel Systems
        -Variety of tank and hose materials
        -Various evaporative control strategies for permeation and tank 
        venting
        -Various design considerations such as for multi-positional use

    -Emission Control Systems
        -Engine modifications
        -Three-way catalysts and oxidation catalysts (2-stroke engines)
        -Exhaust gas sensors and diagnostic systems
        -Feedback systems

    Considering all of the above, from a cost standpoint, on-road and 
off-road equipment can range from a $50 hand held blower all the way to 
a $100,000+ automobile or a piece of construction equipment.

    The existing population of automobiles in the U.S. is estimated at 
close to 200 million units. The existing population of off-road 
equipment is around an additional 100 million. Assuming an average 
resale price of $10,000 for an existing car/truck and an average cost 
of $500 for existing off-road equipment, the nominal asset value that 
is represented by existing equipment is over 2 trillion dollars. Should 
this equipment be damaged and need to be replaced, the replacement 
costs would be even greater. The average American family possesses, in 
addition to 2 cars/trucks, several pieces of off-road gasoline-powered 
products ranging from lawn and garden equipment to recreational 
equipment. It is not an exaggeration to note that almost every American 
household has significant on-road and off-road equipment assets.

    3.0 Fuel and Equipment Form a Single System

    Another point that should be made is that the on-road and off-road 
equipment are designed from the very outset with a particular fuel or 
fuel range in mind. The performance or driveability, \2\ durability, 
and emissions can only be assessed when the combined fuel and equipment 
is considered to be a single, combined, system. Equipment is rarely 
designed (or can rarely be economically designed in these very 
competitive markets) to anticipate a wide range of fuel properties. 
Fuel specifications, therefore, are very important, both to the 
manufacturer of the equipment and to the user.
---------------------------------------------------------------------------
    \2\  Based on years of research, good driveability is generally 
considered to include the following: quick starting, stall-free engine 
warm up, smooth idle, hesitation-free response to throttle, surge-free 
operation during cruise, and freedom from vapor lock. Driveability is 
rated at idle, during acceleration, and under cruise or normal 
operating conditions as the car/equipment engine is driven through a 
prescribed cycle.

---------------------------------------------------------------------------
    4.0 Ethanol and Ethanol-Gasoline Mixture Properties

    Ethanol has been used in the U.S. as a gasoline fuel additive since 
the late 1970s when it was used as a fuel extender due to gasoline 
shortages after the oil embargo as well as an octane enhancer since it 
improved the anti-knock performance of gasoline. In the early 1990s, 
the federal government began to require 2% oxygen by mass in the 
gasoline used in certain parts of the country to reduce smog. In this 
decade, when many state governments prohibited the use of the 
predominant oxygenate, MTBE, \3\ ethanol then became the oxygenate of 
choice. Several states also have required ethanol use in winter 
(``gasohol'') as a way to reduce carbon monoxide emissions.
---------------------------------------------------------------------------
    \3\  States started banning MTBE (methyl tertiary butyl ether) 
after leaking underground fuel storage tanks caused it to be found in 
groundwater.

    Some (but not all) of the changes in fuel properties due to the 
---------------------------------------------------------------------------
addition of ethanol to gasoline include:

        -Change in octane number
        -Change in fuel volatility (as measured through several 
        properties, including vapor pressure, vapor-liquid ratio, and 
        the temperature-distillation curve)
        -Change in the energy density
        -Change due to the oxygen content
        -Effect on water solubility and phase separation

    These property changes can affect performance, emissions, or both. 
Ethanol also may affect the fuel's compatibility with various 
materials, which means it can affect the product's durability.

    4.1 Change in Octane Number

    In general, addition of ethanol up to a certain amount improves 
gasoline's octane number due to its excellent anti-knock properties. 
Engines specifically designed to use high octane fuels, such as high 
performance engines, may use higher compression ratios or increase 
charge air compression to increase power output.

    4.2 Change in Fuel Volatility

    A fuel's ability to vaporize is referred to as its volatility. It 
is represented by several measurements, including vapor pressure, 
vapor-liquid ratio and the amount vaporized at different temperatures 
(distillation). The vapor pressure of the fuel, which is very important 
from both an emissions and performance standpoint, may be the property 
most familiar to the public. Typically, refiners optimize and maintain 
vapor pressure in a given range for performance, business, and 
regulatory purposes. If the vapor pressure of the fuel is too low, that 
may cause problems in starting engines in cold temperatures; if it is 
too high, it may cause vapor lock at high temperatures. In either case, 
the driver or operator will experience performance problems. \4\ High 
vapor pressure and the presence of ethanol also increases evaporative/
diffusional emissions (and fuel loss) as well as higher permeation 
losses. \5\
---------------------------------------------------------------------------
    \4\  Issues associated with driveability and operational problems 
have been discussed for on-road vehicles and for off-road equipment in 
a series of reports in 2002-2004 by Orbital Engine Company for a 
biofuels assessment conducted in Australia. In particular, see (a) A 
Testing Based Assessment to Determine Impacts of a 10% and 20% Ethanol 
Gasoline Fuel Blend on Non-Automotive Engines, January 2003; (b) Marine 
Outboard Driveability Assessment to Determine Impacts of a 10% and 20% 
Ethanol Gasoline Fuel Blend on a Small Batch of Engines, February 2003 
and (c) A Testing Based Assessment to Determine Impacts of a 20% 
Ethanol Gasoline Fuel Blend on the Australian Passenger Vehicle Fleet--
2000hrs Material Compatibility Testing, May 2003.
    \5\  Permeation is a process that is not yet fully understood; 
other factors besides vapor pressure also likely play a role in 
permeation rates.

    The vapor pressure of ethanol is lower than that of gasoline. 
However, the addition of ethanol to gasoline, especially at lower 
concentrations, can actually increase the vapor pressure of the mixture 
to greater than that of gasoline. It depends on the amount of ethanol 
added and the composition of the base gasoline. \6\ For blends using a 
base gasoline with a vapor pressure of 9 psi, the vapor pressure 
increase reaches a maximum around E5, and then slowly starts to come 
down with further increase in ethanol concentration. \7\
---------------------------------------------------------------------------
    \6\  Gasoline is a mixture of several different molecules, and its 
composition can vary widely.
    \7\  American Petroleum Institute (API), Alcohol and Ethers: A 
Technical Assessment of Their Application as Fuels and Fuel Components. 
API Publication 4261, Third Edition. June 2001.

    So, what is the effect of ethanol/gasoline blends on engine 
performance? Gasoline does not ignite as a liquid, only as a vapor. 
There must be sufficient fuel vapor present inside the combustion 
chamber to initiate and sustain combustion, i.e., to get the engine to 
start. This vaporization is governed by the fuel's overall volatility, 
measured by its distillation curve. Within a certain temperature range 
(that varies with each blend), ethanol decreases the temperature at 
which the fuel vaporizes, which, theoretically, should help combustion. 
However, ethanol blends also require more heat to vaporize than 
gasoline, which means that less vapor than predicted by the 
distillation curve is actually present inside the cylinder. For 
example, E10 requires over 15% more heat to vaporize than gasoline. 
Thus not only the distillation percentage versus temperature, but the 
heat input required to achieve the temperature are important to 
understand how fuel differences will interact with the engine design 
and the operating conditions. Current fuels are formulated to address 
this phenomenon. These fuel formulations allow the fuel blend to 
provide the desired amount of fuel vapor at the temperatures and air 
pressures typically found in engines to provide the expected starting 
---------------------------------------------------------------------------
and hot engine operation characteristics.

    Other concerns about low temperature fuel characteristics of blends 
include a) increased viscosity of ethanol/gasoline blends which may 
impede fuel flow and b) phase separation in the vehicle fuel system due 
to reduced water solubility.

    The primary fuel-related concern that occurs at elevated ambient 
temperatures is vapor lock. Vapor lock is a condition where the fuel in 
the engine's fuel delivery system vaporizes preventing the required 
volume of fuel to be delivered. Increasing the ethanol concentration 
beyond E10 is likely to increase the likelihood of vapor lock for open 
loop fuel control system engines typically used on older vehicles and 
most off-road engines. Even in the closed loop engine systems used in 
some off-road engines and in most late-model vehicles, there remains 
the likelihood of vapor lock.

    4.3 Change Due to the Enleanment Effect of Ethanol

    Gasoline is a mixture of many hydrocarbon compounds that consist 
mainly of hydrogen and carbon. \8\ Ethanol also contains hydrogen and 
carbon--but, in addition, it also contains oxygen. The exact air-to-
fuel ratio needed for complete combustion of the fuel (to carbon 
dioxide and water vapor) is called the ``stoichiometric air-to-fuel 
ratio.'' This ratio is about 14.7 to 1.0 (on weight basis) for 
gasoline. For ethanol/gasoline blends less air is required for complete 
combustion because oxygen is contained in the ethanol and because some 
of the hydrocarbons have been displaced. For example, for E10 the 
stoichiometric air-to-fuel ratio is 14.0 to 14.1 pounds of air per 
pound of fuel. To deliver the required power for any given operating 
condition engines consume enough air and fuel to generate the energy 
required, to the limit of the engine's capabilities. Because fuel 
delivery systems are designed to deliver the prescribed amount of fuel 
on a volume control basis the fuel volume delivered is related to the 
volume of air introduced. The engine design anticipates that the fuel 
utilized will match the air-to-fuel ratio characteristics utilized in 
the engine design and calibration. Because ethanol blended fuels 
require more fuel for the same amount of air to achieve stoichiometric 
conditions, the fuel system must adapt by introducing more fuel or the 
desired mixture is not achieved. The effect of this type of fuel change 
on an engine is called ``enleanment.''
---------------------------------------------------------------------------
    \8\  Sulfur, nitrogen, and trace elements also may be present.

    The effect of enleanment depends on engine design and how fuel is 
metered into the engine. Since the early 1980s, most automobile engines 
in the U.S. have used some form of ``closed loop'' fuel system that 
continuously monitors and adjusts the amount of fuel delivered to the 
engine to maintain the stoichiometric air-to-fuel ratio. These vehicles 
have adjustment ranges that can accommodate oxygenated fuels and, when 
operating in the ``closed loop'' mode, may not experience any adverse 
effects from oxygenated fuels once they have reached operating 
temperature. Even these vehicles, however, during cold start and at 
full throttle, can operate in an ``open loop'' mode that provides a 
rich fuel mixture that is necessary for these conditions and to allow 
the control system to achieve operating temperatures. In the rich 
mixture, ``open loop'' mode, vehicles can experience enleanment effects 
from the oxygenated fuel. While most on-road engines have closed-loop 
systems, most off-road engines do not. Thus, they have no way to 
compensate for this enleanment condition. Lean operation can have 
several negative attributes including higher combustion temperatures. 
Even with closed-loop systems, if the fuel contains an amount of 
ethanol that is outside the system design, the engine similarly may 
receive too much oxygen and experience performance problems. Additional 
Orbital test reports \9\ discuss the performance issues associated with 
on-road vehicles and off-road equipment using E20 fuels.
---------------------------------------------------------------------------
    \9\  Orbital Engine Company Reports: (a) A Literature Review Based 
Assessment on the Impacts of a 20% Ethanol Gasoline Fuel Blend on the 
Australian Vehicle Fleet, November 2002; (b) Market Barriers to the 
Uptake of Biofuels Study Testing Gasoline Containing 20% Ethanol (E20) 
Phase 2B Final Report, 2004.

---------------------------------------------------------------------------
    4.4 Effect on Water Solubility and Phase Separation

    Separation of a single phase gasoline into a ``gasoline phase'' and 
a ``water phase'' can occur when too much water is introduced into the 
fuel tank. Water contamination is most commonly caused by improper fuel 
storage practices at the fuel distribution or retail level, or the 
accidental introduction of water during vehicle refueling. Water has a 
higher density than gasoline, so if water separates, it will form a 
layer below the gasoline. Because most engines obtain their fuel from, 
or near, the bottom of the fuel tank, engines will not run if the fuel 
pick up is in the water phase layer.

    Typically, gasoline can absorb only very small amounts of water 
before phase separation occurs. Ethanol/gasoline blends, due to 
ethanol's greater affinity with water, can absorb significantly more 
water without phase separation occurring than gasoline. Ethanol blends 
can actually dry out tanks by absorbing the water and allowing it to be 
drawn harmlessly into the engine with the gasoline. If, however, too 
much water is introduced into an ethanol blend, the water and most of 
the ethanol will separate from the gasoline and the remaining ethanol. 
The amount of water that can be absorbed by ethanol/gasoline blends, 
without phase separation, varies from 0.3 to 0.5 volume percent, 
depending on temperature, aromatics, and ethanol content. If phase 
separation were to occur, the ethanol/water mixture would be drawn into 
the engine and the engine would most likely stop.

    In some situations, ethanol/gasoline blends might absorb water 
vapor from the atmosphere, leading to phase separation. Such problems 
are of greater concern for engines with open-vented fuel tanks that are 
operated in humid environments, such as marine engines.

    Additionally, more complex phenomena such as lubricating oil/fuel 
separation (in 2-stroke engines) and temperature-induced phase 
separation of various fuel components have also been noted.

    4.5 Effect on Material Compatibility

    A variety of components in engine/equipment systems can come into 
contact with the fuel. These include
        -Fuel Lines
        -Fuel Tanks
        -Fuel Pumps
        -Fuel Injectors
        -Fuel Rails
        -Carburetors (and internal components)
        -Pressure Regulators
        -Valves
        -0-Rings
        -Gaskets

    Materials used in these components should be compatible with the 
full range of expected fuel composition. Table B shows the types of 
metals, rubbers, and plastics that are used in existing engines and 
fuel system components currently designed to run on E10 fuel blends. 
This is not an exhaustive list and is meant as an illustration of the 
diversity of materials used presently. The compatibility of all of 
these materials with greater than E10 fuel blends is currently unknown; 
little testing has been done because higher level blends are illegal 
for use in conventional products and vehicles, so there has been no 
reason to test. However, some test data is available from testing on 
E20 fuels by others. \10\ Based on these studies, it is clear that 
several rubbers and elastomers can swell and deteriorate more rapidly 
in the presence of ethanol. Other materials, such as fluoroelastomers 
may be able to handle a range of ethanol blends. Ethanol also corrodes 
certain metals. Corrosion occurs through different mechanisms including 
acidic attack, galvanic activity, and chemical interaction. The first 
is caused by water in the fuel. Ethanol attracts and dissolves water, 
creating a slightly acidic solution. Unlike gasoline, ethanol alone or 
combined with water conducts electricity; this conductivity creates a 
galvanic cell that causes exposed metals to corrode. Another mechanism 
is direct chemical interaction with ethanol molecules on certain 
metals.
---------------------------------------------------------------------------
    \10\  A Testing Based Assessment to Determine Impacts of a 20% 
Ethanol Gasoline Fuel Blend on the Australian Passenger Vehicle Fleet--
2000hrs Material Compatibility Testing, May 2003 and A Testing Based 
Assessment to Determine Impacts of a 10% and 20% Ethanol Gasoline Fuel 
Blend on Non-Automotive Engines -2000hrs Material Compatibility 
Testing, May 2003.

    Clearly, deterioration of materials would result in loss of 
function of critical engine components, resulting in fuel leaks, fires 
from fuel leaks, and equipment failure. This has obvious safety 
---------------------------------------------------------------------------
implications.

    As noted earlier, permeation of fuel through elastomers can result 
in deterioration of these materials. In recent testing, all of the 
tested ethanol blends showed higher permeation rates through elastomers 
than conventional gasoline. \11\
---------------------------------------------------------------------------
    \11\  (a) See EPA-420-D-06-004, Draft Regulatory Impact Analysis: 
Control of Hazardous Air Pollutants from Mobile Sources, Chapter 7, 
February 2006. (b) See also, Fuel Permeation from Automotive Systems: 
E0, E6, E10, E20, and E85, Final Report, CRC Project No. E-65-3, 
December 2006.

---------------------------------------------------------------------------
    5.0 Effect on Emissions

    Various studies have been conducted on assessing the effect of E5-
E10 on engine exhaust emissions of NOx, hydrocarbons, CO, and other air 
toxics. Based on these, it is generally true that emissions of CO are 
reduced in the presence of ethanol due to the presence of the oxygen 
atom in the fuel. Exhaust emissions of hydrocarbons may increase or 
decrease, depending on such factors as engine or product design and the 
overall fuel properties. However, NOx emissions from conventional 
products and vehicles generally increase since enleanment creates 
conditions which increase NOx. \12\ The degree of increase of NOx, 
however, is a complex function of engine design and other operating 
conditions. For sophisticated closed-loop operation, NOx emission 
increases can be small, but for less sophisticated open-loop engines, 
NOx emission increases can be dramatic. While many of the toxics show 
expected decreases in the presence of ethanol, some toxics, such as 
aldehydes, can show increases. Besides the potential toxic effects of 
aldehydes in exhaust gases, the aldehydes act as an ozone precursor and 
increase the smog-forming potential. Again, the presence of post-
combustion emissions controls such as three-way catalysts (in 
automobiles) can mitigate aldehyde emissions increases to a certain 
extent. Although there are some off-road equipment and vehicles 
utilizing catalytic converters today, the majority of off-road engines 
are not equipped with catalysts.
---------------------------------------------------------------------------
    \12\  Enleanment creates an increase in oxygen and nitrogen in the 
combustion zone.

    The emissions effects of increased ethanol in gasoline are 
generally not linear with the amount of oxygen in the fuel. Hence, the 
effects of increasing the ethanol content beyond E10 on exhaust and 
---------------------------------------------------------------------------
evaporative emissions on current engines are not fully known.

    Table C presents an overview of these effects and how they can 
influence emissions, performance, and durability, mainly for 
automobiles; but, in some instances, the effect of increased ethanol on 
less sophisticated off-road engines is also noted.

    6.0 Ethanol-Compatible Design

    Scientists and engineers have learned how to make automobile and 
off-road engines and fuel systems compatible with ethanol-gasoline 
blends. For current off-road engines, the maximum amount of ethanol 
than can be tolerated in current designs is E10. There is very little 
ability in such engines to adapt to higher ethanol levels given their 
open-loop, factory tuned, carbureted designs. For certain automobiles, 
however, higher levels including E85 can be used. As noted earlier, 
experiences from other countries, such as Brazil, in this regard can be 
relevant. It is instructive to review the types of changes that have 
been made in certain automobiles to handle greater than E10 fuels. 
Table D shows the types of changes that have been made in Brazilian 
vehicles in order to accommodate higher ethanol blends. The reader can 
then understand the complexity of (a) implementing such changes across 
the broad spectrum of all on-road and off-road engines; and (b) the 
near impossibility of implementing such changes in the existing on-road 
and off-road equipment fleet.

    For automobiles designed to handle greater than E10, the changes 
involve the use of innovative and ethanol-compatible technologies, 
material changes, and adjustments in calibration. Initially, a vehicle 
intended for higher ethanol use was designed specifically for a 
particular ethanol level, such as E85. Today, new technology has 
enabled the introduction of ``flexible-fueled vehicles'' (FFVs), which 
can burn fuel with any amount of ethanol up to E85. In all cases, one 
cannot adapt or retrofit existing products because too many parts and 
design steps are involved and the product may have size constraints. 
Necessary modifications must occur during design and production to 
ensure compliance with strict emission standards and to meet consumer 
expectations for safety, durability, performance, and cost.

    6.1 E0-E10

    The amount and type of modifications needed increase as the ethanol 
concentration in the gasoline fuel increases. At levels below about 5-
6% ethanol by volume, product changes generally are not needed because 
the ethanol concentration is too low to cause significant impacts. Fuel 
blends with about 5-10% ethanol by volume, however, begin to require 
product important changes to maintain performance, durability, and/or 
emissions capabilities. For example, manufacturers can increase the 
corrosion resistance of some parts, such as carburetors and fuel pumps, 
and recalibrate the engine and emission control systems, among other 
possible changes.

    E10 adaptations also include changing the overall fuel formula. As 
with any fuel, proper blending and formulation are required for best 
performance, durability, and emissions. ASTM International has 
developed voluntary industry standards for gasoline and E10 to help 
marketers produce fuel with acceptable formulations.

    6.2 E10-E85

    It should be noted at the outset that ASTM has a standard for E85 
which covers formulations ranging from E70 to E85. \13\ However, there 
are no standards for mid-level blends between E10-E70. Without 
standards, these formulations are being made on an ad-hoc basis by 
users, as needed typically by splash blending denatured ethanol with 
some type of base gasoline. Therefore, there is no comparability 
between properties of these mid-level blends made by various users.
---------------------------------------------------------------------------
    \13\  ASTM D5798-99, Standard Specification for Fuel Ethanol for 
Automotive Spark-Ignition Engines.

    To ensure materials compatibility at higher ethanol levels for use 
with flexible fuel vehicles (FFVs) manufacturers use corrosion 
resistant materials in any part that may contact fuel. For example, 
Brazilian auto manufacturers, who have considerable experience 
producing ethanol-compatible vehicles, recommend using electronic fuel 
injectors made with stainless steel, larger holes, and modified designs 
to improve fuel spray. Similarly, manufacturers of carbureted engines--
for example, almost all small engine products such as chain saws and 
lawn mowers, as well as older and antique vehicles--recommend, among 
other steps, coating or anodizing aluminum carburetors or substituting 
---------------------------------------------------------------------------
a different metal not susceptible to attack.

    Boats have similar compatibility concerns. Many, for example, use 
aluminum fuel tanks that are susceptible to corrosion. While 
sacrificial zinc anodes often are added later to the external parts of 
these tanks, they are not feasible for the tank's interior. \14\ Older 
yachts with fiberglass tanks have a different problem. Ethanol can 
chemically attack some of the resins used to make these tanks causing 
them to dissolve. In doing so, the ethanol causes leaks, heavy black 
deposits on marine engine intake valves, and deformation of push rods, 
pistons, and valves. \15\
---------------------------------------------------------------------------
    \14\  NMMA Ethanol Position Paper, no date, available at 
www.nmma.org/government/environmental/?catid=573.
    \15\  Ibid.

    Conventional vehicles and products do not have these material 
adaptations for higher level ethanol use. One device particularly 
difficult to address after-the-fact is the fuel tank level sensor. 
These sensors, which are placed inside the fuel tank, directly expose 
wiring to the fuel. Depending on how much ethanol these devices contact 
and for how long, galvanic corrosion would be expected to dissolve the 
---------------------------------------------------------------------------
wires and eventually cause device failure.

    Corrosion inhibitors have been developed to try to delay or prevent 
corrosion of steel components in the ethanol distribution system, but 
these additives cannot be relied on to protect engines and vehicles. 
Furthermore, a soon to be released report by the American Petroleum 
Institute (API) implies corrosion inhibitors may increase stress 
corrosion in steel.

    Manufacturers make additional design changes to address emissions 
and performance needs. \16\ In this context, it is important to 
remember that U.S. emission standards are more stringent than those in 
Brazil. For U.S. vehicles, manufacturers select oxygen sensors and 
onboard diagnostic (OBD) systems specifically to cover the expected 
range of oxygen in the exhaust gas. If the fuel ethanol pushes the 
exhaust oxygen content outside the range of the oxygen sensor, the 
vehicle's OBD system won't work properly and may erroneously illuminate 
or fail to illuminate the dashboard warning light. In addition, 
manufacturers must calibrate vehicle and product systems to the 
expected fuel to ensure the proper air-fuel ratio for both emissions 
and performance purposes. In the U.S., off-road engines are also 
regulated for emissions regardless of their size or equipment that they 
power. Generally, the off-road engines do not utilize oxygen sensors 
and computer controls to adjust fuel delivery by a closed loop system. 
In many products, emission compliance has dictated air-to-fuel ratio 
controls that are a delicate balance between being too rich and, 
therefore, out of compliance, or too lean, resulting in performance or 
durability problems.
---------------------------------------------------------------------------
    \16\  ``Fuel Specifications in Latin America: Is Harmonization a 
Reality?'' Henry Joseph Jr., ANFAVEA (Brazilian Vehicle Manufacturers 
Association), presented at the Hart World Fuels Conference, Rio de 
Janeiro, 21-23 June 2004.

    The long term durability of emission control systems is a critical 
issue, with current U.S. federal and California emission standards 
requiring vehicles to comply for up to 150,000 miles and off-road 
engines to comply for full useful life periods. If the control system 
of the vehicle was not designed to accommodate the leaning effect of 
ethanol, the vehicle's catalyst protection routine will be disabled. 
This will lead to the type of catalyst damage seen in an Australian 
study using vehicles that were also sold in the U.S. \17\ For off-
highway engines, or older vehicles without closed loop systems, the 
enleanment influence can result in higher exhaust gas temperatures. 
This can cause thermal degradation of the catalyst over time, either 
through sintering of the precious metal wash-coat or damage to the 
substrate and can also degrade critical engine components such as 
pistons and exhaust valves.
---------------------------------------------------------------------------
    \17\  See references to Orbital Engine Company reports referenced 
earlier.
---------------------------------------------------------------------------
    As noted earlier, an important emissions concern that remains 
poorly understood is ethanol's ability to permeate through rubber, 
plastic, and other materials used widely in the fuel tank, fuel system 
hoses, seals, and other parts of the fuel handling system. Recent 
studies have shown these emissions can be quite significant. \18\ 
Automobile vehicle manufacturers (but not off-road engine 
manufacturers) are now using fewer permeable components in newer 
vehicles, so the emissions increase is more significant for older 
vehicles and off-highway products. Regulators expect permeation 
emissions will decrease over time as the on-highway fleet turns over to 
the newer products, but existing data are based on the use of E0-E10. 
Permeation rates for higher ethanol blends are largely unknown.
---------------------------------------------------------------------------
    \18\  See, e.g.:, the CRC E-65-3 Project Report referenced earlier 
as well as the EPA document referenced earlier which also discusses 
testing conducted by the California Air Resources Board.

---------------------------------------------------------------------------
    7.0 Conclusions

    There are significant known and unknown technical issues associated 
with changing the U.S. conventional motor gasoline pool to accommodate 
higher than E10 blends. While some of these may be surmountable with 
additional research and the resultant use of new materials and engine/
equipment designs, these can only be implemented in new equipment and 
with proper lead time. Important data gaps aside, with present 
knowledge, it is likely that there will be adverse, large-scale impacts 
if higher than E10 is required as motor gasoline for the existing fleet 
of on-road and off-road equipment, particularly the latter. Minimizing 
these likely adverse impacts on existing equipment and vehicles would 
require significant and expensive adaptation and mitigation measures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Biography for Dr. Ron Sahu, Technical Consultant, Outdoor Power 
                          Equipment Institute

EXPERIENCE SUMMARY

    Dr. Sahu has over twenty one years of experience in the fields of 
environmental, mechanical, and chemical engineering including: program 
and project management services; design and specification of pollution 
control equipment; soils and groundwater remediation; combustion 
engineering evaluations; energy studies; multimedia environmental 
regulatory compliance (involving statutes and regulations such as the 
Federal CAA and its Amendments, Clean Water Act, TSCA, RCRA, CERCLA, 
SARA, OSHA, NEPA as well as various related state statutes); 
transportation air quality impact analysis; multimedia compliance 
audits; multimedia permitting (including air quality NSR/PSD 
permitting, Title V permitting, NPDES permitting for industrial and 
storm water discharges, RCRA permitting, etc.), multimedia/multi-
pathway human health risk assessments for toxics; air dispersion 
modeling; and regulatory strategy development and support including 
negotiation of consent agreements and orders.
    He has over nineteen years of project management experience and has 
successfully managed and executed numerous projects in this time 
period. This includes basic and applied research projects, design 
projects, regulatory compliance projects, permitting projects, energy 
studies, risk assessment projects, and projects involving the 
communication of environmental data and information to the public. 
Notably, he has successfully managed a complex soils and groundwater 
remediation project with a value of over $140 million involving soils 
characterization, development and implementation of the remediation 
strategy, regulatory and public interactions and other challenges.
    He has provided consulting services to numerous private sector, 
public sector and public interest group clients. His major clients over 
the past seventeen years include various steel mills, petroleum 
refineries, cement companies, aerospace companies, power generation 
facilities, lawn and garden equipment manufacturers, spa manufacturers, 
chemical distribution facilities, and various entities in the public 
sector including EPA, the US Dept. of Justice, California DTSC, various 
municipalities, etc.). Dr. Sahu has performed projects in over 44 
states, numerous local jurisdictions and internationally.
    Dr. Sahu's experience includes various projects in relation to 
industrial waste water as well as storm water pollution compliance 
include obtaining appropriate permits (such as point source NPDES 
permits) as well development of plans, assessment of remediation 
technologies, development of monitoring reports, and regulatory 
interactions.
    In addition to consulting, Dr. Sahu has taught and continues to 
teach numerous courses in several Southern California universities 
including UCLA (air pollution), UC Riverside (air pollution, process 
hazard analysis), and Loyola Marymount University (air pollution, risk 
assessment, hazardous waste management) for the past seventeen years. 
In this time period he has also taught at Caltech, his alma mater and 
at USC (air pollution) and Cal State Fullerton (transportation and air 
quality).
    Dr. Sahu has and continues to provide expert witness services in a 
number of environmental areas discussed above in both state and Federal 
courts as well as before administrative bodies.

EXPERIENCE RECORD

    2000-present Independent Consultant. Providing a variety of private 
sector (industrial companies, land development companies, law firms, 
etc.) public sector (such as the US Department of Justice) and public 
interest group clients with project management, air quality consulting, 
waste remediation and management consulting, as well as regulatory and 
engineering support consulting services.
    1995-2000 Parsons ES, Associate, Senior Project Manager and 
Department Manager for Air Quality/Geosciences/Hazardous Waste Groups, 
Pasadena. Responsible for the management of a group of approximately 24 
air quality and environmental professionals, 15 geoscience, and 10 
hazardous waste professionals providing full-service consulting, 
project management, regulatory compliance and A/E design assistance in 
all areas.
    Parsons ES, Manager for Air Source Testing Services. Responsible 
for the management of 8 individuals in the area of air source testing 
and air regulatory permitting projects located in Bakersfield, 
California.
    1992-1995 Engineering-Science, Inc. Principal Engineer and Senior 
Project Manager in the air quality department. Responsibilities 
included multimedia regulatory compliance and permitting (including 
hazardous and nuclear materials), air pollution engineering (emissions 
from stationary and mobile sources, control of criteria and air toxics, 
dispersion modeling, risk assessment, visibility analysis, odor 
analysis), supervisory functions and project management.
    1990-1992 Engineering-Science, Inc. Principal Engineer and Project 
Manager in the air quality department. Responsibilities included 
permitting, tracking regulatory issues, technical analysis, and 
supervisory functions on numerous air, water, and hazardous waste 
projects. Responsibilities also include client and agency interfacing, 
project cost and schedule control, and reporting to internal and 
external upper management regarding project status.
    1989-1990 Kinetics Technology International, Corp. Development 
Engineer. Involved in thermal engineering R&D and project work related 
to low-NOx ceramic radiant burners, fired heater NOx reduction, SCR 
design, and fired heater retrofitting.
    1988-1989 Heat Transfer Research, Inc. Research Engineer. Involved 
in the design of fired heaters, heat exchangers, air coolers, and other 
non-fired equipment. Also did research in the area of heat exchanger 
tube vibrations.

EDUCATION

    1984-1988 Ph.D., Mechanical Engineering, California Institute of 
Technology (Caltech), Pasadena, CA.
    1984 M. S., Mechanical Engineering, Caltech, Pasadena, CA.
    1978-1983 B. Tech (Honors), Mechanical Engineering, Indian 
Institute of Technology (IIT) Kharagpur, India.

TEACHING EXPERIENCE

    Caltech
    ``Thermodynamics,'' Teaching Assistant, California Institute of 
Technology, 1983, 1987.
    ``Air Pollution Control,'' Teaching Assistant, California Institute 
of Technology, 1985.
    ``Caltech Secondary and High School Saturday Program,''--taught 
various mathematics (algebra through calculus) and science (physics and 
chemistry) courses to high school students, 1983-1989.
    ``Heat Transfer,''--taught this course in the Fall and Winter terms 
of 1994-1995 in the Division of Engineering and Applied Science.
    ``Thermodynamics and Heat Transfer,'' Fall and Winter Terms of 
1996-1997.

    U.C. Riverside, Extension
    ``Toxic and Hazardous Air Contaminants,'' University of California 
Extension Program, Riverside, California. Various years since 1992.
    ``Prevention and Management of Accidental Air Emissions,'' 
University of California Extension Program, Riverside, California. 
Various years since 1992.
    ``Air Pollution Control Systems and Strategies,'' University of 
California Extension Program, Riverside, California, Summer 1992-93, 
Summer 1993-1994.
    ``Air Pollution Calculations,'' University of California Extension 
Program, Riverside, California, Fall 1993-94, Winter 1993-94, Fall 
1994-95.
    ``Process Safety Management,'' University of California Extension 
Program, Riverside, California. Various years since 1992-2010.
    ``Process Safety Management,'' University of California Extension 
Program, Riverside, California, at SCAQMD, Spring 1993-94.
    ``Advanced Hazard Analysis--A Special Course for LEPCs,'' 
University of California Extension Program, Riverside, California, 
taught at San Diego, California, Spring 1993-1994.
    ``Advanced Hazardous Waste Management'' University of California 
Extension Program, Riverside, California. 2005.

    Loyola Marymount University
    ``Fundamentals of Air Pollution--Regulations, Controls and 
Engineering,'' Loyola Marymount University, Dept. of Civil Engineering. 
Various years since 1993.
    ``Air Pollution Control,'' Loyola Marymount University, Dept. of 
Civil Engineering, Fall 1994.
    ``Environmental Risk Assessment,'' Loyola Marymount University, 
Dept. of Civil Engineering. Various years since 1998.
    ``Hazardous Waste Remediation'' Loyola Marymount University, Dept. 
of Civil Engineering. Various years since 2006.

    University of Southern California
    ``Air Pollution Controls,'' University of Southern California, 
Dept. of Civil Engineering, Fall 1993, Fall 1994.
    ``Air Pollution Fundamentals,'' University of Southern California, 
Dept. of Civil Engineering, Winter 1994.

    University of California, Los Angeles
    ``Air Pollution Fundamentals,'' University of California, Los 
Angeles, Dept. of Civil and Environmental Engineering, Spring 1994, 
Spring 1999, Spring 2000, Spring 2003, Spring 2006, Spring 2007, Spring 
2008, Spring 2009.

    International Programs
    ``Environmental Planning and Management,'' 5 week program for 
visiting Chinese delegation, 1994.
    ``Environmental Planning and Management,'' 1 day program for 
visiting Russian delegation, 1995.
    ``Air Pollution Planning and Management,'' IEP, UCR, Spring 1996.
    ``Environmental Issues and Air Pollution,'' IEP, UCR, October 1996.

PROFESSIONAL AFFILIATIONS AND HONORS

    President of India Gold Medal, IIT Kharagpur, India, 1983.
    Member of the Alternatives Assessment Committee of the Grand Canyon 
Visibility Transport Commission, established by the Clean Air Act 
Amendments of 1990, 1992-present.
    American Society of Mechanical Engineers: Los Angeles Section 
Executive Committee, Heat Transfer Division, and Fuels and Combustion 
Technology Division, 1987-present.
    Air and Waste Management Association, West Coast Section, 1989-
present.

PROFESSIONAL CERTIFICATIONS

    EIT, California (# XE088305), 1993.
    REA I, California (#07438), 2000.
    Certified Permitting Professional, South Coast AQMD (#C8320), since 
1993.
    QEP, Institute of Professional Environmental Practice, since 2000.
    CEM, State of Nevada (#EM-1699). Expiration 10/07/2011.

PUBLICATIONS (PARTIAL LIST)

    ``Physical Properties and Oxidation Rates of Chars from Bituminous 
Coals,'' with Y.A. Levendis, R.C. Flagan and G.R. Gavalas, Fuel, 67, 
275-283 (1988).
    ``Char Combustion: Measurement and Analysis of Particle Temperature 
Histories,'' with R.C. Flagan, G.R. Gavalas and P.S. Northrop, Comb. 
Sci. Tech. 60, 215-230 (1988).
    ``On the Combustion of Bituminous Coal Chars,'' PhD Thesis, 
California Institute of Technology (1988).
    ``Optical Pyrometry: A Powerful Tool for Coal Combustion 
Diagnostics,'' J. Coal Quality, 8, 17-22 (1989).
    ``Post-Ignition Transients in the Combustion of Single Char 
Particles,'' with Y.A. Levendis, R.C.Flagan and G.R. Gavalas, Fuel, 68, 
849-855 (1989).
    ``A Model for Single Particle Combustion of Bituminous Coal Char.'' 
Proc. ASME National Heat Transfer Conference, Philadelphia, HTD-Vol. 
106, 505-513 (1989).
    ``Discrete Simulation of Cenospheric Coal-Char Combustion,'' with 
R.C. Flagan and G.R. Gavalas, Combust. Flame, 77, 337-346 (1989).
    ``Particle Measurements in Coal Combustion,'' with R.C. Flagan, in 
``Combustion Measurements'' (ed. N. Chigier), Hemisphere Publishing 
Corp. (1991).
    ``Cross Linking in Pore Structures and Its Effect on Reactivity,'' 
with G.R. Gavalas in preparation.
    ``Natural Frequencies and Mode Shapes of Straight Tubes,'' 
Proprietary Report for Heat Transfer Research Institute, Alhambra, CA 
(1990).
    ``Optimal Tube Layouts for Kamui SL-Series Exchangers,'' with K. 
Ishihara, Proprietary Report for Kamui Company Limited, Tokyo, Japan 
(1990).
    ``HTRI Process Heater Conceptual Design,'' Proprietary Report for 
Heat Transfer Research Institute, Alhambra, CA (1990).
    ``Asymptotic Theory of Transonic Wind Tunnel Wall Interference,'' 
with N.D. Malmuth and others, Arnold Engineering Development Center, 
Air Force Systems Command, USAF (1990).
    ``Gas Radiation in a Fired Heater Convection Section,'' Proprietary 
Report for Heat Transfer Research Institute, College Station, TX 
(1990).
    ``Heat Transfer and Pressure Drop in NTIW Heat Exchangers,'' 
Proprietary Report for Heat Transfer Research Institute, College 
Station, TX (1991).
    ``NOx Control and Thermal Design,'' Thermal Engineering Tech 
Briefs, (1994).
    ``From Puchase of Landmark Environmental Insurance to Remediation: 
Case Study in Henderson, Nevada,'' with Robin E. Bain and Jill Quillin, 
presented at the AQMA Annual Meeting, Florida, 2001.
    ``The Jones Act Contribution to Global Warming, Acid Rain and Toxic 
Air Contaminants,'' with Charles W. Botsford, presented at the AQMA 
Annual Meeting, Florida, 2001.

    PRESENTATIONS (PARTIAL LIST)
    ``Pore Structure and Combustion Kinetics--Interpretation of Single 
Particle Temperature-Time Histories,'' with P.S. Northrop, R.C. Flagan 
and G.R. Gavalas, presented at the AIChE Annual Meeting, New York 
(1987).
    ``Measurement of Temperature-Time Histories of Burning Single Coal 
Char Particles,'' with R.C. Flagan, presented at the American Flame 
Research Committee Fall International Symposium, Pittsburgh, (1988).
    ``Physical Characterization of a Cenospheric Coal Char Burned at 
High Temperatures,'' with R.C. Flagan and G.R. Gavalas, presented at 
the Fall Meeting of the Western States Section of the Combustion 
Institute, Laguna Beach, California (1988).
    ``Control of Nitrogen Oxide Emissions in Gas Fired Heaters--The 
Retrofit Experience,'' with G. P. Croce and R. Patel, presented at the 
International Conference on Environmental Control of Combustion 
Processes (Jointly sponsored by the American Flame Research Committee 
and the Japan Flame Research Committee), Honolulu, Hawaii (1991).
    ``Air Toxics--Past, Present and the Future,'' presented at the 
Joint AIChE/AAEE Breakfast Meeting at the AIChE 1991 Annual Meeting, 
Los Angeles, California, November 17-22 (1991).
    ``Air Toxics Emissions and Risk Impacts from Automobiles Using 
Reformulated Gasolines,'' presented at the Third Annual Current Issues 
in Air Toxics Conference, Sacramento, California, November 9-10 (1992).
    ``Air Toxics from Mobile Sources,'' presented at the Environmental 
Health Sciences (ESE) Seminar Series, UCLA, Los Angeles, California, 
November 12, (1992).
    ``Kilns, Ovens, and Dryers--Present and Future,'' presented at the 
Gas Company Air Quality Permit Assistance Seminar, Industry Hills 
Sheraton, California, November 20, (1992).
    ``The Design and Implementation of Vehicle Scrapping Programs,'' 
presented at the 86th Annual Meeting of the Air and Waste Management 
Association, Denver, Colorado, June 12, 1993.
    ``Air Quality Planning and Control in Beijing, China,'' presented 
at the 87th Annual Meeting of the Air and Waste Management Association, 
Cincinnati, Ohio, June 19-24, 1994.

    Chairman Harris. Thank you very much, Dr. Sahu. And I will 
recognize myself for five minutes for questions. I want to 
again thank you very much, the whole panel, for your patience 
in letting us get a little late start because of the voting.
    Let me just ask a question. Mr. Greco, did you mention 
valve and valve seats in your testimony and the possible affect 
on that?
    Mr. Greco. That is correct. That is one of the criteria we 
are looking at when we see engine durability. We have five 
different----
    Chairman Harris. So we don't really know whether E15 would 
adversely affect the wear of valve and valve seats? And there 
is a specific reason I am asking. I mean, I have replaced valve 
and valve seats. I mean, if your valve seat fails prematurely, 
you lack compression, you will get whatever you are putting in 
that cylinder into the ambient air. I mean, it is not an 
emission control system specifically defined as such in a car 
manufacturer's manual, but it certainly functions as that 
because it seals off the combustion chamber from the ambient 
environment. Is that correct?
    Mr. Greco. That is correct, yes. The engine now has to 
handle that increased leakage as a result, potentially of 
ethanol.
    Chairman Harris. Right.
    Mr. Greco. And we have seen some failures. Again, it is 
preliminary information, but that does seem to be one of the 
impacts that we see on some engines.
    Chairman Harris. So if the EPA only studied, or the DOE in 
their study didn't take into account premature valve wear, they 
could come up with a conclusion, well, it doesn't affect any of 
the emission systems but it in fact could have an adverse 
effect on emissions from that car.
    Mr. Greco. That is correct.
    Chairman Harris. That is what I thought.
    Mr. Greco. You would have to take a very narrow definition.
    Chairman Harris. Okay. Ms. Oge, let me ask you a question. 
Did the EPA take into consideration the effect on emissions 
take into account that in fact, from what Vice-Chairman 
Sensenbrenner's letters from the auto companies would indicate, 
that the use of E15 in a car might invalidate the warranty on 
emission systems in the car?
    Ms. Oge. Sir, what I want to let you know is that--can I 
answer something?
    Chairman Harris. No, I only have five minutes.
    Ms. Oge. Okay.
    Chairman Harris. Okay, you have got to stay on my question.
    Ms. Oge. Yes, we did, and that is----
    Chairman Harris. You did?
    Ms. Oge. Yes, we did.
    Chairman Harris. So is it possible that use of E15 will 
invalidate the warranty on emissions control systems?
    Ms. Oge. No, it is not. As long as E15 is used for 2001 and 
later in your vehicles, we strongly believe, and the record was 
in front of the Administrator that assigned the waivers shows, 
that 2001 and later vehicles will not be undermined.
    Chairman Harris. You misunderstand my question. If I buy a 
car and its vehicle emissions system for some reason doesn't 
work right in four years, because they have to be warranted for 
five years is my understanding.
    Ms. Oge. Yes.
    Chairman Harris. So at four years, it stops working, I take 
it to the dealer and they say, oops. You have used E15. We are 
not going to repair this under warranty. If I live in a place 
where they don't test my vehicle emissions or they don't test 
me, I just go out and say, well, if you are not paying for it, 
I will just drive my car around with the emissions system not 
working. I mean, invalidating a warranty has an effect on 
emissions because these systems may not get repaired under 
warranty. If they don't get repaired under warranty, it may not 
get repaired at all.
    Ms. Oge. So the warranty----
    Chairman Harris. Did the EPA take that possibility that the 
warranties may be invalidated?
    Ms. Oge. Again, the decision that we made, if the consumer 
uses E15 for 2001 and later vehicles, that warranty will not be 
impacted. So for your example----
    Chairman Harris. Ms. Oge, how can it not be impacted when 
the----
    Ms. Oge. Let me answer. Let me answer.
    Chairman Harris. Well, again, I only have two minutes. You 
can't filibuster me on this. When we have letters from 
companies saying, specifically from Honda saying our manual 
says if you use E10 and below, you are warranted. If you use 
E15, it will compromise the vehicle's warranty.
    Ms. Oge. Sir, we talked to Honda. We talked to all the 
companies. We have seen the letters that came back from the car 
companies. There are not any facts or any hard data to 
demonstrate--and we have had discussions with the car 
companies: Please give us one test data that suggests that if 
you use E15 for 2001 in your vehicles, that will have an impact 
on the 100,000 durability of the emissions control systems. 
There is not a single----
    Chairman Harris. It doesn't make a difference whether it 
affects that system. If that system fails, the auto company, 
under contract with an individual, the individual knowingly put 
E15 in there because maybe that was all that was available, the 
company legitimately can say we are not covering that system 
under warranty. You knowingly put a fuel in that your owner's 
manual said you shouldn't be putting in. I understand that you 
say you think it won't adversely affect the system, but the 
auto company doesn't care. If that system fails for another 
reason, a piece of plastic broke in the EGR valve, they are not 
under obligation if you have put the--is that my reading of the 
warranty?
    Ms. Oge. May I answer?
    Chairman Harris. Sure.
    Ms. Oge. No, it is not. The dealer or manufacturer will 
have to demonstrate that indeed it was the fuel that caused the 
impact on the catalytic converters.
    Chairman Harris. I think you give way too much credit for 
what gets refused under an automotive warranty, and anybody 
that has brought a car to a dealer under an automotive warranty 
I think understands what I am talking about.
    Anyway, I will recognize Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Ms. Oge, I understand 
that there are different fuels in use now. Obviously, it is a 
big mistake to put diesel fuel in your car if you don't have a 
diesel engine. But there are other fuels in widespread use, is 
that correct?
    Ms. Oge. Yes, it is.
    Mr. Miller. Okay. And some are appropriate for some engines 
and not for others?
    Ms. Oge. Yes.
    Mr. Miller. And how much of a problem has EPA discerned 
that there is with misfueling?
    Ms. Oge. That is a very good question actually. In 2006, 
EPA mandated actually that diesel fuel contains low sulfur 
levels, from 500 parts per million to 15 parts per million. So 
we mandated a cleaner diesel fuel because the new diesel truck 
engines introduced in the marketplace could have impacts on 
emissions control systems if higher diesel fuel goes into this 
new marketplace.
    So the agency used similar procedures that we are using 
here for E15, for misfueling labeling, to make sure that there 
is appropriate product transfer, documentation from point A to 
Z.
    So to answer your question, we have had very good 
experience with the clean diesel fuel in 2006, where actually 
the consumer if used the old diesel fuel could have impact, 
severe impact, to their engines, not just in emissions control 
systems, but also to the engine itself.
    Mr. Miller. Okay. I am one of those who voted against 
implementing this rule immediately for the next year, and the 
reason was concern about emissions. And as Ms. White 
acknowledged in her testimony, the Environmental Working Group 
usually supports the work of the EPA, but you all have parted 
company on this issue, and with respect to the effect of E15 on 
emissions of vehicles 2001 and newer, do emissions for those 
vehicles using E15 stay within the EPA minimum emission 
standards?
    Ms. Oge. Yes, it does. Actually, the data shows that 
emissions for nitrogen oxides using E15 will increase. 
Emissions for hydrocarbon, CO and benzene will decrease. But 
also under the 2007 Energy Independence and Safety Act, 
Congress has requested that EPA evaluate these potential 
increases and take steps to reduce those increases. And EPA is 
in the process of doing that with a new program that we are 
developing under the direction of our President to reduce 
emissions for both fuel and cars to address this issue.
    Mr. Miller. And I am sorry, your rules allow you to kind of 
swap off emissions that if formaldehyde goes above levels and 
something else goes below that you can kind of trade it around?
    Ms. Oge. No. Our rules require--the waiver decision is 
based on demonstrating that the vehicles and engines in which 
E15 is going to be allowed to use, this E15 will not cause or 
contribute to the emissions of those vehicles failing. Our 
determination clearly shows that 2001 or newer vehicles will 
continue to meet those standards. However, overall, there will 
be some increases still meeting the standards. There will be 
some increases on nitrogen oxide. There will be decreases on 
hydrocarbon and CO and benzene. Congress has directed us to 
make sure that we net out those increases, but the standards 
will still be met.
    Mr. Miller. Ms. White, do you wish to be heard on this 
point?
    Ms. White. Yes, I think the point really is looking at the 
Department of Energy tests that EPA based at least part of its 
waiver decision on for model years 2001 to 2007. At least 50 
percent of the cars that they tested failed at least one 
emissions standard. And then when we looked at 2007 or newer 
cars, at least 20 percent of the cars tested failed.
    So we are obviously concerned about the emissions. Whether 
or not the balancing test under the EPA regulations pans out, 
the fact that there was a small number of cars sampled and that 
there were high rates in our opinion of failure for really 
serious emissions that we are talking about. We are talking 
about formaldehyde, for example, which is a known carcinogen, 
and there are really serious public health implications here.
    I think one of the questions that we don't know the answer 
to is where are these older model cars? Where are we going to 
see impacts in air pollution?
    Mr. Miller. Of course it would be useful to have the 
Department of Energy here to address this issue. Mr. Chairman, 
it is peculiar that, you know, a hearing about ethanol, we have 
a witness from the petroleum industry but not from the ethanol 
industry. We have, however, received a letter from the 
Renewable Fuels Association which is the trade association for 
the ethanol industry. Without embracing the contents of the 
letter as my own, I would like to enter this into the record of 
the hearing out of simple fairness.
    Chairman Harris. Without objection.
    [The information can be found in Appendix II.]
    Chairman Harris. Now, I do want to ask unanimous consent to 
add four items into the record as well. These items are in the 
public domain and shared with the minority.
    Number one is EPAs partial grant and partial denial of 
Clean Air Act waiver application submitted by Growth Energy to 
increase the allowable ethanol content of gasoline to 15 
percent. In the light of the Renewable Fuel Association 
concern, I note the EPA's decision makes it very clear that the 
Agency did not rely upon the Renewable Fuel Association study. 
EPA said that RFA study simply ``conducted a literature search 
of existing information'' already cited and ``did not perform 
any emissions or durability testing.''
    The second item is the subsequent partial grant of Clean 
Energy Act waiver application submitted by Growth Energy to 
increase the allowable ethanol content of gasoline to 15 
percent. The decision of the Administrator, that is from the 
Federal Register, January 26, 2011.
    Letter dated March 26, 2009, sent from over 40 business, 
environmental, taxpayer, free market and public health groups 
to Administrator Jackson and other Administration officials 
asking that any waiver decision on E15 heed President Obama's 
memorandum on ``scientific integrity.''
    And finally, a joint letter from the American Motorcyclists 
Association and the All-Terrain Vehicle Association dated July 
6, 2011, sent to Ranking Member Miller and me in support of the 
discussion draft language considered at this hearing. Without 
objection, so ordered.
    [The information can be found in Appendix II.]
    Chairman Harris. I want to recognize Dr. Broun.
    Dr. Broun. Thank you, Mr. Chairman. Ms. Oge, why did the 
EPA and the Department of Energy choose to fund the E15 
research to support the waiver petition rather than asking the 
petitioners themselves to pay for the necessary research? It is 
my understanding that previously all other petitioners, the EPA 
has insisted that the petitioner pay. Why did you all use 
taxpayer's dollars to do this research?
    Ms. Oge. Sir, I think this question should go to Department 
of Energy. EPA did not fund the study. We worked with them.
    Dr. Broun. You all didn't have any decision----
    Ms. Oge. No funding.
    Dr. Broun. Okay. In EPA's decision document, for the first 
E15 waiver, EPA dismissed the CRC engine durability test 
program stating that the data provided up to that point in time 
only pertained to E20 blends. This ongoing program has recently 
identified potential engine failures on E15. How will the EPA 
consider this new information with respect to the waiver?
    Ms. Oge. Sir, the DOE program was designed with 
participation----
    Dr. Broun. How will you all consider this, though? Will you 
have failures----
    Ms. Oge. We believe that the Administrator made the 
decision based on the best record, which was the Department of 
Energy's statistically significant developed study and other 
data that EPA has. We have test cars, we have thousands of 
certificates. We are aware of the four studies that CRC is 
doing. Those studies, however, are not designed to answer the 
question in front of the Administrator----
    Dr. Broun. Ma'am, I apologize for cutting you off. I just 
have three minutes left.
    Mr. Greco, do you want to respond to that?
    Mr. Greco. Yeah, a couple things. I think she was about to 
say the DOE program was designed to address these emissions. As 
I mentioned, EPA did not properly use the DOE research program. 
It was designed to test catalyst durability which is one 
particular set of parameters to stress the catalytic converter. 
If you want to stress the engine, you are going to design a 
test program differently. EPA with DOE inappropriately utilized 
a catalyst program to break down the engines and draw 
conclusions about engine durability. We let EPA know at the 
time and DOE that was an inappropriate way to go forward, that 
we had designed a more thorough and more robust program, but 
they decided not to go that route.
    Dr. Broun. So they didn't use good scientific integrity. 
Speaking of scientific integrity, in March 2009, Lisa Jackson 
was sent a letter from a diverse coalition. More than 40 
businesses, environmental, taxpayer, free market and public 
health groups that called on EPA to heed President Obama's 
memorandum on scientific integrity. The key tenet of these 
principles is that agencies should not dismiss scientific 
information associated with public policy decisions.
    If oxygen sensors are found to fail because of E15 
exposure, will EPA rescind its waiver determination?
    Ms. Oge. Sir, we are not here to guess, and I would not 
answer. The only thing I have to tell you is that the series of 
studies that you are referring are not designed appropriately 
the way that the DOE extensive, sound, robust study was 
designed. Therefore, the results, if they show failures, are 
not going to be viewed in the same light as a well-designed 
scientifically robust study, the Department of Energy study.
    Dr. Broun. On June 2008, EPA staff gave a presentation that 
outlined what it would take to grant a waiver for mid-level 
ethanol blends. In that were recommendations that included the 
need of testing of all types of emissions, and the tests should 
be completed on medium-duty vehicles, heavy-duty vehicles, 
motorcycles as well as non-road engines across nine different 
equipment categories from hedge trimmers to snowmobiles. Did 
you all do that?
    Ms. Oge. Sir, there is not any sufficient data. That is why 
the Administrator----
    Dr. Broun. You all didn't----
    Ms. Oge. Excuse me. Let me finish. That is why the 
Administrator is prohibiting the use of E15 for those vehicles. 
Medium- and heavy-duty gasoline----
    Dr. Broun. You all didn't do that.
    Ms. Oge. --vehicles--
    Dr. Broun. My time has about run out. Now obviously, you 
didn't do that. The EPA staff made those recommendations. You 
just neglected even the EPA staff's recommendations on this, 
which is intolerable as far as I am concerned. I am the 
Chairman of the Investigations and Oversight Committee, and we 
particularly have been interested in scientific integrity. You 
all are not doing that. You are not heeding the President's 
recommendations to use scientific integrity, and frankly, when 
I go to a gas station for my boat, for my chain saws, for my 
weed whacker and those types of things, E10 is bad for those 
things and E15 is going to be disastrous for all those things. 
This was a terrible decision that you all made, and I hope that 
you all will go and consider the scientific and use scientific 
integrity because you have not done so in a rush to try to 
produce this wavier.
    Mr. Chairman, my time is up. I will yield back.
    Chairman Harris. Thank you, Doctor. Mr. Tonko?
    Mr. Tonko. Thank you. Before I ask my question, is it 
possible to get a 1-minute response or 30-second response from 
Ms. Oge?
    Chairman Harris. Your clock is running.
    Mr. Tonko. It is. Did you want to respond? I just thought 
you had some response. I was going to give you 30 seconds of my 
time.
    Ms. Oge. The agency is not required by law to do testing to 
make the case for off-road equipment. The agency had sufficient 
information, scientific information, to be concerned about off-
road equipment, to be concerned about medium- and heavy-duty 
gasoline engines and to be concerned about motorcycles. That is 
why the agency is prohibiting the use of E15 in the 
marketplace.
    So we use the right science in a very robust, scientific 
process to make these decisions.
    Mr. Tonko. Thank you. Several of you have mentioned in your 
written testimony that you believe the Federal Government 
should be supporting renewable fuel research. Perhaps 
specifically to Mr. Burke and Ms. White, what kind of research 
would you recommend the Federal Government to fund to overcome 
the blend wall issue? Mr. Burke?
    Mr. Burke. Two main areas. The first, self-evident. 
Research in every technology that will, in coming decades, 
yield every possible liquid fuel from every possible source, 
either land-based or those such as algae, municipal waste and 
whatever.
    Second, more subtle, more challenging but historically 
necessary as to some degree our content today reveals. Fund 
research at the juncture of overlapping sectors and overlapping 
technologies. We have a juncture in liquid transportation fuels 
with not only the existing petroleum industry but with, as we 
have heard today, equipment, resources, other technology. 
Historically and inevitably, new technologies butt up against 
what is already at hand. And to some degree, we are remiss both 
in our success and in our responsibilities if we don't fund 
research at the point of juncture.
    Mr. Tonko. Ms. White, please?
    Ms. White. Yes. Thank you, Representative. We think it is 
really important to invest in drop-in biofuels that do not 
require any--that can use the existing infrastructure, do not 
require special pumps, et cetera.
    We also think it is important to take a lesson from corn 
ethanol. We don't want to repeat the mistakes that we saw where 
there needs to be a precautionary principle with respect to 
advanced biofuels. We would like to see more research into 
swtitchgrass and some miscanthus as well as into algae. But we 
really think that we would need to constantly reassess the 
amount of money we are putting into the advanced biofuels to 
make sure we get where we want to go.
    Mr. Tonko. Thank you. And Mr. Burke, North Carolina and my 
home State of New York have a lot in common as it relates to 
biomass resources. They are both large agricultural states, and 
we both have substantial forest resources.
    Do you have any recommendations for New York on how to 
drive economic development through sustainable feedstock 
production?
    Mr. Burke. Yes, sir. If we in North Carolina and New York 
and beyond will successfully gain our expected new biofuels in 
coming years. The drawdown, the use of our natural resources 
will be extraordinary, unprecedented and greater than we can 
probably even begin to anticipate.
    As such, we must merge technology, economic thinking and 
environmental responsibility to begin to effectively determine 
not just what we can quickly harvest or grow but what equally 
important we can sustainably grow and keep on the ground well 
into the future. It is possible that we will not need to only 
be attentive to sustainability and environmental implications, 
we will very possibly need in coming years to use biotechnology 
to purposefully alter various of our crop and forest resources 
so that they grow under the best conditions, with the best 
outcome, with minimal environmental degradation.
    Mr. Tonko. Thank you very much. Mr. Chair?
    Chairman Harris. Thank you very much. I now recognize the 
Chairman of the Committee, Mr. Hall.
    Chairman Hall. Thank you, Mr. Chairman. Mrs. Oge, I think 
the Chairman started out the questions here. I would like some 
inquiry. Have you relied partial waiver decision under Section 
211(f) of the Clean Air Act in regard to mid-level ethanol 
blends and gasoline? And I think you know that the auto 
industry along with the engine manufacturers and the oil 
industry expressed a lot of concern about EPA's permitting up 
to 15 percent ethanol in gasoline and that it may have a 
negative consequence. I think the Chairman clearly pointed that 
out to you on engine performance, emissions and also create a 
situation where misfueling by consumers might occur. You 
understand that, don't you?
    Ms. Oge. Yes.
    Chairman Hall. Then let me ask you this. It is my 
understanding that EPA is proceeding though with the rule-
making on tier three. I don't think anybody has asked you about 
tier three, have they today?
    Ms. Oge. No.
    Chairman Hall. And you know what I am talking about, don't 
you?
    Ms. Oge. Yes, I do.
    Chairman Hall. This would impact the sulfur content in 
gasoline as well as the reid vapor pressure of gasoline. What 
on earth is the justification for proceeding with the 
rulemaking at this time?
    Ms. Oge. The tier three rules that you are referring to, 
sir, is a regulation that has two drivers. One is the existing 
ozone NAAQS for both ozone and PM, and the second is actually 
the Energy Independence and Security Act that requires EPA to 
evaluate the potential impacts of 36 billion gallons of 
renewable fuel in the marketplace, and if we determine that 
there are increases in emissions from the use of the 36 billion 
gallons to take steps to reduce those increases.
    The agency is in the process of developing such a rule, but 
I am not allowed at this point to give you any details because 
no decisions have been made. We are in the process of talking 
to the car companies, talking to the oil industry and we are in 
the process of developing this regulation.
    Chairman Hall. Well, as you know, Section 209 of the Energy 
Independence and Security Act of 2007 required EPA to complete 
a study 18 months after enactment to determine whether, quote, 
the renewable fuel volumes required by the RFS2 will adversely 
impact air quality before proceeding with any rulemaking. The 
statute even further provides that you might determine 
additional rulemaking is not even necessary. Yet, in September 
of last year, Assistant Administrator for Air and Radiation, 
Regina McCarthy, told Congress EPA was carrying out some of the 
long lead-time work needed to perform the anti-backsliding 
analysis required by Section 209 and noted that EPA would 
incorporate the results of our analysis under the Section 209 
assessment in the proposed long new vehicle and fuel control 
measures.
    So in other words, EPA failed to complete the Section 209 
study by the statutory deadline, did you not?
    Ms. Oge. The studies as Ms. McCarthy said would be part of 
the tier three proposal. Also I may note that when we finalized 
the RFS2 program a couple of years ago, we did put a 
preliminary analysis of the potential impacts of--
    Chairman Hall. Well, did you or did you not--excuse me. Did 
you or did you not fail to complete the Section 209 study by 
the statutory deadline?
    Ms. Oge. We have not completed--
    Chairman Hall. Just tell me yes or no.
    Ms. Oge. Yes, sir.
    Chairman Hall. All right. And as the study is not yet 
completed, when do you expect to complete the Section 209 
study?
    Ms. Oge. At the end of this year.
    Chairman Hall. And do you expect to provide an opportunity 
for comment on the results of the study prior to the 
incorporation of the results into a proposal on new vehicle and 
fuel control measures?
    Ms. Oge. That will be part of the proposal that will go out 
for the purpose of comments.
    Chairman Hall. We will be studying that further, and we 
will study the record that you are making here and that others 
from the EPA have made before this Committee.
    I might caution you to understand that this Subcommittee 
expects a full explanation why this statutory deadline has been 
ignored and why it seems EPA is moving forward with control 
measures prior to completion of even a single study mandated by 
Congress. You know what that means, don't you, when you are 
mandated by Congress? Why can you just disobey that and ignore 
it?
    Ms. Oge. Sir, we have not ignored it. We are late in 
completing the study, and are going to do that by the end of 
the year.
    Chairman Hall. Well, my time is running out, but I think it 
is only fair to let you know that you may be back before us 
again. It seems that there is a pattern of regulating in this 
area before the necessary and appropriate scientific analysis 
and testing is performed and reviewed.
    I think perhaps you are going to hear from Mr. 
Sensenbrenner and from Dr. Broun in the future. I thank you, 
and I yield back my time.
    Ms. Oge. Thank you.
    Chairman Harris. Thank you very much, Mr. Chairman. Mr. 
Bartlett?
    Mr. Bartlett. Thank you. Mr. Burke, I noted your 
observations about we were going to need all of the alternative 
liquid fuels that we could get. I am sure you are aware of the 
IEA reports of '08 and 2010 indicating that for the last five 
years, the world has been stuck at 84 billion barrels of oil a 
day, and their projections for the future are that productions 
from our current fields are going to decrease quite 
dramatically.
    You know, if you are wildly optimistic about all of the 
alternative liquid fuels and add them up, they can't even come 
close to 84 billion barrels a day. So thank you very much for 
your recognition of the challenges that we face there.
    Ms. Oge, I want to make the point that if you were really 
interested in the environment, you would certainly not have 
given a waiver for E15. You would have recommended that we not 
even have E10 because I don't think there is any justification 
from an environmental perspective for having E10.
    You are familiar I am sure with the National Academy of 
Science report that said that at the year of their report, if 
we had taken all of their corn and converted it into ethanol 
that it would have displaced just 2.4 percent of our gasoline. 
They noted I think quite correctly that we could have saved as 
much gasoline by tuning up our car and putting air in the tires 
as we would have saved by converting all of our corn to corn 
ethanol. You are familiar with that study?
    Ms. Oge. Yes, I am.
    Mr. Bartlett. Okay. You are also familiar with the studies 
that have indicated that the energy that goes into producing 
ethanol may be very close to the energy that we get out of 
ethanol? When you look at all of the inputs for instance about 
half the energy used to produce corn comes from natural gas in 
which nitrogen fertilizer is made. So there may be little or no 
increased energy available as a result of using ethanol which 
means that there may be no diminution in the CO<INF>2</INF> 
footprint. You are familiar with those studies?
    Ms. Oge. I am familiar with the studies that we have done 
as part of the RFS and the ones that Congress requires to do 
for our own life-cycle analysis.
    Mr. Bartlett. Yeah, there have been studies which have 
indicated that there is really, it may actually be negative. It 
may take more energy to produce it than not. But even if it is 
mildly positive, what happened when we produced all that corn 
for ethanol, we planted where we shouldn't have planted. We 
took fields out of reserve and we put them in cultivation. 
There has been increased erosion.
    Today for every bushel of corn that we grow in Iowa, three 
bushes of topsoil go down the Mississippi River. So even with 
our really good cultural practice, really good compared with 
yesteryear, it is still not sustainable. You can't have three 
bushels of corn go down the Mississippi River, three bushels of 
topsoil for every bushel of corn.
    The next thing that happened was that we diverted acres 
from wheat to corn. Corn is a huge hog when it comes to using 
energy, is it not? And so now there was less wheat available, 
and we had a drought in the place where they produce rice, so 
less rice was available.
    So there was an increase in the basic foods for everybody 
in the world, part of that laid at our doorstep because of this 
silly corn ethanol program.
    If you were really interested in the environment, why 
wouldn't you recommend that we do away with E10?
    Ms. Oge. Sir, I worked for EPA for 32 years. I am a public 
servant. I am not a political appointee, and I pride myself 
that every day I wake up I make a difference. I don't make the 
laws. Congress does. We have a law in 2007----
    Mr. Bartlett. But when we say something dumb----
    Ms. Oge. No, excuse me.
    Mr. Bartlett. --don't you feel some obligation to tell us 
we are doing something dumb----
    Ms. Oge. No----
    Mr. Bartlett. --and our support of ethanol is something 
dumb.
    Ms. Oge. The Congress passed a law, the President signed 
it. We are implementing the law. As public servants that is all 
we can do, and we have to use the best science and legal 
justification for the decision we are making. And again, I feel 
pretty strong that the Administrator made the best scientific 
basis for this waiver decision. But I will not comment about 
policies on ethanol.
    Mr. Bartlett. But I thought that you were there to protect 
the environment----
    Ms. Oge. And I am----
    Mr. Bartlett. I don't think the use of corn ethanol 
protects the environment. Would you argue me that it does 
protect the environment?
    Ms. Oge. Sir, I am at EPA to implement the laws that 
Congress passes. Congress passed a law in 2007, and we are 
implementing it as Congress has required based on the best 
science and legal criteria available to us.
    Mr. Bartlett. So you are doing as little harm as possible 
to implement the laws that we shouldn't have passed. Is that 
what you are saying?
    Ms. Oge. I am not going to comment on that.
    Mr. Bartlett. Thank you. I yield back, Mr. Chairman.
    Chairman Harris. Thank you very much, Dr. Bartlett. Mr. 
Sensenbrenner, the Vice-Chairman?
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. To 
begin with, I would like to submit for the record a letter 
which I sent to Administrator Jackson dated yesterday with all 
of the letters that I have received from both large-engine and 
small-engine manufacturers.
    Chairman Harris. Without objection.
    [The information can be found in Appendix II.]
    Mr. Sensenbrenner. Now, Ms. Oge, I think we have seen 
pretty adequate testimony that E15 will reduce fuel efficiency 
while at the same time Congress has mandated an increase in 
fuel efficiency. Isn't the EPA kind of working across purposes 
by having E15 at the same time there has been a Congressional 
mandate? Remember, I have only five minutes, too.
    Ms. Oge. You are right. Let us also----
    Mr. Sensenbrenner. Okay. I am right. Fine. Thank you.
    Ms. Oge. No, I didn't say that.
    Mr. Sensenbrenner. Okay. Now----
    Ms. Oge. Can I clarify it?
    Mr. Sensenbrenner. Now, let us go on. Okay. We heard from 
both Ms. White and the letters that I have received that E15 
will void the warranty. Most car engines will wreck practically 
all of the smaller engines. And yet at the same time, there is 
no mandate from the EPA that gas stations continue to provide 
E10. Now, if you have a small engine for Dr. Broun's boat or 
Dr. Harris' lawnmower or Mr. Palazzo's snowmobile in 
Mississippi, where are they going to find the fuel that doesn't 
wreck their engines if there is not a mandate that E10 be 
available?
    Ms. Oge. Sir, we are not mandating E15 to be used. Any E15 
right now cannot be used until we register the fuel, so it is 
not a legal fuel. And there are many steps that need to take 
place at the state, local and Federal Government for E15 to be 
marketed.
    When it does get marketed, we will be more than willing to 
take a look and see what happens to E10 because we agree with 
you that E10 is needed for off-road equipment and older 
equipment.
    Mr. Sensenbrenner. Well, you know, that is nice, but you 
know, I started driving around when the leaded fuel ban came, 
and there was more than a sticker on the gas pump. They 
actually made the fuel import or the fuel ducts narrower so 
that with the leaded fuel, you had a wide nozzle and an 
unleaded fuel you had a narrow nozzle. And still, according to 
the statistics, 20 percent of the vehicles were misfueled.
    Now, how are you going to be able to do that without having 
gas stations to go to the extent of having separate pumps for 
E15 and E10 and some kind of a barrier to prevent the E15 from 
being put into engines that can only run on E10?
    Ms. Oge. Sir, unleaded fuel as you will remember was 
mandated----
    Mr. Sensenbrenner. No, let us----
    Ms. Oge. No, excuse me.
    Mr. Sensenbrenner. Yeah, well, let us look--I gave the 
example, you know, of the different size gas nozzles between 
leaded fuel and unleaded fuel when that mandate came. Now, if 
you have E10 and E15 at the same gas station, are you going to 
have to have separate pumps for that which is an expense of the 
gas station or are you going to have some kind of blockage so 
that E15 is not put into an engine that will only run on E10?
    Ms. Oge. May I answer?
    Mr. Sensenbrenner. Yes.
    Ms. Oge. We are not mandating E15 to be used. We mandated 
unleaded fuel because new vehicles introduced into the 
marketplace with catalytic converters, they would destroy 
those.
    Mr. Sensenbrenner. I understand that, but now we are 
talking about a fuel that can destroy a small engine and an 
engine in the car that has been manufactured since 2001. And I 
used the example of the mid-'70s where 20 percent of the cars 
were misfueled even with the barriers that were available. Now, 
you know, you better start thinking this through.
    You know, I remember your visit to Milwaukee 15 years ago 
when the reformulated gas mandate came in, and as a result of 
some of your answers, the riot squad was being assembled in the 
parking lot across the street. And then you promised a hearing 
in Madison which you walked out of because you didn't like what 
the public had to say.
    We are elected officials. We have to listen to what the 
public has to say, and I guess I am warning you that if you 
have a repeat of what happened back 15 years ago over 
reformulated gas, the public is a lot less tolerant and you 
better start looking at what the public thinks. This fuel 
doesn't help the environment, the fuel does have all the 
problems that have been stated, and the EPA ought to wake up 
and recognize that fact, rather than they being off in La La 
Land trying to impose another mandate from on high. And I yield 
back the balance of my time.
    Chairman Harris. Thank you very much, Mr. Vice Chairman. 
You know, you are right. On the Eastern Shore of Maryland, they 
started selling good, old-fashioned gasoline so you can use it 
in your boats without any ethanol. The Chair recognizes Mr. 
Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman, for allowing me to 
sit in on your Subcommittee hearing. I think Congressman 
Sensenbrenner said it best in addressing the question about the 
damage it is going to cause anything E10 or above to chainsaws, 
lawnmowers, boats, snowmobiles, but for the record, I own a 
four-wheeler, not a snowmobile. To me, in this day and age, 
family budgets are tight, Americans are more busier now than 
ever. You know, distractions, hardships, things that just take 
their mind off what is happening, and I think most of these 
hardships, distractions and crises in American lives are 
basically generated by over-regulation and by a lot of the 
actions of the former Congresses.
    So I am definitely concerned about misfueling and things of 
that nature. But I think that was pretty much asked and 
answered, especially with Mr. Sahu, his comment that over 500 
million pieces of equipment could be damaged if they use E10 or 
greater or possibly even E10. A lot of people seem to think 
that has a lot of damage on small engines, and I agree. And up 
to $200 trillion in replacement just for those pieces of 
equipment, and that is just money American people don't have 
right now. And things are tight, and I just don't think we 
should be pushing what it feels like is more of a mandate on 
them.
    But my question for Ms. Oge is centered around the 
infrastructure concerns. My understanding is that the 
Underwriters' Laboratory has not certified any existing fuel 
pumps to handle E15. Additionally, Underwriters' Laboratory, 
along with the National Renewable Energy Laboratory, conducted 
extensive testing on the use of E15 in new and used fuel 
dispensing equipment, like hoses, valves, pump and nozzles. The 
testing was completed in November 2010 and showed that more 
than 50 percent of used equipment, and more than 30 percent of 
new equipment, failed when used with E15. Were these major 
infrastructure concerns considered by the EPA?
    Ms. Oge. Sir, I think I am familiar with the study that you 
are referring to. There was a Department of Energy sponsored 
study. Again, the Clean Air Act under 211(f), the Administrator 
in looking at this waiver, has to determine to what extent a 
new fuel or fuel additive would impact cars or contribute to 
emissions control of that vehicle failing. EPA is not 
responsible for dispenser units. As you know, a lot of state 
and local governments have that responsibility, and as I 
mentioned earlier, before E15 becomes a commercially available 
fuel in the marketplace, first we have to register this fuel. 
To date EPA has not received a full application from the 
renewable fuel producers on behalf of them, so it is not 
registered, therefore it is not legally allowed to enter the 
marketplace.
    The second issue has to do with underground storage tanks. 
EPA just put out a guidance. There are issues of potential 
compatibility of materials, based on the rating of dispensing 
units, plus, there are 30 or 35 states that have ASTM laws that 
require changes from E10 to 15.
    So what I am trying to say is that there are a lot of steps 
that need to be taken that EPA is not responsible for before 
E15 is marketed.
    Mr. Palazzo. Is there some form of timeline before this may 
be registered? I mean, because everybody assumes it is 
barreling down the road, so is this two years, three years. And 
you also mentioned that the states and local governments are 
responsible for the infrastructure. I mean, they are broke, 
too, so how are we going to ask them to pick up the costs or 
who do you expect to pick up the cost at the end of the day?
    Ms. Oge. So the first question about registration, we have 
received some data from the renewable fuel producers. We don't 
have the full records, and we don't have the formal application 
from them so I cannot give you a timeframe.
    As far as dispensing units, retail stations have to meet 
local and state government regulations on compatibility of 
dispensing units, and the same thing for underground storage 
tanks. So it will vary from station to station, from state and 
local government laws.
    Mr. Palazzo. This is just open for everybody. I know 
everybody is focused on Ms. Oge, and hopefully I have a few 
extra seconds and won't get gaveled out.
    Does America have an energy policy? Does anybody want to 
try to tackle that in 15 seconds or less? It is pretty simple. 
One, stop the government policies that drive up the cost of 
energy because our economy and national security is dependent 
upon affordable and available energy. Second is expand domestic 
energy production. That is American energy, so open up the East 
Coast, the West Coast the off-shore, on-shore, Alaska, the Gulf 
of Mexico, and drill. Three things will happen. We will reduce 
our dependence on foreign oil, we will drive down the cost of 
energy and we will create American jobs. And three, promote an 
all-the-above approach, oil, nuclear, coal, natural gas. Heck, 
I am okay with wind, solar and water and anything else you can 
think and biofuels as well as long as it is not subsidized by 
the American taxpayer. Mr. Chairman, thank you.
    Chairman Harris. I thank you very much. Before we adjourn, 
we are going to have one more five minutes for each side, and 
the minority is trying to round up a Member for their five 
minutes, but I am going to recognize myself for five minutes to 
start the truncated second round.
    First of all, I just want to make a comment that there were 
some questions about the appearance of DOE at the hearing. Now, 
we don't think that it is necessary to have DOE because this is 
specifically about EPA making the ruling using that 
information. It is not whether the DOE study was adequate or 
inadequate, it is basically whether it was done scientifically. 
It was whether EPA needed more information in order to make 
this instead of just depending on that study.
    Now, let me ask Mr. Wasil, I got a question for you because 
I do have a marine engine, and I will tell you, there is great 
fear about putting any ethanol at all into those engines. So 
literally, there are places now popping up that sell good, old-
fashioned, 100 percent gasoline to put into which is a little 
pain because, you know, your marinas don't have it. You got to 
get it from a gas station. It is a whole other mess. But 
anyway, I remember back in the '70s when we first talked about 
putting ethanol in, and I would rebuild a carburetor. They 
would say, look, you can't use ethanol in it because it affects 
the gaskets. Is that one of the concerns, the effect of ethanol 
on gaskets in an engine?
    Mr. Wasil. Sure, absolutely that is a good point. Many of 
the components, fuel system components, on the engines 
themselves are susceptible to damage from ethanol.
    Chairman Harris. Okay, and thank you very much because I 
got to keep it short.
    Mr. Wasil. Okay.
    Chairman Harris. Ms. Oge, did the EPA test gaskets? I mean, 
because gaskets, they degrade over time. It could take two 
years, three years for that gasket to fail, and the failure of 
a gasket in a fuel system can be a catastrophic event, not only 
for the environment because it leaks gasoline at that point, 
but obviously it leaks gasoline, I mean, around a hot engine. 
Did the EPA consider how long a period you would have to study 
a gasket in a fuel system or an emissions control system before 
you can say confidently increase in the ethanol concentration 
will not adversely affect that gasket performance?
    Ms. Oge. The DOE study of the 19 models, they tested each 
one of these models, about 88 cars, 120,000 miles. Also, they 
took some of the engines and they broke them up.
    Chairman Harris. But excuse me, they tested over what 
period of time?
    Ms. Oge. One hundred twenty thousand miles----
    Chairman Harris. Over what period of time?
    Ms. Oge. Six months to a year.
    Chairman Harris. Okay. Ms. Oge, you do realize that there 
is a time dependency of the wearing away of a gasket with 
exposure to ethanol?
    Ms. Oge. Sir, there are test procedures. When a company 
certifies a car, there are test procedures that EPA determines 
for the car company to demonstrate that the vehicle would meet 
the environmental standards for its full useful life. So this 
similar test procedures of car companies are using today in 
short periods of time to determine and to demonstrate that 
their cars would last----
    Chairman Harris. But Ms. Oge, they are testing for E10.
    Ms. Oge. Sir----
    Chairman Harris. You are testing for E15. My question is 
simple. Did you all insist on a scientific test that lasted as 
long as the life of a car would last?
    Ms. Oge. Sir, we test at E0 and E15. We had one car that 
failed E0, and three cars--three cars that failed I believe E0 
and two cars that failed E15. The same test protocols that were 
used for E0 for the 120,000 miles that car companies are using 
to demonstrate that the car would last for 120,000 miles----
    Chairman Harris. Okay. I am not worried about the entire 
car.
    Ms. Oge. --for 10 years.
    Chairman Harris. I am worried about----
    Ms. Oge. Sir----
    Chairman Harris. --a gasket failure----
    Ms. Oge. Sir, I am telling you, we use the same test 
procedures that the car company has to use when they certify 
that their gaskets and their emissions control systems would 
last for 120,000, eight years or 120,000 miles. The same test 
procedures were used by the Department of Energy. If you are 
interested to know more details, we would be glad to provide 
that for----
    Chairman Harris. I would be very interested in knowing how 
you tested the gasket because it is my understanding that you 
test catalysts. You tested catalysts performance. I don't 
understand. Does that mean what comes out of a catalytic 
converter at the end?
    Ms. Oge. Actually we tested catalyst performance but also 
there were a number of models that were chosen where the engine 
was broken down for both E0 and E15 and they take a look at, 
you know, what extent there are valves that are affected, 
hoses, the engine is affected. And we found similar impacts of 
E0 to E15 for those engines--
    Chairman Harris. Well, I am shocked----
    Ms. Oge. --and we would be glad----
    Chairman Harris. --at that because I know ethanol does 
things to gaskets that gasoline doesn't.
    Ms. Oge. I would be glad to share that information.
    Chairman Harris. Thank you. I am going to recognize Dr. 
Bartlett for my last 30 seconds.
    Mr. Bartlett. If we have a second round, I will claim my 
own five minutes.
    Chairman Harris. Well, Dr. Bartlett, we decided since there 
are no minority Members and they were trying to round up one, 
that would have five minutes. I will give you 30 seconds, but 
the gavel is not going to be very active. So take advantage of 
it.
    Mr. Bartlett. Thank you very much. I wouldn't want my 
disaffection with ethanol to be extrapolated into believing 
that I am not a supporter of alternative fuels. Mr. Burke, I 
was led to believe from some of your observations that you may 
be one of the exceptions that I refer to when I tell audiences 
that the innocence and ignorance in our country on energy 
matters is astounding, and with a few exceptions, we have truly 
representative government. I think you may be one of those 
exceptions.
    I gather that you are familiar with the IEA.
    Mr. Burke. I think I will thank you for that, Dr. Bartlett.
    Mr. Bartlett. I meant it so, sir.
    Mr. Burke. Thank you, sir.
    Mr. Bartlett. You are familiar with the IEA projections of 
future oil production?
    Mr. Burke. Yes, sir.
    Mr. Bartlett. Okay. Do you believe that we are going to be 
getting 2/3 of all the oil that we pump just about 20 years 
from now from fields from which we are getting nothing now?
    Mr. Burke. I believe that all of our best estimations, 
prognostications and thinking are likely to be confounded in 
coming years by factors barely known to us about fuel usage 
worldwide and gaining usage worldwide.
    In the light of such mercurial unknown changes in the 
future, we in North Carolina have determined that it is simply 
smart policy to grant that we need as much as possible of every 
kind of liquid fuel. We don't disavow petroleum from any 
source. It seems to us that in fuels as in other areas, 
dependency on a monosource is never a good idea. That is why we 
don't like monopolies, that is why we were fearful of a corn 
blight many years ago. Single source, not good.
    So we are simply determining that provident future 
mongering suggests we should have the capability for as many 
kinds of liquid fuels as possible.
    Mr. Bartlett. I don't know how many of you are familiar 
with the corn blight that you talking about. I imagine that is 
the male Texas sterile cytoplasm that were used to sterilize 
the corn in hybrid corns so we wouldn't have to pull the 
tassels off, and it got a blight and we were threatened with 
having no corn the following year. So they went to the islands 
where they could grow two corn crops in a year so we had some 
corn seed at very high prices the next year. When was that, 
sir?
    Mr. Burke. I believe in the mid-'70s.
    Mr. Bartlett. Yeah. Well, that was a wake-up call when you 
get to a monoculture. You see, to produce hybrid corn, you tear 
the male part of it off, and that was a lot of work and 
sometimes you missed it. And when you missed it, that was a bad 
deal because then you didn't have hybrid corn.
    So what they would do is they developed this male Texas 
sterile cytoplasm which made the male Texas things sterile, but 
they got a blight that affected only that. And that is the risk 
that we have in our world of moving to only milk from 
Holsteins, only eggs for lake horn chickens and so forth. You 
go to a monoculture, you run the risk that they may have a 
collapse and you may be in a real catastrophe. And that was 
kind of a wake-up call.
    I appreciate your tolerance, sir. Thank you very much.
    Chairman Harris. Thank you very much, Dr. Bartlett. Always 
learn something from your questioning.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
Subcommittee may have additional questions for the witnesses, 
and we will ask you to respond to those in writing, and the 
record will remain open for two weeks for additional comments 
from Members. And again, I want to thank you for your patience. 
We ran late. The witnesses are excused. The hearing is 
adjourned.
    Mr. Greco. Mr. Chair, can the witnesses also provide 
information? I would like to correct a couple of erroneous 
comments.
    Chairman Harris. Yeah, we will, in response to your 
questions. Thank you.
    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.]


                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Ms. Margo Oge, Director, Office of Transportation and Air 
        Quality,
U.S. Environmental Protection Agency

Questions submitted by Chairman Andy Harris

Q1. You stated that the DOE test data on catalyst durability was posted 
in the docket for parties to review and comment. Is it not true that 
only 5 weeks elapsed from when preliminary test data from the DOE 
Program was made available in raw form to when EPA made its initial 
waiver decision? Why did EPA wait until the day Administrator Jackson 
signed the initial waiver decision (October 13, 2010) before posting 
its technical analysis of the initial DOE Catalyst Durability Program 
to the Public Docket? Why didn't EPA reopen the comment period to allow 
sufficient time for others to truly review and comment on the DOE data?

    A1. Beginning May 21, 2010, five months before the initial waiver 
decision, EPA submitted data from DOE's Catalyst Durability Program to 
the docket as the data became available and was checked for accuracy, 
and the public was allowed to review and comment on the data. In an 
April 20, 2010, letter to the Alliance of Automobile Manufacturers and 
in discussions with other interested parties, EPA explained that it 
would place new data and other information in the docket, continue to 
accept substantive comments on the waiver, and consider those comments 
in making a waiver determination. Over 90% of the data for model year 
(MY) 2007 and newer light-duty motor vehicles was available in the 
docket five weeks prior to the Administrator issuing the partial waiver 
covering those vehicles.
    EPA posted the document, ``Technical Summary of DOE Study on E15 
Impacts On Tier 2 Vehicles and Southwest Research Teardown Report,'' 
\1\ on the day the Administrator signed the initial waiver decision 
consistent with its practice in all previous Clean Air Act section 
211(f)(4) waiver decisions. This technical summary provides further 
elaboration of EPA's first waiver decision as set forth in the Federal 
Register notice of the decision. Providing a more detailed technical 
explanation of the Agency's waiver decision is analogous to the 
regulatory impact analyses and response to comment documents for 
rulemakings, which are also released to the public on the day that the 
final rule is signed.
---------------------------------------------------------------------------
    \1\  ``Technical Summary of DOE Study on E15 Impacts On Tier 2 
Vehicles and Southwest Research Teardown Report,'' October 13, 2010. 
See Docket ID EPA-HQ-2009-0211-14019 at www.regulations.gov.
---------------------------------------------------------------------------
    We noted in the first waiver decision that an additional comment 
period was neither needed nor necessary. \2\ Section 211(f)(4) of the 
Clean Air Act requires that EPA grant or deny an application for a 
waiver after public notice and comment. EPA published notice of receipt 
of the waiver application on April 21, 2009, and provided the public 
with an extended public comment period of 90 days to submit comments on 
the waiver application. EPA received approximately 78,000 comments 
during the public comment period.
---------------------------------------------------------------------------
    \2\  See 75 FR 68094 (November 4, 2010).
---------------------------------------------------------------------------
    As described above, EPA continued to accept comments on the waiver 
application after closure of the formal comment period. Over 300 
individual comments representing a broad range of affected stakeholders 
and the public took the opportunity to submit additional comments in 
light of other comments and information included in the docket. EPA 
also held meetings in which stakeholders shared their comments, 
concerns and additional data regarding the waiver request. Information 
received at these meetings was made available in the public docket. In 
view of the access that had been made available to all of the 
information in the public docket, EPA concluded that there was no need 
for a second public comment period.

Q2. You testified that ``The burden is on the waiver applicant to make 
the demonstration, although EPA considers information submitted by the 
public and other available information in making its waiver 
decisions.'' Please quantify the burden shouldered by Growth Energy in 
demonstrating the case for this waiver versus that borne by the Federal 
Government. Please also quantify the burden shouldered by applicants in 
past waiver requests versus that borne by the Federal Government. How 
do these proportions compare?

    A2. We do not have information about the costs incurred by Growth 
Energy in preparing the E15 waiver application, so we cannot quantify 
the burden shouldered by Growth Energy versus that borne by the Federal 
Government in responding to the waiver application. We note, however, 
that in its waiver application Growth Energy presented a number of 
technical papers that covered vehicle testing of gasoline-ethanol 
blends, along with a discussion of why these papers supported granting 
the waiver. Since DOE was conducting testing that could address issues 
not resolved by the technical data presented by Growth Energy, EPA 
waited to make waiver decisions until DOE testing had been completed 
and assessed.
    While DOE testing provided much of the data on which the partial 
waivers were based, it was not the first time that emissions data 
relevant to a waiver determination were developed by the Federal 
Government or sources other than the waiver applicant. For example, in 
1978 EPA received a waiver application from a small company, Gas Plus, 
Inc., and the Illinois Department of Agriculture for E10. The 
application included a compilation of general papers on alcohol fuels 
and fuel blends. In that case, the Federal Government, two auto 
manufacturers and two refiners conducted some vehicle emissions testing 
on E10. In the context of the waiver application for MMT, a manganese-
based gasoline additive, EPA and auto manufacturers conducted some 
vehicle emissions testing in addition to that sponsored by the waiver 
applicant. As a general matter, waiver applicants develop the bulk of 
vehicle emissions data supporting their application.

Q3. You stated in your testimony that the Agency has yet to receive or 
act on a complete E15 registration application.
    a. Has EPA received any portions of a registration application? Has 
the Agency taken any action to assist applicants or potential 
applicants in ensuring completeness of an E15 registration application?

    A3a. In February of this year, the Renewable Fuels Association 
(RFA) and Growth Energy submitted to EPA for review E15 emissions and 
health effects information for meeting fuel registration requirements. 
EPA is in the process of completing its review. To the extent the 
information is found sufficient, RFA and Growth Energy may make it 
available to fuel manufacturers in submitting fuel registration 
applications for E15. The fuel registration regulations call for fuel 
manufacturers to submit applications that include emissions and health 
effects information as well as other information specific to the 
manufacturer (e.g., estimated sales and additives that will be used in 
the fuel).
    EPA routinely assists fuel registration applicants by answering 
their questions about the various application requirements and how the 
requirements may be met. We provided such guidance to RFA and Growth 
Energy as they prepared E15 emissions and health effects information 
for meeting registration requirements. When we find deficiencies with 
applications, we also routinely provide guidance to applicants on how 
to correct the deficiencies.

    b. According to EPA's website, ``health-effects testing is 
required. before a new product can be registered.'' \3\ In light of 
concerns raised in testimony by Heather White from the Environmental 
Working Group and others, what health-effects testing will EPA require 
prior to registration?

    \3\  http://www.epa.gov/oms/additive.htm.

    A3b. EPA's fuel registration regulations include ``Tier 1'' and 
``Tier 2'' testing requirements to provide information useful in 
identifying potential health and environmental effects of emissions of 
the fuel or fuel additive being registered. For E15, Tier 1 testing 
requires that an engine be run on E15 and the compounds in the exhaust 
be identified and measured. For any compounds not already found in the 
exhaust of E0, a literature search is required for information on the 
potential toxicological, environmental, and other public welfare 
effects of those compounds. Likewise, for evaporative emissions of E15, 
a literature search is required for any compounds not already found in 
the evaporative emissions of E0.
    Tier 2 testing involves animal exposure to emissions of the new 
fuel or fuel additive. The regulations specify standard Tier 2 test 
protocols and also provide for ``Alternative Tier 2'' testing where the 
standard tests would not provide useful information. (For example, 
Alternative Tier 2 testing has been used for most gasoline fuels, 
including E10, because the exhaust emissions of the fuels contain 
carbon monoxide, the effects of which could mask or otherwise 
compromise the collection of meaningful information.) The fuel 
registration regulations further provide that Tier 2 testing need not 
be performed for a new fuel or fuel additive if it is determined that 
previously conducted tests provide information reasonably comparable to 
that which would be provided by appropriate Tier 2 testing of the new 
fuel or additive. In addition, the fuel registration regulations 
authorize EPA to require additional ``Tier 3'' testing as appropriate, 
including testing to address any issues raised by Tier I or Tier 2 test 
results or information available from other sources. Tier 3 testing can 
be required before or after a fuel is registered.
    As noted above, EPA is in the process of completing its review of 
the sufficiency of the emissions and health effects information 
submitted by RFA and Growth Energy.

Q4. In a presentation by your staff \4\ to the Committee staff and in a 
recent report by the Congressional Research Service, \5\ the stated 
waiver criteria established by EPA in determining whether to authorize 
a new fuel includes an evaluation of the immediate and long-term 
impacts of the fuel in four areas: exhaust emissions; evaporative 
emissions; materials compatibility; and drivability or operability.
---------------------------------------------------------------------------
    \4\  ``EPA Waivers,'' Briefing for Staff of Committee on Science, 
Space and Technology, June 23, 2011.
    \5\  Brent Yacobucci, ``Intermediate-Level Blends of Ethanol in 
Gasoline, and the Ethanol`Blend Wall.''' R40445, July 1, 2011, 8.
---------------------------------------------------------------------------
    a. If EPA sets this criteria and found that there was not enough 
clear evidence to grant a single, non-bifurcated waiver, does this 
criteria need to be changed?

    A4a. The four waiver criteria correspond to those ways in which a 
fuel or fuel additive may affect vehicle or engine emissions. They 
inform the kind of testing and analysis that may be needed to determine 
whether a new fuel or fuel additive will cause or contribute to failure 
of emission standards. The criteria are applied to each category of 
vehicle or engine for which a waiver is considered and were so applied 
in the case of E15. We believe the criteria remain appropriate for 
consideration of future fuel waivers.

b. Why did the Agency not require testing of pre-2001 model year 
vehicles? Why were evaporative emissions, drivability/operability, and 
materials compatibility not subjected to a separate testing program to 
satisfy these criteria?

    A4b. As discussed in the first waiver decision, EPA had engineering 
concerns that pre-2001 model year motor vehicles may not be able to 
maintain compliance with emissions standards if operated on E15. No 
testing was conducted by the waiver applicants or any other entity to 
address those concerns, so EPA denied the waiver for those vehicles. 
Under the Clean Air Act, the waiver applicant has the burden of 
demonstrating that the waiver criteria are met through appropriate 
testing and/or engineering analysis. EPA is not required to conduct 
testing in order to supplement the information provided by the waiver 
applicant or public commenters.
    As described in the two E15 partial waiver decisions, available 
test data, information and analyses adequately addressed the 
evaporative emissions, drivability/operability, and materials 
compatibility criteria for E15 for MY2001 and newer light-duty motor 
vehicles. Separate testing to address each criterion by itself is not 
necessary. Test programs, like DOE's, can be conducted to address 
several criteria, and other information and analyses may be sufficient 
to address one or more criteria, depending on the particular issues 
raised by a new fuel or fuel additive. EPA took into account all of the 
information before the Agency in determining that each of the waiver 
criteria were met for E15 use in MY2001 and newer light-duty motor 
vehicles.

Q5. In your testimony you mention that, in making decisions about fuel 
waivers, EPA can look at representative test programs or ``a reasonable 
engineering theory about emissions effects.'' Similarly, in a November 
2009 letter to Growth Energy, Assistant Administrator Gina McCarthy 
said that ``our engineering assessment to date indicates that the 
robust fuel, engine and emissions control systems on newer 
vehicles.will likely be able to accommodate higher ethanol blends, such 
as E15.'' \6\
---------------------------------------------------------------------------
    \6\  http://www.regulations.gov/#!documentDetail;D=EPA-HQ-OAR-2009-
0211-13925.
---------------------------------------------------------------------------
    a. What is ``a reasonable engineering theory'' and what role did 
such a theory play in the E15 waiver decision?

    A5a. EPA has previously described two approaches for demonstrating 
that a new fuel or fuel additive will not cause or contribute to motor 
vehicles failing to meet their applicable emissions standards. One 
approach utilizes reliable statistical sampling and fleet testing 
protocols such as that conducted by DOE for assessing the emissions 
impact of E15 on MY2007 and newer light-duty motor vehicles. An 
alternative approach is to articulate a reasonable engineering theory 
about the likely emissions effects of the new fuel or additive based on 
relevant and well-founded engineering and other scientific principles, 
and to support that assessment with confirmatory testing or other 
information. In other words, if a reasonable theory exists, based on 
good engineering information and judgment, which predicts the emission 
effects of a fuel or fuel additive, an applicant need only conduct a 
sufficient amount of testing or provide other data and analysis 
sufficient to demonstrate the validity of such a theory. In making a 
waiver determination, EPA reviews all of the material in the public 
docket.
    As explained in the waiver decision documents, engineering 
assessments contributed to the bases for granting the partial waivers. 
For example, the partial waiver decision covering MY2001-2006 light-
duty motor vehicles relied in part on an engineering assessment of the 
capacity of the emission-related systems of those vehicles to 
accommodate E15, and that assessment was confirmed by data from the DOE 
test program.

    b. If an ``engineering assessment'' was guiding EPA's beliefs about 
the impacts of E15 before final test results from DOE were available, 
why was this assessment never released for public comment?

    A5b. Since DOE testing of MY2007 and newer light-duty motor 
vehicles entailed reliable statistically significant sampling and fleet 
testing protocols, the results of that testing provided much of the 
basis for granting the partial waiver covering those vehicles. As EPA 
explained in the first waiver decision, those test results, which were 
made available to the public, confirmed EPA's engineering assessment 
that tighter applicable emission standards and test protocols likely 
led manufacturers to design vehicles capable of maintaining emission 
standards compliance on E10 and that those design improvements were 
sufficient to allow compliance on E15.

    c. Please provide the Committee the engineering assessment cited by 
Assistant Administrator McCarthy in November 2009.

    A5c. The engineering assessment referred to in the November 2009 
letter to Growth Energy simply reflected the ongoing consideration of 
EPA engineering staff reviewing Growth Energy's waiver request, 
available test data, and other information. The full assessment and the 
bases for it were described in the final waiver decision document 
addressing MY2007 and newer light-duty motor vehicles.

    Testing Programs

Q6. Did your staff attend meetings held on June 3, 2009, September 16, 
2009, and May 5, 2010 to receive briefings on relevant Coordinating 
Research Council (CRC) research projects to examine the impact of mid-
level ethanol blends on engines?

    A6. Yes.

    a. If so, and in light of EPA and DOE's previous involvement with 
the CRC test programs, why did EPA ignore the issues raised in these 
meetings with respect to emissions concerns and decline to wait for CRC 
to finish? Please answer in light of the fact that EPA had did not 
issue the waiver for nearly a year after the 270-day deadline outlined 
in Section 211(f)(4) of the Clean Air Act.

    A6a. EPA addressed the issues raised in these meetings with respect 
to emissions testing and explained why it was not waiting for the 
completion of several of the CRC mid-level ethanol blends test programs 
before making the E15 waiver decisions. As explained in the first 
waiver decision addressing MY2007 and newer light-duty motor vehicles, 
\7\ the Agency did not wait for the results of the ongoing CRC studies 
because the record was sufficient without the studies, and many of the 
studies were not designed to answer the specific question before EPA 
(i.e., would E15 cause or contribute to failure of emission standards). 
As explained in detail in the waiver decisions, the ongoing CRC 
research projects have significant design issues that undermine the 
utility of these programs for evaluating the E15 waiver, including but 
not limited to the following issues:
---------------------------------------------------------------------------
    \7\  See 75 FR 68094 (November 4, 2010).

    <bullet>  No actual vehicle testing;
    <bullet>  No testing on baseline fuel (E0) to properly ensure that 
observed effects were based on the test fuel and not some other cause;
    <bullet>  Testing on E20 instead of E15;
    <bullet>  Testing using an ``aggressive'' form of ethanol that is 
not allowed under the waiver decisions and applicable fuel regulations; 
and/or
    <bullet>  Selection of vehicle test fleets that are not 
representative of the national fleet.

    b. Will EPA revoke the waiver if the CRC mid-level ethanol blends 
test program identifies that E15 will cause or contribute to a failure 
of an emission control device in any 2001 or newer passenger vehicle?

    A6b. As stated above, EPA does not believe that the ongoing CRC 
mid-level ethanol blends test programs are properly designed to answer 
the specific waiver question before EPA. Also, as outlined in the 
waiver decision documents, the record is sufficient to partially grant 
the E15 waiver request for MY2001 and newer light-duty motor vehicles. 
Therefore, EPA does not anticipate that the CRC test programs will 
yield results that would undermine the partial waiver decisions, 
particularly considering the numerous CRC testing issues discussed 
above.

Q7. During question and answers in the July 7 hearing you stated that 
the DOE catalyst durability study was designed to be ``statistically 
significant.'' Please provide necessary information to demonstrate the 
statistical significance of the study design.

    A7. EPA staff specifically outlined an example of an appropriate 
statistical sampling methodology for use in the design of waiver test 
programs to CRC and DOE at a June 4, 2008 meeting. \8\ The methodology 
informs sample size and selection so that the test fleet adequately 
represents the national fleet for the relevant vehicle category. The 
DOE Catalyst Durability Study for MY2007 and newer light-duty motor 
vehicles generally adhered to the methodology outlined in this 
presentation and is sufficient in both scope and size to be used to 
evaluate criteria for making a waiver request determination. It should 
also be noted that the ongoing CRC mid-level ethanol research programs 
do not adhere to this statistical sampling methodology and generally 
entail smaller and less representative test fleets.
---------------------------------------------------------------------------
    \8\  Simon, Karl. ``Mid Level Ethanol Blend Experimental 
Framework--EPA Staff Recommendations'' presentation to API Technology 
Committee Meeting, Chicago, IL (June 4, 2008). See EPA Docket #EPA-HQ-
OAR-2009-0211- 2559.2 at www.regulations.gov.

Q8. A June 2011 General Accountability Office report, \9\ which was 
reviewed by EPA officials, outlined the status of DOE and EPA-sponsored 
ethanol blend research in the table below:
---------------------------------------------------------------------------
    \9\  Government Accountability Office, ``BIOFUELS: Challenges to 
the Transportation, Sale, and Use of Intermediate Ethanol Blends,'' 
June 2011, http://www.gao.gov/new.items/d11513.pdf.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    a. Please explain why, in making partial waiver decisions in 
October 2010 and January 2011, EPA's decision relied heavily on a DOE 
test program that GAO characterized as still ``ongoing'' on March 1, 
2011. Why did EPA not wait for a completed, publically-available, 
interpretive report on these tests that is expected in the summer of 
---------------------------------------------------------------------------
2011?

    A8a. Based on information from DOE, we did not anticipate that any 
additional data relevant to making waiver decisions would be provided 
in DOE's final report of its test program. In addition, EPA made the 
test data and relevant test design information available to the public 
prior to the waiver decision.

    b. Please explain which of these completed and expected studies 
were included in EPA's evaluation of the E15 waiver, and a description 
of the relative weight afforded to each individual test program.

    A8b. Please see attached table. It should also be noted that EPA 
considered a number of other studies in addition to those listed in the 
GAO table.

    c. Will EPA re-examine the waiver decision when DOE issues reports 
on its detailed exhaust emissions study, full-life emissions study, 
drivability study, and fuel-system materials compatibility study? If 
not, why would EPA ignore these test programs that directly address 
EPA's stated waiver criteria?

    A8c. For reasons described above and in the partial waiver 
decisions, we do not anticipate that the final reports on these test 
programs will provide new data or information that usefully addresses 
the specific questions before EPA in evaluating the emissions impact of 
E15. The information before the Agency at the time it granted the 
partial waivers provides sufficient support for the waivers.

Q9. EPA evaluated engine ``teardown'' inspections of a subset of the 
vehicles tested in the DOE Catalyst Durability test program and 
concluded that there ``were no apparent differences at the end-of-life 
between the motor vehicles that were operated on E15 and E0'' and 
``there was no pattern that would suggest greater deterioration on 
E15.'' The DOE program included driving cycles and procedures designed 
specifically to age and observe fuel effects on the exhaust emission 
control systems, not the durability of the engine. Please explain why 
you believe that it is relevant and valid to extrapolate these 
operating conditions and procedures as the bases for drawing 
conclusions concerning the effects of E15 on powertrain system 
durability and materials compatibility.

    A9. The DOE Catalyst Durability test program aged vehicles using 
the whole vehicle aging procedures defined in the emission durability 
regulations (40 CFR 86.1823-08). The vehicles were driven on chassis 
dynamometers or actual road surfaces for the full 120,000 mile useful 
life according to the standard road cycle. The severity of this cycle 
was designed to be greater than 90 percent of the distribution of 
emissions deterioration by selecting speeds and accelerations to be 
higher than the ninetieth-percentile driver. Since this is a whole 
vehicle mileage accumulation process, the entire vehicle, including the 
engine, fuel system, exhaust, and emissions components, were all 
exposed to E15 for the full mileage accumulation period.

    Fuel Economy

Q10. On March 11, 2011, before the House Subcommittees of Energy and 
Power and the Environment and the Economy, in reference to the House 
vote on H.R. 910, EPA Administrator Lisa P. Jackson stated: ``I cannot, 
for the life of me, understand why you [Members of Congress] would vote 
to massively increase America's oil dependence.''Please provide the 
basis, for the Administrator's statement by quantifying how many more 
barrels of oil America will import because of H.R. 910. Please take 
into account when answering that under H.R. 910, the Administration 
retains full authority to regulate economy under CAFE, and EPA retains 
authority to regulate vehicle air conditioner refrigerants under the 
Clean Air Act. Please include your precise methodology.

    A10. As described in the 2012-2016 Joint Final Rule, under a 
harmonized \10\ national program for greenhouse gases and fuel economy 
the Clean Air Act allows for significant additional fuel savings and 
greenhouse gas reductions beyond what is achievable under CAFE:
---------------------------------------------------------------------------
    \10\  EPA and NHTSA discussed their respective statutory 
authorities in detail in this rulemaking. See 74 FR 49454, 49460-467 
(September 28, 2009). Under their respective authorities, both agencies 
consider the same or similar factors in setting standards, factors 
relating to the cost and effectiveness of control technology, lead 
time, the economic and other impacts of the program on the 
manufacturers, the need of the country for emissions reductions and 
conservation of energy, and the impact of other governmental standards. 
Each agency has significant discretion in weighing and balancing these 
factors in determining the appropriate standards under their respective 
authorities. The two agencies harmonized the joint rulemaking by 
adopting CAFE and GHG standards that reflect these statutory 
similarities and differences, and by establishing a common set of 
technical assumptions and analyses, for example on the cost to comply 
with the joint rule. For example, the air conditioning credits allowed 
under EPA's 2012-2016 GHG program provide an additional flexibility for 
automakers to achieve the standards.
---------------------------------------------------------------------------
    <bullet>  EPA's Model Year 2016 standards are estimated to be 
equivalent to 35.5 mpg (if all the GHG reductions are from CO2 and not 
air conditioner refrigerants), while DOT estimated the 2016 CAFE 
standards would achieve a level of 32.7 mpg. The harmonized standards 
for Model Year 2012-2016 cars and light trucks will cause the oil 
consumption of the affected vehicles to be 1.85 billion barrels less 
than it otherwise would be. Of these significant oil reductions, one 
quarter, or 455 million barrels of oil (if all the GHG reductions are 
from CO2 and not air conditioner refrigerants), are unique to the EPA 
standards.
    <bullet>  The EPA GHG provisions also provide an additional 326 mmt 
CO2e reductions over the reductions that would be achieved from the 
affected vehicles if only CAFE standards were in place. This accounts 
for about one-third of the overall reductions of 962 mmtCO2e [75 FR 
25490].
    For the MY2017-25 standards, we also expect benefits for the EPA 
program in addition to the NHTSA program due largely to CAA 
flexibilities and the allowance under CAFE for manufacturers to pay 
penalties in lieu of achieving the full fuel economy standard. These 
additional benefits are not associated with EPA's authority under Title 
6 of the CAA to regulate refrigerants. Rather, a portion of the 
benefits result from providing the automobile manufacturers the option 
of achieving part of the GHG reductions through the control of 
refrigerant emissions under Title 2 of the CAA. The precise estimate of 
those additional benefits will be included in the rulemaking proposal 
in the fall of 2011.
    In addition, EPA's medium and heavy-duty truck GHG standards, 
finalized jointly with DOT's fuel economy standards on August 9, 2011 
will achieve 22.1 billion gallons of fuel reductions over the lifetime 
of the heavy-duty vehicles built in 2014 through 2018 model years. 
DOT's program saves approximately 14.5 billion gallons. Therefore, the 
additional oil savings due to EPA's program is approximately 7.6 
billion gallons of fuel, along with additional GHG savings of 
approximately 95 million metric tons of CO2. These additional benefits 
are largely a result of EPA standards taking effect in 2014. Given the 
four-year lead time requirement in the Energy Independence and Security 
Act, the fuel economy standards are not in force until 2016.

Q11. At that same March 11 hearing, Administrator Jackson stated: ``The 
bill [H.R. 910] that passed the Committee would actually increase the 
amount of money that Americans have to pay for gasoline, diesel.'' 
Since the Administration touts that the next CAFE rule for MYs 2017-25 
could save up to 1.3 billion barrels of fuel/ and under H.R. 910, the 
Obama Administration retains full authority to regulate fuel economy 
under CAFE, and EPA retains authority to regulate vehicle air 
conditioner refrigerants under the Clean Air Act, how it is possible 
that H.R. 910 will ``increase the amount of money that Americans have 
to pay for gasoline, diesel''? Please include your precise methodology.

    A11. The added fuel economy and greenhouse gas benefits of EPA 
action under the CAA as described in the response to number 10, above, 
would be lost. The net fuel cost savings over the life of the vehicle 
for the MY2012-2016 standards was $3,000. Had the standards only 
reached the ``achieved level'' of 32.7 mpg under CAFE, a significant 
portion of those savings would be lost. Again, a detailed analysis of 
the MY2017-2025 benefits will be included in the proposal, targeted in 
the fall of 2011.

Q12. Administrator Jackson stated that separate California fuel economy 
standards would create a ``patchwork of state standards.'' \11\ 
However, EPA refuses to consider the economic or environmental harm of 
the ``patchwork'' because arguments against the patchwork ``are outside 
the scope of our section 209(b)(1) waiver criteria.'' \12\
---------------------------------------------------------------------------
    \11\  Administrator Lisa P. Jackson, Remarks at the National Press 
Club, as prepared (March 8, 2010).
    \12\  74 Fed. Reg. 34754 (July 8, 2009).
---------------------------------------------------------------------------
    a. What is the Administration's position on the ``patchwork''?

    A12a. The Administration does not have a position on this, but is 
aware of concerns on the part of the auto industry. As discussed below, 
the Administration has been successfully pursuing an approach to 
vehicle GHG and fuel economy standards that avoids a state patchwork.

    b. Is EPA voluntarily powerless to stop California regulators from 
implementing its ``patchwork''?

    A12b. The section of the Clean Air Act that allows other states to 
adopt California's standards (section 177) is separate from the 
provision governing waivers for California's standards (section 
209(b)). EPA's evaluation of California waiver requests is limited to 
the criteria listed in section 209(b) of the Act, and those criteria do 
not include other states' adoption of California's standards.
    The current national greenhouse gas (GHG) emission and fuel economy 
program for MY2012-2016 light-duty vehicles is an example of and 
template for avoiding any patchwork of state GHG standards. Based on 
the MY2012-06 program, California has allowed automakers showing 
compliance with EPA's GHG standards to be deemed in compliance with 
California's GHG requirements. This has resulted in a truly national 
program for addressing vehicle GHG emissions and fuel economy.
    EPA and NHTSA recently issued a Supplemental Notice of Intent (SOI) 
outlining the key program elements that EPA and NHTSA plan to propose 
for MY2017-2025 light-duty vehicles. The agencies coordinated 
extensively with California, and held discussions with other 
stakeholders, including automakers, states, and environmental groups, 
to ensure that the forthcoming proposal is based on the most robust 
technical analysis possible. Many automakers and California have 
announced their commitment to support the outlined program. California 
has publicly committed to taking the same approach as it did for the 
MY2012-16 standards, paving the way for the continuation of a 
coordinated national program.

Questions submitted by the Honorable F. James Sensenbrenner

Q1. In testifying before the Subcommittee, you stated ``if the consumer 
uses E15 for 2001 in your vehicles, that warranty will not be 
impacted'' and that EPA had talked to all the automobile manufacturers 
in the waiver process. In a May 5th hearing before the House Energy and 
Power Subcommittee, you also testified that ``We are very confident 
that newer vehicles can use E15 gasoline blend.''
    a. When I contacted the automakers about E15, they shared their 
warranty information, which specifically prohibited the use of fuel 
over E10. These warranties state that using a fuel above E10 would 
constitute misfueling and result in the warranty being voided. How do 
you resolve the discrepancy between what you are telling this Committee 
and what the automakers are telling us? You state that EPA talked to 
the automakers when considering this decision, so why the inconsistency 
regarding warranty coverage for E15?

    A1a. My testimony before the Committee is based on EPA's waiver 
decisions and the record for those decisions. The Clean Air Act test 
for granting fuel waivers requires EPA to determine whether available 
data and analysis demonstrate that a new fuel will not cause or 
contribute to failures of emission standards. It does not depend on 
what fuel manufacturers recommend in their owner's manual. For E15, EPA 
determined that the extensive data available on E15 emission impacts 
demonstrates that E15 will not jeopardize compliance by MY2001 and 
newer cars and light trucks.
    In light of the available information demonstrating that MY2001 and 
newer vehicles will continue to meet emission standards on E15, we do 
not believe E15 use in these vehicles will result in damage or warranty 
claims.
    It is also worth noting that EPA's waiver decisions and labeling 
rule do not change the terms of manufacturers' warranty provisions. 
Under EPA's regulations, manufacturers may condition their emissions 
warranties on use of a particular fuel so long as the fuel is broadly 
available, and may deny an emissions warranty claim if use of a 
different fuel causes the problem. EPA does not have jurisdiction over 
other warranties that manufacturers may provide. However, as explained 
above, we do not anticipate that use of E15 in MY2001 and newer light-
duty motor vehicles will result in warranty claims.

b. What tests did EPA use that supports your agency's confidence that 
newer vehicles will be unharmed by E15? Were these tests designed 
specifically to test engine durability and the durability of 
components, such as a fuel pump and the fuel level senor? From my 
understanding of your testimony at the hearing, the tests simulated 
vehicle usage by meeting mileage thresholds, but isn't time a factor 
that should be considered?

    A1b. Several studies provided information about the potential 
effects of mid-level ethanol blends on the durability of emission-
related components, including engines, fuel pumps and fuel sensors. In 
particular, the DOE Catalyst Durability test program provided robust 
data for MY2001 and newer light-duty motor vehicles on the effect of 
long-term E15 exposure on vehicle components. The DOE program aged 
vehicles on E15 using the whole vehicle aging procedures defined in 
EPA's emission durability regulations (40 CFR 86.1823-08,1824-08). The 
vehicles were driven on chassis dynamometers or actual road surfaces 
for up to the full 120,000 mile useful life according to the standard 
road cycle. Since this is a whole vehicle mileage accumulation process, 
the entire vehicle including the engine, fuel pump, and fuel level 
sensor were all exposed to E15 for the full mileage accumulation 
period. To complete the study in a reasonable amount of time, the 
vehicles were driven nearly continuously over a period of six to nine 
months. This practice is consistent with the procedures manufacturers 
are required by regulation to perform in order to determine the 
emission deterioration of vehicles in actual use over their full useful 
life (FUL). Manufacturers must show that their vehicles will continue 
to meet emissions standards over their FUL, taking deterioration into 
account, to obtain the certificate of conformity that allows them to 
sell the vehicles.
    EPA also considered the series of studies completed by the State of 
Minnesota and the Renewable Fuels Association (RFA), \13\ including a 
study specifically investigating the effects of E20 on automotive fuel 
pumps. \14\ In addition, EPA technical experts reviewed other relevant 
information such as emissions-related defects and in-use vehicle test 
results reported to EPA by manufacturers as required by regulation. 
Based on all of the information before the Agency, including our 
engineering analysis of the types of changes manufacturers have made in 
response to the increasing stringency of motor vehicle standards and 
the rapid rise of E10 use across the nation, EPA concluded that newer 
motor vehicles will be able to maintain compliance with emissions 
standards if operated on E15.
---------------------------------------------------------------------------
    \13\  State of Minnesota and Renewable Fuels Association. The 
Feasibility of 20 Percent Ethanol Blends by Volume as a Motor Fuel, EPA 
Docket #EPA-HQ-OAR- 009-0211-0337.
    \14\  ``The Effects of E20 on Automotive Fuel Pumps and Sending 
Units;'' Nathan Hanson, Thomas Devens, Colin Rohde, Adam Larson, Gary 
Mead, Paul Steevens, and Bruce Jones; Minnesota State University, 
Mankato; February 21, 2008. EPA Docket #EPA-HQ-OAR-2009-0211-0002.28.

Q2. On July 7th, you repeatedly minimized the role of EPA is 
determining whether E15 gets sold in this country, citing that ``[a] 
number of additional steps need to be taken before E15 can enter the 
market, and many of those steps are not under EPA's control.'' Without 
EPA granting a waiver under the Clean Air Act, could any state or 
individual station allow the sale of E15? Without EPA registering E15, 
could any state or individual station ever allow the sale of the fuel? 
Assuming that E85 progresses at current or slightly higher levels, is 
it possible to meet Renewable Fuel Standard requirements over the next 
---------------------------------------------------------------------------
eleven years with mid-level ethanol blends up to E10?

    A2. The Clean Air Act prohibits fuel manufacturers from introducing 
E15 into commerce for use in conventional light-duty motor vehicles, 
but authorizes EPA to waive that prohibition if the requisite 
demonstration is made. Under the Clean Air Act, fuel manufacturers are 
also prohibited from introducing E15 into commerce for conventional 
vehicles until they register E15. These prohibitions do not apply to 
individual stations, but do apply to the fuel manufacturers that supply 
stations with fuel. Until a fuel manufacturer registers E15 for use in 
conventional vehicles, the manufacturer may sell E15 only for use in 
flexible-fueled vehicles.
    It is possible to meet the RFS volume requirements over the next 
eleven years if sufficient volumes of E85 and mid-level ethanol blends 
are consumed or if other qualifying renewable fuels are developed and 
used. The actual volume of ethanol consumed will depend on the degree 
to which sufficient infrastructure for E85 and mid-level ethanol blends 
are implemented, and the extent to which other types of fuels are 
produced to meet the RFS volume requirements.

Q3. In response to a question from Ranking Member Miller, you 
referenced the Ultra Low Sulfur Diesel (ULSD) program labeling 
requirements and the positive experiences in avoiding misfueling with 
that program. There are several distinctions, though, between that 
labeling program and what would be required for E15: (1) EPA's labeling 
requirements for the high sulfur fuels was much stronger and included a 
noticeable ``Warning'' in red letters, while the final E15 label is 
much weaker--it is nothing more than an ``Attention'' label; (2) The 
new fuel on the market, ULSD, was compatible with both new and old 
vehicles and engines which is not the case for E15; (3) the end users 
of ULSD doing the refueling (commercial truck drivers who recently 
purchased the vehicle with a business interest in preserving his/her 
expensive truck) were likely more informed and attentive to fuel 
labeling than typical citizens who will be purchasing gasoline for 
their vehicles or off-road equipment.
    In light of these distinctions, isn't the potential for misfueling 
a pre-model year 2001 vehicle, any heavy-duty vehicle, motorcycle or 
piece of non-road equipment on E15 likely to be greater than the chance 
of misfueling a MY2007 or newer heavy-duty truck on high-sulfur diesel 
fuel?

    A3. No. With regard to each of the distinctions you note:

    (1) EPA designed the E15 label with the help of consumer labeling 
experts at the Federal Trade Commission to effectively communicate key 
information for avoiding misfueling. As discussed in response to 
question 4a below, we concluded that ``ATTENTION'' would more 
appropriately alert consumers to the need to determine whether E15 is 
allowed for their vehicle or engine.

    (2) E10 is now the predominant fuel on the market, and it is 
compatible with new and old vehicles and engines. There is no 
requirement to sell E15, and we expect that it will take some time for 
businesses to take the various steps needed to bring it to market and 
make it widely available. The E15 partial waivers and misfueling 
mitigation rule require that measures be taken to minimize the risk of 
misfueling when E15 is introduced into commerce.

    (3) The ULSD program included an effective public outreach 
campaign, and we anticipate a similarly effective industry-led public 
education and outreach campaign for E15. Consumers have a strong 
interest in avoiding repair and replacement costs, whether they own 
trucks, cars or other vehicles and engines. EPA plans to work with E15 
stakeholders to help establish a public education and outreach program 
that provides consumers with additional information about the potential 
effects of E15 on vehicles and engines.

Q4. The American National Standards Institute and the International 
Standardization Organization recommend very specific color, signal 
word, and image standards for labels. Did EPA consult these recognized 
authorities in creating the misfueling label?

    A4. EPA communicated with the chairman of American National 
Standards Institute (ANSI) committee responsible for the ANSI standard 
for developing safety labels to obtain information about the standard 
as well as examples of products which had been labeled using the 
standard. To develop a label that would effectively convey the key 
information needed to avoid misfueling, we considered a broad range of 
public comments and expert advice, including advice from labeling 
experts at the Federal Trade Commission (FTC).

    a. Why change the signal word from ``CAUTION'' to ``ATTENTION'' in 
the final label?

    A4a. As discussed in the preamble of the final misfueling 
mitigation rule, comments in response to the proposed rule were divided 
between those who believed that the use of ``CAUTION!'' on the proposed 
label would deter appropriate use of E15, and those who believed that 
it would not be effective at preventing misfueling. We discussed this 
issue with FTC's consumer labeling experts who advised that 
``ATTENTION'' would more likely attract consumer notice without the 
risk of discouraging appropriate use of the fuel. EPA concluded that 
``ATTENTION'' strikes the right balance between alerting consumers 
about the improper use of E15 and scaring them away from appropriate 
use of E15. FTC staff also suggested that ``ATTENTION'' be placed at an 
angle in the upper left corner of the label to help draw consumers' 
eyes to it, and we adopted that placement.

    b. Why did EPA not include a picture of the types of vehicles and 
products that can or cannot use E15?

    A4b. As discussed in the preamble of the final misfueling 
mitigation rule, EPA decided not to require icons for several reasons. 
First, the icons suggested by some public commenters for on-highway 
vehicles that can, or cannot use, E15 relied on text to convey much of 
their message. Those icons also depicted a passenger car, which is only 
one of several vehicle types that can use E15 if from the specified 
model years. The other suggested icons portrayed only some of the 
nonroad vehicles and equipment that cannot use E15, which could have 
led consumers to incorrectly infer that E15 can be used in the types of 
equipment not depicted. In addition, use of multiple icons would have 
made the label more dense and complicated. Labeling experts at the FTC 
advised that consumers are unlikely to read lengthy pump labels with 
many icons. However, to the extent a fuel provider believes icons would 
be helpful to its customers, it may post them on its own signs and/or 
develop and submit an alternative E15 label including appropriate icons 
for EPA consideration and approval.

Questions submitted by the Honorable Chuck Fleischmann

Q1. Please provide a breakdown of the total amount of funds expended by 
the EPA in setting fuel economy standards/mobile source greenhouse 
gases since 2007 by year.

    A1. The following amounts have been allocated since 2007 for work 
supporting the development and implementation of GHG emissions 
standards for mobile sources: 2007: $6.7 million; 2008: $4.3 million; 
2009: $3.1 million; 2010: $3.2 million; and in 2011: $6.8 million. For 
FY 2012, the total amount of funds requested in the President's Budget 
proposal is $9.2 million.

Q2. What has been the total cost of EPA regulations on the auto 
industry from January 20, 2009 to the present?

    A2. The light-duty GHG standards begin implementation in 2012, 
while the Heavy-duty GHG standards begin implementation in 2014. 
Therefore, there have been virtually no costs associated with these 
regulatory programs for the time period highlighted in this question.

Q3. When does the EPA contemplate proposing fuel economy standards for 
heavy duty trucks for Model Year 2019 and later?

    A3. EPA and DOT have not set a schedule for the next set of GHG and 
fuel efficiency standards for heavy-duty trucks and vehicles.

Q4. How many EPA employees are working on regulating fuel economy/
mobile source greenhouse gases? The agency utilized base staffing 
levels for these standards, and to develop the 2017- 2025 vehicle 
standards, but we do not have a separate budget line-item for this 
effort.

    A4. EPA hired an additional 8 FTE in 2011 to support the 2012-2016 
vehicle and the 2014-2018 truck standards. These were the only new FTE 
to support mobile source GHG standards.

5. Last year, the EPA finalized a fuel economy/mobile source greenhouse 
gas rule for model years 2012 to 2016 that will raise the average price 
of a new vehicle by approximately $950. Last month, it was reported 
that the EPA is considering raising the fuel economy standard gain to 
56.2 mpg for model years 2017 to 2025. By the EPA's own estimates, 
raising the fuel economy standard to 56.2mpg will increase the price of 
a new vehicle by between $2,100 and $2,600. These two rulemakings will 
increase the average price of a new vehicle in 2025 between $3,050 and 
$3,550. Accordingly, how many Americans will be priced out of the new 
car market in 2025 if, on average, $3,000 is added to price of a new 
vehicle?

    A5. The Agencies will provide an assessment of the cost of the 
2017-2025 proposed fuel economy and greenhouse gas standards as part of 
the agencies' joint rulemaking proposal in the fall of 2011. There will 
be two primary economic impacts of more stringent future fuel economy 
and greenhouse gas emissions standards on new car buyers: a higher up-
front price and ongoing fuel savings. For example, for the 2012-2016 
standards, while the up-front cost is about $950 higher, fuel savings 
are estimated at about $4,000 over the life of the vehicle. While EPA 
and NHTSA are still completing our analysis of projected vehicle price 
increases for the MY2017-2025 proposed standards, we are confident that 
both the lifetime and 5-year consumer fuel savings, discounted to 
account for net present value, will exceed the projected vehicle price 
increases. It is also likely that consumers who buy a vehicle with a 5-
year loan will benefit from positive cash flow immediately upon 
purchase as the monthly fuel savings exceed the incremental monthly 
loan payment.

Questions submitted by the Honorable Randy Neugebauer

Q1. Ms. Oge, could you explain the details behind what makes an engine 
in a vehicle from model years 2001 and later safe to use E15 while that 
fuel is not suitable for a vehicle from a model year of 2000 or 
earlier? What is the mechanical and physical difference between an 
engine from 2000 versus an engine from 2001 related to the use of E15, 
and why did the EPA determine that one is safe for E15 and one is not?

    A1. In the E15 partial waiver decisions, EPA allowed E15 for sale 
only for the vehicles that extensive testing and analysis show can meet 
emission standards on E15. We denied the waiver for all other vehicles 
and engines because there was insufficient information to allay 
engineering concerns that E15 could cause or contribute to these 
products exceeding the emissions standards to which they were 
certified. EPA did not determine there are any mechanical or physical 
differences between the engines used in MY2000 and older vehicles 
versus the engines used in MY2001 and newer vehicles that caused us to 
deny the waiver for the former population of vehicles. Rather, 
available information and analysis indicated that the emission control 
systems of MY2001 and newer light-duty motor vehicles could maintain 
compliance with emissions standards when the vehicles were operated on 
E15. EPA's analysis is described in detail in sections IV. A of the 
January 2011 decision document and IV. C of the November 2010 decision 
document.

Q2. Could you please briefly explain the damage that would occur to an 
engine in the case of using E15 in an engine not approved for such 
usage?

    A2. It is not possible to predict exactly what type of damage, if 
any, would occur to a particular engine in view of the vast array of 
engines which may not use E15. We denied a waiver for the sale of E15 
for use in these engines because there was insufficient information to 
allay engineering concerns that E15 could cause or contribute to the 
engines exceeding the emissions standards to which they were certified. 
Those concerns include potential adverse effects on catalyst 
durability, fuel systems, evaporative emissions control systems and 
internal engine components. Please see the Nov. 4, 2010 waiver decision 
(75 Fed. Reg. 68094) and misfueling mitigation proposed rule (75 Fed. 
Reg. 68044) for detailed discussions of the potential impacts of E15 
exposure on the emission control-related components of vehicles and 
engines for which a waiver for E15 was denied.
    DOE-sponsored testing has provided data on possible damage to non-
road engines. A 2009 report by DOE found that two studies on the effect 
of E15 on nonroad engines were inconclusive but indicated potential 
problems in small non-road engines, including higher engine and exhaust 
temperatures and, in the case of three handheld trimmers, higher idle 
speeds and unintentional clutch engagement. A recently issued DOE 
report on the effects of E15 on current and legacy marine engines 
showed that of the three outboard engines tested, two had mechanical 
failures and the third exhibited misfire/rough operation at the end of 
the test period.

Q3. Has the EPA estimated the frequency that consumers are expected to 
mis-fuel their vehicles with E15 and the economic damage that would 
cause? Does the EPA believe that a simple pump label is sufficient to 
prevent consumers from putting the wrong fuel in their vehicle?

    A3. There is very little test data with respect to the effect of 
E15 use in MY2000 and older light-duty motor vehicles and all heavy-
duty gasoline engines and vehicles, motorcycles, and nonroad products. 
Our engineering assessment for these vehicles, engines, and products 
indicates a number of emission-related concerns with the use of E15. 
However, without more data, it is not possible to precisely quantify 
the frequency at which these vehicles, engines, and products might 
experience problems if fueled with E15.
    To minimize potential misfueling, EPA conditioned the E15 partial 
waivers on effective misfueling mitigation measures being taken. The 
Agency also issued a final rule establishing four regulatory provisions 
to further address concerns about potential misfueling: (1) a 
prohibition against the use of gasoline containing more than 10 vol% 
ethanol in vehicles, engines and equipment not covered by the partial 
waiver decisions, specifically MY2000 and older motor vehicles, heavy-
duty gasoline engines and vehicles, on and off-highway motorcycles, and 
nonroad engines, vehicles, and equipment; (2) labeling requirements for 
fuel pumps that dispense E15 to alert consumers to the appropriate and 
lawful use of the fuel; (3) the addition to product transfer documents 
of information regarding the ethanol content of, or the level of 
ethanol that may be added to, gasoline being sold to retail stations or 
wholesale purchaser-consumers so that E15 may be properly blended and 
labeled; and (4) an ongoing implementation survey requirement to ensure 
that E15 is in fact being properly blended and labeled (76 FR 44406, 
Jul. 25, 2011). In addition, EPA plans to work with stakeholders to 
develop an industry-led public education and outreach campaign; monitor 
the effectiveness of misfueling mitigation measures as E15 enters in 
the market; and take any further actions as needed and appropriate.
                   Answers to Post-Hearing Questions
Responses by Mr. Bob Greco, Group Director, Downstream and Industry 
        Operations,
American Petroleum Institute

Questions submitted by Chairman Andy Harris

Q1. During the question-and-answer session, Ms. Oge indicated that the 
CRC research was not properly designed. Please identify who designed 
the CRC testing and explain the difference or differences between the 
testing which EPA relied on for making a decision on the E15 waiver and 
the testing that the automotive and oil industries are conducting 
through CRC?

    A1. The E10+ research program currently being conducted by the CRC 
was designed by technical committees comprised of Automakers (Chrysler, 
Ford, GM, Honda, Mitsubishi, Nissan, Toyota, VW), Petroleum Companies 
(BP, Chevron, ConocoPhillips, ExxonMobil, Marathon, Shell). In 
addition, DOE (through the National Renewable Energy Lab) assisted in 
the design of two of the CRC E10+ studies: (a) engine durability and 
(b) the durability of automotive fuel system components exposed to E20. 
In fact, DOE also provided some financial support for the latter.
    The key difference between the CRC test program and the DOE study, 
which EPA relied upon for the E15 waiver, is the scope of the two 
efforts. The DOE study was designed for and targeted at determining 
effects of mid-level ethanol blends on the catalytic converters used in 
vehicle exhaust emission control systems, whereas the CRC program 
included tests which address the full range of potential short- and 
long-term emissions and performance issues associated with operating 
highway vehicles on these fuels. The CRC program is therefore a 
significantly more robust and comprehensive effort than that undertaken 
by DOE. As described in my written statement, the CRC program includes 
studies which evaluate: (a) engine durability, (b) vehicle fuel storage 
and handling equipment durability, (c) onboard diagnostic systems, (d) 
long term evaporative emissions control systems durability, and (e) 
emissions inventory/air quality modeling of mid-level ethanol blends. 
Attachment 1 to my written statement presents the timeline for this 
ongoing CRC effort.

Q2. In June of 2008, EPA staff presented ``Staff Recommendations'' for 
a mid-level ethanol blends test program to support a waiver during a 
meeting of API's Technical Committee in Chicago. How did this framework 
differ from the test program that EPA relied on in their decision?

    A2. The ``Staff Recommendations'' made by EPA in June of 2008 
outlined a framework for a comprehensive mid-level ethanol test program 
that included tests designed to address exhaust emissions, evaporative 
emissions, as well as materials compatibility and driveability or 
operability issues for both highway and non-road vehicles. For the 
waiver decisions, EPA effectively ignored this approach. It relied 
heavily on the results of the DOE Catalyst study which focused 
exclusively on an evaluation of long-term exhaust emissions control 
systems durability issues associated with the use of mid-level ethanol 
blends in highway vehicles. The Agency also inappropriately relied on 
the DOE study to draw conclusions about evaporative and engine system 
durability impacts for which the program was not designed to address.

                   Answers to Post-Hearing Questions

Responses by Ms. Heather White, Chief of Staff and General Counsel, 
        Environmental Working Group

Questions submitted by Chairman Andy Harris

Q1. In light of your testimony about the human health effects of E15, 
would you support EPA requiring applicants to conduct additional 
testing on physiological and health impacts before registering the 
fuel?

    A1. Yes. Environmental Working Group would support efforts by the 
Environmental Protection Agency to require applicants to conduct 
additional testing on environmental and human health impacts before 
registering E15, pursuant to section 211(o) of the Clean Air Act, 42 
U.S.C.Sec. 7545. As I mentioned in my oral testimony, we believe in a 
strong, vibrant, well-funded EPA and most of the time, we agree with 
EPA regulators. The E15 decision, however, concerns us because of the 
potential environmental and health impacts of its use. The agency 
should require additional testing of E15 before this fuel goes on the 
market, given that E15 has substantially different properties than 
gasoline blended with 10 percent ethanol (E10). EPA should specifically 
analyze the health impacts of E15 and associated air pollution on 
children, pregnant women, minority or low-income communities, and other 
sensitive populations. EPA should also consider E15's direct and 
indirect impacts on fuel mileage, underground storage tanks and other 
fueling or storage infrastructure, air quality, and water resources. 
All testing results and EPA analyses should also be made available to 
the public upon completion.

                   Answers to Post-Hearing Questions

Responses by Mr. Jeff Wasil, Emissions Certification Engineer,
Evinrude Outboard Motors

Questions submitted by Chairman Andy Harris

Q1. The U.S. Coast Guard filed comments in opposition to the granting 
of an E15 waiver. Rear Admiral Kevin Cook cited a ``reduction in the 
level of safety for recreational boaters'' and fuel system 
deterioration as reasons not to grant the waiver. Do you agree with 
this assessment of the potential safety hazards cited by the U.S. Coast 
Guard?

    A1. Yes, I agree with the U.S. Coast Guard's assessment. While 
there have been boat fuel system issues associated with E10, increasing 
the ethanol content by fifty percent to E15 will merely exacerbate 
these safety concerns. As I stated in my written testimony, we have 
evidence that an E15 blend of gasoline is almost certain to damage 
marine and other engines. Testing of E15 done by the Department of 
Energy's National Renewable Energy Laboratory focusing specifically on 
marine engines has demonstrated significant damage to most of the 
engines tested, with those that were not damaged demonstrating problems 
with performance, including the ability to run smoothly and start 
promptly. If such problems occur in an automobile, it's very simple: 
you wait for the tow truck to arrive. You're usually not in any danger, 
and it's just an inconvenience. If your engine breaks down while you 
are twenty miles at sea, however, it's an entirely different matter. 
You could be drifting helplessly, caught in a storm, and in grave 
danger-all because your fuel was an E15 blend. You might have to be 
rescued by the Coast Guard, thereby putting their boat and crew in 
danger. The irony is that this is a potential disaster that is easy to 
avoid: we simply do not move to a standard E15 fuel. There might be 
those who would suggest that you simply fuel your boat with no-ethanol 
gasoline or low-ethanol gasoline, and that would be ideal. But if E15 
becomes the standard fuel, you might not have that option. There is no 
need for the headlong rush to E15 being pursued by the EPA. The Coast 
Guard got it right. Such a move would reduce the level of safety for 
recreational boaters, and it should not be done.

Q2. You stated in your testimony that the EPA label for gasoline pumps 
that will dispense E15 is inadequate. Can you describe your specific 
concerns with EPA's misfueling label?

    A2. The misfueling label proposed by the EPA is inadequate. EPA 
asked for comments on its proposed label, and then it proceeded to 
ignore comments from some States, environmental groups, and marine, 
vehicle, engine, and petroleum industries, all of whom indicated that 
the label needed to be strengthened. As demonstrated from our past 
experience when the country transitioned from leaded to unleaded 
gasoline, a label alone is inadequate as a way of preventing 
misfueling. Our experience when unleaded fuel was introduced is that 
misfueling with leaded fuel was widespread, even with different nozzle 
sizes that were supposed to prevent such. Labels alone do not work, 
because the burden for preventing misfueling and subsequent engine 
damage or threats to operator safety is dependent on the consumer's 
first noticing and reading the label among all the others that are 
affixed to a gasoline pump and then making a decision about whether or 
not the label applies to his or her engine before deciding to dispense 
the fuel. The label proposed by the EPA is only in English and does not 
contain any graphic representations or pictures to supplement the text. 
This English-only text will increase the likelihood of misfueling, as 
the EPA apparently assumes that everyone in this country can read and 
understand English, which is most definitely not the case. Even 
assuming that the consumer actually notices the label on the fuel 
dispenser and can read the text, the language is not strong enough to 
warrant any real concern. The use of the word ``Attention'' on the EPA 
label is simply not strong enough to warn the consumer of potential 
ramifications of the misuse of this product. In a product safety sense 
and degree of risk assessment, the word ``Attention'' typically means, 
``The user should observe this information to ensure the proper use of 
the product, although failure to do so may not result in injury.'' The 
word ``Caution'' would be better suited, meaning, ``Failure to observe 
this instruction may result in injury or property damage.'' 
Additionally, the label should direct readers to consult their 
equipment owner's manual. Finally, regular misfueling surveys should be 
conducted to determine whether the label is working as designed and is 
actually preventing misfueling. If the label proves to be ineffective, 
E15 should be withdrawn from the marketplace until more effective 
misfueling prevention measures are implemented.

                   Answers to Post-Hearing Questions

Responses by Dr. Ron Sahu, Technical Consultant, Outdoor Power 
        Equipment Institute

Questions submitted by Chairman Andy Harris

Q1. You included with your testimony a critique of a DOE report on the 
effects of ethanol blends on legacy vehicles and small non-road 
engines.
Q1a. Could you summarize what you found in anallyzing DOE's testing?

    A1a. I reviewed the DoE Report entitled ``Effects of Intermediate 
Ethanol Blends on Legacy Vehicles and Small Non-Road Engines, Report 
1--Updated,'' NREL/TP-540-43543 and ORNL/TM-2008/117, dated February 
2009.
    First, I found that the testing plan and scope was inadequate to 
provide a reasonably complete picture of the effects of greater than 
E15 ethanol on the target engine and equipment universe--basically the 
number and types of tests conducted was inadequate and therefore the 
results, even if they had indicated little or no impacts, would have 
been suspect. Certainly there were not enough tests conducted to deduce 
and statistical relationships.
    Second, the above notwithstanding, based on my review, I found that 
the report did note the following major adverse impacts due to use of 
fuels with ethanol content greater than 10%:
        (a) engine exhaust temperatures rose significantly--yet the 
        report did not discuss any of the implications of these higher 
        temperatures and additional heat including impacts on the 
        engine and equipment (including catalysts if present) itself, 
        personnel safety, increased fire hazards, or the inability to 
        mitigate any of these hazards;
        (b) risks to operators dramatically increased such as due to 
        unintentional clutch engagement which resulted on several 
        tested products such as chainsaws because of high idle speeds;
        (c) Damage to Engines to the extent that some suffered total 
        and complete failures and would not start or operate after 
        running on E15 fuel; and
        (d) Operational Problems on many of the engines tested on mid-
        level ethanol such as erratic equipment operation, ``missing'' 
        and stalling of engines, and power reduction.
    Third, somewhat troublingly, I also found that Executive Summary of 
the report did not accurately summarize the scope, results as well as 
uncertainties associated with the testing which were reported in the 
main body of the report itself. It is my opinion that since most of the 
policy-makers will focus only on the Executive Summary, this could 
result in misinformed policies based on misleading conclusions.

Q1b. If you were to extend a similar assessment to the DOE Catalyst 
Study for on-road vehicles that EPA relied upon in granting a partial 
waiver, would you have similar criticism? Would you have designed the 
test program differently?

    A1b. Based on my experience with reviewing the prior report, I 
would have concerns regarding test design and scope since this is 
fundamental to the conclusions that are being drawn from the findings. 
I will give one example.
    The test procedure on which EPA relied is known as the ``Standard 
Road Cycle'' (SRC) (Federal Register /Vol. 75, No. 213 /Thursday, 
November 4, p68107). This procedure is only applicable to MY2008 and 
newer on-road vehicles. This procedure was finalized in January 2006 
(Federal Register / Vol. 71, No. 10 / Tuesday, January 17, 2006 / pp 
2810-2842) and was developed in response to a court finding that EPA's 
CAP 2000 regulations did not satisfy the requirements of section 206(d) 
of the CAA (Ethyl Corp. v. EPA). Manufacturers typically apply for 
vehicle emissions certification the year before a model goes on sale to 
allow time for the certification data to be reviewed and the 
certification issued. This means that a MY 2008 vehicle would have its 
data submitted in 2006. EPA recognized this by having the rule 
containing the SRC go into effect for the 2008 model year; further, EPA 
did not make any changes to the carryover provisions in the current 
regulations (ref. 40 CFR 86.1839-01). These provisions allow 
manufacturers to use durability data that was previously generated and 
used to support certification provided that the data ``represent a 
worst case or equivalent rate of deterioration''.
    Based on the above, it is likely that very few of the vehicles 
tested in the DoE catalyst durability program were certified using the 
SRC durability program.
    It is my understanding that as the test program was originally 
envisioned, the 2001 Hyundai Accent that failed analogous testing in 
Australia was to be one of the first vehicles tested. The purpose was 
to determine whether the test cycle itself was adequate since there is 
no data demonstrating that the EPA SRC cycle is sufficient to detect a 
vehicle whose catalyst would be damaged by the use of fuel containing 
ethanol in excess of that for which it was designed. Had the Hyundai 
Accent failed then this would have confirmed that the SRC could detect 
a failing vehicle; conversely, had it passed then it might have been 
concluded that the test cycle was inappropriate for this purpose.
    Yet, in the EPA/DOE test program, the Hyundai Accent was removed 
from the list of vehicles--thus it is unclear whether the SRC is an 
appropriate cycle or not.
    Thus one change to the test design would have been to include the 
Hyundai Accent in the program and to have first tested it, confirming 
the usefulness (hopefully) of the SRC and then to have used the SRC in 
subsequent tests.
                              Appendix II

                              ----------                              


                   Additional Material for the Record


Material Submitted by Representative Brad Miller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material Submitted by Chairman Andy Harris

    http://edocket.access.gpo.gov/2010/pdf/2010-27432.pdf 

    ENVIRONMENTAL PROTECTION AGENCY [EPA-HQ-OAR-2009-0211; FRL-9215-5] 
Partial Grant and Partial Denial of Clean Air Act Waiver Application 
Submitted by Growth Energy To Increase the Allowable Ethanol Content of 
Gasoline to 15 Percent; Decision of the Administrator

    AGENCY: Environmental Protection Agency.
    ACTION: Notice of partial waiver decision.
    SUMMARY: The Environmental Protection Agency (EPA) is partially 
granting Growth Energy's waiver request application submitted under 
section 211(f)(4) of the Clean Air Act. This partial waiver allows fuel 
and fuel additive manufacturers to introduce into commerce gasoline 
that contains greater than 10 volume percent ethanol and no more than 
15 volume percent ethanol (E15) for use in certain motor vehicles if 
certain conditions are fulfilled. We are partially approving the waiver 
for and allowing the introduction into commerce of E15 for use only in 
model year 2007 and newer light-duty motor vehicles, which includes 
passenger cars, light-duty trucks and medium-duty passenger vehicles. 
We are denying the waiver for introduction of E15 for use in model year 
2000 and older light-duty motor vehicles, as well as all heavy-duty 
gasoline engines and vehicles, highway and off-highway motorcycles, and 
nonroad engines, vehicles, and equipment. The Agency is deferring a 
decision on the applicability of a waiver to model year 2001 through 
2006 lightduty motor vehicles until additional test data, currently 
under development, is available.
    ADDRESSES: EPA has established a docket for this action under 
Docket ID No. EPA-HQ-OAR-2009-0211. All documents and public comments 
in the docket are listed on the http://www.regulations.gov Web site. 
Publicly available docket materials are available either electronically 
through http://www.regulations.gov or in hard copy at the Air and 
Radiation Docket in the EPA Headquarters Library, EPA West Building, 
Room 3334, 1301 Constitution Ave., NW., Washington, DC. The Public 
Reading Room is open from 8:30 a.m. to 4:30 p.m., Monday through 
Friday, excluding holidays. The telephone number for the Reading Room 
is (202) 566-1744. The Air and Radiation Docket and Information 
Center's Web site is http://www.epa.gov/oar/ docket.html. The 
electronic mail (email) address for the Air and Radiation Docket is: a-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9b949ed788d7be9599919f8eba9f8a9bd49d958c">[email&#160;protected]</a>, the telephone number is (202) 566-1742 and the 
fax number is (202) 566-9744. FOR FURTHER INFORMATION CONTACT: Robert 
Anderson, Office of Transportation and Air Quality, Mailcode: 6405J, 
Environmental Protection Agency, 1200 Pennsylvania Ave., NW., 
Washington, DC 20460; telephone number: (202) 343-9718; fax number: 
(202) 343-2800; e-mail address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="57163933322524383979053835322523173227367930382179">[email&#160;protected]</a>
    http://edocket.access.gpo.gov/2011/pdf/2011-1646.pdf

    ENVIRONMENTAL PROTECTION AGENCY [EPA-HQ-OAR-2009-0211; FRL-9258-6] 
Partial Grant of Clean Air Act Waiver Application Submitted by Growth 
Energy To Increase the Allowable Ethanol Content of Gasoline to 15 
Percent; Decision of the Administrator
    AGENCY: Environmental Protection Agency.
    ACTION: Notice of Decision Granting a Partial Waiver.
    SUMMARY: The Environmental Protection Agency (EPA) is taking 
additional final action on Growth Energy's application for a waiver 
submitted under section 211(f)(4) of the Clean Air Act. Today's partial 
waiver allows fuel and fuel additive manufacturers to introduce into 
commerce gasoline that contains greater than 10 volume percent ethanol 
and no more than 15 volume percent ethanol (E15) for use in model year 
(MY) 2001 through 2006 light-duty motor vehicles (passenger cars, 
light-duty trucks and medium-duty passenger vehicles), if certain 
conditions are fulfilled. In October 2010, we granted a partial waiver 
for E15 for use in MY2007 and newer light-duty motor vehicles subject 
to the same conditions. Taken together, the two waiver decisions allow 
the introduction into commerce of E15 for use in MY2001 and newer 
light-duty motor vehicles if those conditions are met.
    ADDRESSES: EPA has established a docket for this action under 
Docket ID No. EPA-HQ-OAR-2009-0211. All documents and public comments 
in the docket are listed on the http:// www.regulations.gov Web site. 
Publicly available docket materials are available either electronically 
through http://www.regulations.gov or in hard copy at the Air and 
Radiation Docket in the EPA Headquarters Library, EPA West Building, 
Room 3334, 1301 Constitution Ave., NW., Washington, DC. The Public 
Reading Room is open from 8:30 a.m. to 4:30 p.m., Monday through 
Friday, excluding holidays. The telephone number for the Reading Room 
is (202) 566-1744. The Air and Radiation Docket and Information 
Center's Web site is http://www.epa.gov/oar/ docket.html. The 
electronic mail (email) address for the Air and Radiation Docket is: a-
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabbb4bef7a8f79eb5b9b1bfae9abfaabbf4bdb5ac">[email&#160;protected]</a>, the telephone number is (202) 566-1742 and the 
fax number is (202) 566-9744. FOR FURTHER INFORMATION CONTACT: Robert 
Anderson, Office of Transportation and Air Quality, Mailcode: 6405J, 
Environmental Protection Agency, 1200 Pennsylvania Ave., NW., 
Washington, DC 20460; telephone number: (202) 343-9718; fax number: 
(202) 343-2800; e-mail address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a6b444e4f58594544047845484f585e6a4f5a4b044d455c04">[email&#160;protected]</a>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material Submitted by Representative F. James Sensenbrenner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T7254.055

[GRAPHIC] [TIFF OMITTED] T7254.056

[GRAPHIC] [TIFF OMITTED] T7254.057

[GRAPHIC] [TIFF OMITTED] T7254.058

[GRAPHIC] [TIFF OMITTED] T7254.059

[GRAPHIC] [TIFF OMITTED] T7254.060

[GRAPHIC] [TIFF OMITTED] T7254.061

[GRAPHIC] [TIFF OMITTED] T7254.062

[GRAPHIC] [TIFF OMITTED] T7254.063

[GRAPHIC] [TIFF OMITTED] T7254.064

[GRAPHIC] [TIFF OMITTED] T7254.065

[GRAPHIC] [TIFF OMITTED] T7254.066

[GRAPHIC] [TIFF OMITTED] T7254.067

[GRAPHIC] [TIFF OMITTED] T7254.068

[GRAPHIC] [TIFF OMITTED] T7254.069

[GRAPHIC] [TIFF OMITTED] T7254.070

[GRAPHIC] [TIFF OMITTED] T7254.071

[GRAPHIC] [TIFF OMITTED] T7254.072

[GRAPHIC] [TIFF OMITTED] T7254.073

[GRAPHIC] [TIFF OMITTED] T7254.074

[GRAPHIC] [TIFF OMITTED] T7254.075

[GRAPHIC] [TIFF OMITTED] T7254.076

[GRAPHIC] [TIFF OMITTED] T7254.077

[GRAPHIC] [TIFF OMITTED] T7254.078

[GRAPHIC] [TIFF OMITTED] T7254.079

[GRAPHIC] [TIFF OMITTED] T7254.080

[GRAPHIC] [TIFF OMITTED] T7254.081

[GRAPHIC] [TIFF OMITTED] T7254.082

[GRAPHIC] [TIFF OMITTED] T7254.083

[GRAPHIC] [TIFF OMITTED] T7254.084

[GRAPHIC] [TIFF OMITTED] T7254.085

[GRAPHIC] [TIFF OMITTED] T7254.086

[GRAPHIC] [TIFF OMITTED] T7254.087

[GRAPHIC] [TIFF OMITTED] T7254.088

[GRAPHIC] [TIFF OMITTED] T7254.089

[GRAPHIC] [TIFF OMITTED] T7254.090

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
